<html>
<title> - A LOOK AT FOOD INSECURITY IN AMERICA</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  A LOOK AT FOOD INSECURITY IN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2021

                               __________

                            Serial No. 117-2


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                         


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-672 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------



                        COMMITTEE ON AGRICULTURE

                     DAVID SCOTT, Georgia, Chairman

JIM COSTA, California                GLENN THOMPSON, Pennsylvania, 
JAMES P. McGOVERN, Massachusetts     Ranking Minority Member
FILEMON VELA, Texas                  AUSTIN SCOTT, Georgia
ALMA S. ADAMS, North Carolina, Vice  ERIC A. ``RICK'' CRAWFORD, 
Chair                                Arkansas
ABIGAIL DAVIS SPANBERGER, Virginia   SCOTT DesJARLAIS, Tennessee
JAHANA HAYES, Connecticut            VICKY HARTZLER, Missouri
ANTONIO DELGADO, New York            DOUG LaMALFA, California
BOBBY L. RUSH, Illinois              RODNEY DAVIS, Illinois
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
GREGORIO KILILI CAMACHO SABLAN,      DAVID ROUZER, North Carolina
Northern Mariana Islands             TRENT KELLY, Mississippi
ANN M. KUSTER, New Hampshire         DON BACON, Nebraska
CHERI BUSTOS, Illinois               DUSTY JOHNSON, South Dakota
SEAN PATRICK MALONEY, New York       JAMES R. BAIRD, Indiana
STACEY E. PLASKETT, Virgin Islands   JIM HAGEDORN, Minnesota
TOM O'HALLERAN, Arizona              CHRIS JACOBS, New York
SALUD O. CARBAJAL, California        TROY BALDERSON, Ohio
RO KHANNA, California                MICHAEL CLOUD, Texas
AL LAWSON, Jr., Florida              TRACEY MANN, Kansas
J. LUIS CORREA, California           RANDY FEENSTRA, Iowa
ANGIE CRAIG, Minnesota               MARY E. MILLER, Illinois
JOSH HARDER, California              BARRY MOORE, Alabama
CYNTHIA AXNE, Iowa                   KAT CAMMACK, Florida
KIM SCHRIER, Washington              MICHELLE FISCHBACH, Minnesota
JIMMY PANETTA, California            ------
ANN KIRKPATRICK, Arizona
------

                                 ______

                      Anne Simmons, Staff Director

                 Parish Braden, Minority Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  submitted report...............................................   121
Scott, Hon. David, a Representative in Congress from Georgia, 
  opening statement..............................................     1
    Prepared statement...........................................     3
    Submitted letters on behalf of:
        Besik, Ph.D., Deniz, Assistant Professor of Management, 
          Robins School of Business, University of Richmond......   103
        Biotechnology Innovation Organization....................   106
    Submitted statement on behalf of Barbara P. Glenn, Ph.D., 
      Chief Executive Officer, National Association of State 
      Departments of Agriculture.................................   108
Mann, Hon. Tracey, a Representative in Congress from Kansas, 
  letter submitted on behalf of Barry Feaker, Executive Director, 
  Topeka Rescue Mission Ministries...............................   134
Panetta, Hon. Jimmy, a Representative in Congress from 
  California, submitted statement on behalf of Robert Guenther, 
  Senior Vice President, Public Policy, United Fresh Produce 
  Association....................................................   118
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     4
    Submitted statement on behalf of Dave Donaldson, Co-Founder, 
      Chairman, Chief Executive Officer, CityServe, 
      International; Facilitator, Faith-Based Collaboration for 
      F2F........................................................   119

                               Witnesses

Waide, Kyle, President and Chief Executive Officer, Atlanta 
  Community Food Bank, Atlanta, GA...............................     7
    Prepared statement...........................................     9
    Submitted questions..........................................   136
Duvall, Zippy, President, American Farm Bureau Federation, 
  Washington, D.C................................................    14
    Prepared statement...........................................    15
    Submitted questions..........................................   137
Hodel, Eric, Chief Operating Officer and Chief Financial Officer, 
  Midwest Food Bank, Normal, IL..................................    17
    Prepared statement...........................................    18
    Submitted question...........................................   138
McBrayer, Jr., Max E., Chief Executive Officer, RaceTrac 
  Petroleum, Inc., Atlanta, GA...................................    42
    Prepared statement...........................................    43
Edenfield, Ron, President and Chief Executive Officer, Wayfield 
  Foods, Inc., Lithia Springs, GA................................    48
    Prepared statement...........................................    49
    Submitted questions..........................................   138

 
                  A LOOK AT FOOD INSECURITY IN AMERICA

                              ----------                              


                        THURSDAY, MARCH 11, 2021

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 9:00 a.m., via 
Webex, Hon. David Scott of Georgia [Chairman of the Committee] 
presiding.
    Members present: Representatives David Scott of Georgia, 
Costa, McGovern, Adams, Spanberger, Hayes, Delgado, Rush, 
Pingree, Kuster, Bustos, O'Halleran, Carbajal, Khanna, Lawson, 
Craig, Harder, Axne, Schrier, Panetta, Kirkpatrick, Bishop, 
Thompson, Austin Scott of Georgia, Crawford, DesJarlais, 
Hartzler, LaMalfa, Davis, Allen, Rouzer, Kelly, Bacon, Johnson, 
Baird, Hagedorn, Cloud, Mann, Feenstra, Miller, Moore, Cammack, 
and Fischbach.
    Staff present: Lyron Blum-Evitts, Ross Hettervig, Prescott 
Martin III, Anne Simmons, Ashley Smith, Caleb Crosswhite, Ricki 
Schroeder, Jennifer Tiller, Erin Wilson, John Konya, and Dana 
Sandman.

  OPENING STATEMENT OF HON. DAVID SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    The Chairman. This hearing of the Committee on Agriculture 
entitled, A Look at Food Insecurity in America, will now come 
to order.
    I want to welcome, and I want to thank, everyone for 
joining us today at this hearing. This is a momentous hearing. 
It is a much-needed hearing. We have, ladies and gentlemen, an 
extraordinary crisis on our hands confronting our nation, and 
that is a hunger crisis. And it is very important because there 
is no Committee up here that is more highly regarded to deal 
with the issue of hunger and food security than our House 
Agriculture Committee. And this goes for both Democrats and 
Republicans. We come to this hearing jointly to get the 
information, to get the facts, to get some understanding as to 
why, right now, we have 12 million of our children in this 
country going to bed hungry and malnourished every night. We 
are, indeed, the greatest country in the world. We are the most 
powerful country in the world, and now, today, we are going to 
show truly how great we are and how powerful we are as a 
nation, because we are going to solve this hunger crisis. And 
we start today.
    And now, Members will be recognized in order of seniority, 
alternating between Majority and Minority Members, and in order 
of arrival for those Members who have joined us after the 
hearing was called to order. Now, when you are recognized, 
please unmute your microphone and you will have 5 minutes to 
ask your questions and make a comment. I am going to be 
somewhat more strict than I have been in terms of the 5 
minutes, because we want to make sure that every Member has the 
time to get their questions answered and to make their 
contribution. Each of our distinguished guests will have their 
time to do likewise.
    And so, in order to get in as many questions as possible, 
the timer will stay consistently visible on your screens, and 
we also have somewhat of a busy morning schedule on the Floor. 
But this hearing is too important. We must continue and carry 
it on. And so, I am asking Members to work with the staff, 
communicate with the staff. These votes are staggered. Some can 
go while others stay. And when I am gone and I will vote, I 
have asked the distinguished gentlelady from Connecticut, Mrs. 
Jahana Hayes, who is also the Chairwoman of the Subcommittee on 
Nutrition, Oversight, and Department Operations, to substitute 
for me while I go vote.
    So, with that, I want to thank all of you on this Committee 
for sharing your comments with me, some of you, on how 
important this hearing is, and that we want to solve the hunger 
situation in our nation, and food insecurity.
    We all know from our own experience how disruptive this 
COVID-19 pandemic has been to each of our daily lives, our 
families' lives, and of course, trying to conduct our business 
here in Washington. We can well imagine these hassles have 
magnified multiple times.
    And you know, I was thinking, just imagine being without a 
paycheck when we have literally millions of our citizens that 
had a paycheck don't have it now, and that is why we see lines, 
miles long, of our citizens trying to get food from our 
community food banks, and these lines are miles long, and 
imagine trying to feed your kids adequately, plus teach them at 
home because of COVID, and pay the bills, and keep looking for 
a job, all while worried that you may not even make next 
month's rent or the mortgage.
    These are some of the special difficulties that many of our 
families have been facing for the past year. Fortunately, 
Congress has responded with critical COVID-19 legislation like 
Families First, CARES, provisions in the omnibus that we passed 
in December, and yesterday's historic passage of the American 
Rescue Plan. And I am certain some of the modifications and 
increases that were included in those bills are making a 
difference to families in need in my district, as well as each 
of your districts as members.
    We know that we have saved lives, although we have also 
lost lives. But where are we now? We continue to see lines, 
waiting hours to pick up a box of food. We see video footage of 
children saying they are just plain hungry. I was very moved by 
the report on CNN where they showed this young lady, in tears. 
``What is wrong,'' they said. She said, ``I am starving, and my 
family is.'' And even if we are now seeing a light at the end 
of the tunnel as vaccination rates increase, we know that SNAP 
enrollments are way up, and food banks continue to be flooded 
with people who have never before had to seek help.
    Let's look at the numbers very briefly. Prior to the 
pandemic in February of 2020, there were 36.8 million people in 
our country on SNAP. By April of 2020, SNAP rolls were up to 40 
million people, and that increased to nearly 43 million by 
September of last year. What can we anticipate in the future? 
The Congressional Budget Office in February released their 
baseline projections for the next 10 years for SNAP. They 
predict that the negative effects of the pandemic will continue 
through most of 2022, with an average total of 44 million of 
our precious Americans on SNAP next year, before it begins to 
decrease in 2023, hopefully and prayerfully. Even if this virus 
disappears, we are going to be living with its aftermath for 
some time. This is why I have said over and over that this 
hearing is perhaps our most critical, because folks, as you 
well know, we can do without a lot of things, but we cannot 
survive without food.
    So, we need to be realistic about this and continue to work 
to shore up the people who are counting on us to help them, and 
just like a hurricane or tornado or flood, or an earthquake, we 
are dealing with a natural disaster that demands we come 
together, Republicans and Democrats, working together. If we 
work together as Democrats and Republicans, we will find the 
real solution to hunger in our great nation. This, ladies and 
gentlemen, is our responsibility. This is our charge this 
morning, and we are going to need help and also, we are going 
to need the almighty hand of God to help lead us together as 
Democrats and Republicans to solve this hunger crisis in our 
nation.
    [The prepared statement of Mr. David Scott follows:]

 Prepared Statement of Hon. David Scott, a Representative in Congress 
                              from Georgia
    Good morning, and thank you to everyone for coming a little early 
today so we have ample time to discuss today's very important topic, 
which is hunger, and food insecurity.
    We all know from our own experience how disruptive the pandemic has 
been to our daily lives. Well imagine these hassles magnified multiple 
times.
    Imagine being without a paycheck, without a car and fearful of 
public transportation. Imagine trying to feed your kids adequately, 
plus teach them at home and pay the bills, and keep looking for a job, 
all while worried that you may not make next month's rent.
    These are some of the special difficulties low-income families have 
been facing this past year.
    Fortunately, Congress has responded with critical COVID legislation 
like Families First, CARES, provisions in the Omnibus we passed in 
December and yesterday's historic passage of the American Rescue Plan.
    I am certain some of the modifications and increases that were 
included in those bills made a difference to families in need. In my 
district, I know it saved some lives even as many other lives were lost 
to COVID-19.
    But where are we now? We continue to see lines of cars waiting 
hours to pick up a box of food. We see video footage of children saying 
they are just plain hungry. And, even if we see a light at the end of 
the tunnel as vaccination rates increase, we know SNAP enrollments are 
way up, and food banks continue to be flooded with people who have 
never before had to seek help.
    Let's look at the numbers:

  <bullet> Prior to the pandemic, in February of 2020, there were 36.8 
        million people on SNAP.

  <bullet> By April of 2020, SNAP rolls were up to 40 million people 
        and that increased to nearly 43 by September of last year.

    What can we anticipate in the future? The Congressional Budget 
Office in February released their Baseline Projections for the next 10 
years for SNAP. They predict that the negative effects of the pandemic 
will continue through most of 2022, with an average total of 44 million 
on SNAP next year, before it begins to decrease in 2023.
    So, even if this virus disappears, we are going to be living with 
its aftermath for some time. We need to be realistic about this and 
continue to work to shore up the people who are counting on us to help 
them through this crisis.
    Just like a hurricane, a tornado, a flood or an earthquake, we are 
dealing with a natural disaster that demands we come together for a 
real solution to hunger. This is our responsibility and we are going to 
need help.
    And today, we have help in form of these fine witnesses all of whom 
are experts in some aspect of feeding people.
    We thank each of you for your time and expertise in joining us 
today and look forward to hearing your experiences with what you are 
seeing in your communities that will assist us as we look at another 
year of increased food insecurity due to the pandemic.

    The Chairman. Thank you. I didn't mean to carry that so 
long, but this hearing is so important.
    And now, I would like to welcome our distinguished Ranking 
Member, my good friend, the gentleman from Pennsylvania, Mr. 
Thompson, for his opening remarks.

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    Mr. Thompson. Well, thank you, Chairman. Good morning, 
everyone.
    First of all, let me thank our witnesses for their time and 
their attention. Your participation on what is this Committee's 
first, or at least, more fulsome attempt at publicly reviewing 
the pandemic and Congress's response is much appreciated.
    I think we have a lot to celebrate, actually, with what we 
have accomplished in the nutrition space, and it actually 
started with our 2018 Farm Bill. What the Administration was 
able to very adequately and appropriately utilize to make sure 
that neighbors in need had access to nutrition, that 
authorization came through our hard work, specifically in the 
2018 Farm Bill, the most recent edition, obviously, the 2018 
Farm Bill. But also, as Members, in 2020 I think it is--the 
Members in this committee room, Members of our Committee, 
Republicans and Democrats, who worked in a bipartisan way on 
five CARES bills, the most--last one in 2020 being--that we 
passed on December 21 signed by President Trump December 27. 
Those really took advantage of the authorization we provided in 
the farm bill, and we were able to appropriate in order to meet 
the needs of our neighbors in need, under the conditions of 
this specific--I know we call it a pandemic. Quite frankly, it 
was a plague that plagued our families, our businesses, our 
communities.
    So, this pandemic has infiltrated our lives in every sense 
possible. Unfortunately, the brunt of it was borne on our 
communities, and in particular, families already living 
paycheck to paycheck. In too many instances, arrogant career 
politicians issued statewide indiscriminate edicts forcing 
businesses and schools to shut their doors, plummeting our 
communities into a deep recession. As the end of the pandemic 
nears, I hope we can use today to discuss what worked, what 
needs improvement, and ways to provide these families with more 
holistic services, particularly as they engage in a post-
pandemic economy that will look somewhat wildly different.
    The Supplemental Nutrition Assistant Program, or SNAP, 
currently provides nutrition assistance to 43 million 
individuals, with an average individual benefit of $183. Total 
SNAP-related spending in Fiscal Year 2020 was $78.9 billion, 
which includes benefits, administration, nutrition education, 
employment and training, and program integrity. And of the 
$78.9 billion, $74.2 billion was solely for benefits. By way of 
the Families First Coronavirus Response Act, the Coronavirus 
Aid Relief and Economic Security Act, and Consolidated 
Appropriations Act of 2021, more than $37.8 billion has been 
appropriated to respond to the Supplemental Nutrition 
Assistance needs of our communities. This monumental response 
is in addition to the more than $7.7 billion per month in 
standard SNAP benefits.
    Now, beyond direct funding from Congress, the former and 
the current Administrations have issued more than 4,000 
administrative waivers to states. These waivers impact 
operations related to the program eligibility, distribution of 
benefits, employment and training, and more.
    These facts are startling. Combined with the myriad of 
social service policies, including those found in the short-
sided, outrageously naive American Rescue Plan, we are in the 
midst of our nation's second largest expansion of entitlements. 
Now, unsurprisingly, leading economists and Wall Street 
analysts have said key parts of the bill are poorly targeted to 
the specific needs of the crisis. While my colleagues would 
like nothing more than for me to focus on their charade, I am 
going to leave that conversation for another hearing. Today, it 
is about the response. The witnesses before us are everyday 
heroes. These are the folks who responded without hesitation to 
the needs of their communities infested by a pandemic that took 
the lives of hundreds of thousands of our friends, neighbors, 
and family members. Whether it be the farmer who chose to 
donate their crop or the food bank who opened additional sites 
to be more accommodating, the witnesses before us and every 
single person who helps keep these entities operational deserve 
our thanks and our sincere appreciation, Mr. Chairman. We are 
so appreciative of them.
    And while the Department is not represented in today's 
hearing, I must give them my accolades as well, particularly 
the former Administration--like it or lump it--the bulk of the 
response originated in the last Congress under President Trump. 
Quick-thinking folks implemented pandemic EBT, and the Farmers 
to Families Food Box Program, two projects that remain 
remarkably beneficial to families in need. The latter continues 
to fall victim to inconceivable criticism, and there is always 
room for more solutions to the needs of our nation. The Farmers 
to Families Food Box Program has opened eligibility, making 
certain anyone and everyone in need, regardless of status, 
income, or household size, has supplementary access to 
nutritious foods that run the gamut from fruits and vegetables, 
to meat, and to dairy. I would say, some of the most 
nutritional foods that we could ever provide through our 
nutrition programs. This program has provided more than 143 
million boxes to households across the United States, and with 
this program, farmers were able to redirect their products, and 
American workers were able to sustain employment or join new 
ventures, all to ensure fresh foods found their way into the 
homes of millions. Now, regardless of the cherry-picked hiccups 
this Committee has heard about over the summer, the program has 
worked exactly as intended.
    And with that, my thanks to the witnesses once again for 
their participation, and I trust that Chairman Scott will 
continue to host additional oversight hearings across all 
programs and constituencies germane to this pandemic response.
    With that, thank you, Mr. Chairman, and I yield back.
    The Chairman. Thank you very much, Mr. Ranking Member, and 
your comments were, as usual, excellent and well-prepared and 
well-delivered.
    Mr. Thompson. You are very kind.
    The Chairman. Thank you.
    As Chairman, I would request that other Members submit 
their opening statements for the record so witnesses may begin 
their testimony and to ensure that there is ample time for 
questions.
    Once again, I would like to welcome all of our witnesses, 
and thank you for being here. I echo the Ranking Member's 
comments about our witnesses this morning, and I hope that 
people all across this country who are watching this hearing, 
tuning in, to please call a friend or neighbor and let them 
hear, because the only way we are going to be able to respond 
to this hunger crisis is to listen, to learn from the people 
who are out there dealing with it every day.
    Our first witness is certainly exemplary of that. Our first 
witness--and I am so pleased to welcome--is Mr. Kyle Waide. 
Please, let me tell you of my own personal relationship with 
Mr. Waide. When we had a crisis in terms of helping to get food 
out, as well as the pandemic testing, he joined with me as a 
partner and we were able to get food at Mundy's Mill High 
School in Clayton County, where we fed over 6,000 people and 
tested them, saved their lives, and delivered food to them. And 
Ranking Member Thompson, I might say, our good friend, yours 
and mine, Sonny Perdue, who was Agriculture Secretary there, he 
was out there with me and Kyle Waide delivering baskets of 
food, and that is why I say this is truly a bipartisan venture.
    And so, let me tell you just a little bit about Kyle Waide. 
He has been and is the President and the CEO of the Atlanta 
Community Food Bank, and he has served in that capacity for the 
last 5 years, going into his sixth year. He has served as CEO 
and President ever since 2015. And he also serves as the 
Chairman of the Southeast Regional Cooperative and he is also 
the Vice Chair of the Georgia Food Bank Association. Prior to 
his role as CEO and President, Mr. Waide served as the food 
bank's Vice President of Partner Operations, and he has truly 
been my partner in what we are doing, and going into the 
communities, bringing the food, bringing the vaccine so we can 
get this behind us.
    Our second witness who I am pleased to be able to invite to 
join us today is another great and good friend, Zippy Duvall. I 
just love that name. I love to say it, as probably you can tell 
from the way I am saying it. Zippy Duvall. Zippy is President 
of the American Farm Bureau Federation, and Mr. Duvall has 
served as President of the Farm Bureau since 2016. And he is a 
third-generation farmer from Georgia. He owns a beef cow herd. 
He raises broiler chickens, and he grows hay. What a farmer. 
Prior to serving as the AFBF President, Zippy Duvall was 
President of the Georgia Farm Bureau and served on the Farm 
Bureau's Board of Directors. We are so delighted to have you 
with us, Zippy.
    Our third witness is Mr. Max McBrayer, and Mr. McBrayer has 
been with RaceTrac Petroleum for 29 years, and he has served as 
the CEO since 2019. Prior to his current role, he served as the 
Chief Financial Officer and Chief Supply Officer. He was born 
and raised in Georgia, and he owns and is the Chief Executive 
Officer of over 500 RaceTrac convenience store operations. It 
is great to have you with us.
    Next, we will hear from Mr. Ron Edenfield, another great 
friend, who has been an exemplary leader as a leader on the 
grocery store ownership side of our agriculture and food 
industry. Mr. Edenfield is the President and CEO of Wayfield 
Foods, Inc. He co-founded Wayfield Foods in 1982, and now owns 
nine locations across the metro Atlanta area. Mr. Edenfield 
also serves on the Food Industry Association's Board of 
Directors, and previously served on the Board of Directors for 
the Georgia Food Industry Association.
    As I said, what a stellar panel we have to deal with this 
emergency issue.
    I want to introduce our next witness--let me see. Thank 
you. Thank you.
    And now, to introduce our fifth witness, I am pleased to 
yield to our colleague, the distinguished gentleman from 
Illinois, Congressman Rodney Davis.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to 
Ranking Member Thompson.
    Just like you had great pride in introducing our mutual 
friend, Zippy Duvall from your home state, I am very excited to 
be able to introduce this guest, our next guest who has come 
here to talk about this important issue today. Eric Hodel is 
our witness here today from the Midwest Food Bank, which began 
in Bloomington, Illinois. The Midwest Food Bank operations are 
able to serve over 500 agency partners across 50 counties in 
central and eastern Illinois, and many people in my district. I 
visited the Midwest Food Bank numerous times over my career, 
and I am excited to have Mr. Hodel here, grateful for the 
opportunity to hear from him, and all of our witnesses today.
    Mr. Chairman, I will yield back.
    The Chairman. Well, thank you very much, Congressman.
    And now, without delay, we are going to get started. Our 
first panelist will be Mr. Kyle Waide, CEO of the Atlanta 
Community Food Bank, and a great leader in this area. Mr. 
Waide, you will be recognized for 5 minutes.

         STATEMENT OF KYLE WAIDE, PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, ATLANTA COMMUNITY FOOD BANK, ATLANTA, GA

    Mr. Waide. Chairman Scott, Ranking Member Thompson, and 
distinguished Members of the Committee, I want to thank you for 
your invitation to testify today.
    The Atlanta Community Food Bank, which I am privileged to 
serve as CEO, is one of the largest members of Feeding America, 
the national network of food banks. Feeding America's 200 
member food banks serve kids, families, and seniors in every 
county in the United States, distributing 7\1/2\ billion pounds 
of food through a grassroots network of community-based feeding 
programs. In north Georgia, my food bank serves close to 
900,000 neighbors, and we distributed 105 million pounds of 
food in the past year across 29 urban, suburban, and rural 
counties.
    The past 12 months have been the most challenging and the 
most inspiring year of our network that we have ever 
experienced. In March of 2020, food insecurity rates reached 
their lowest levels in 20 years. Twelve months later, these 
numbers have grown by as much as 30 percent and as many as 50 
million people face food insecurity, including 17 million 
children. The crisis is touching people in communities of all 
backgrounds, with 35 percent of the people that we are serving 
today experiencing food insecurity for the first time in their 
lives. Communities of color and many rural communities are 
facing more severe increases in food insecurity. These 
communities were more vulnerable before the pandemic, and the 
crisis has intensified those vulnerabilities.
    Food banks across the country have responded creatively and 
aggressively to increased demand. In 2020, our network, as I 
mentioned, distributed 7\1/2\ billion pounds of food, an 
increase of 43 percent. Half of that food came from fresh 
produce, milk, dairy, and animal proteins from our partners in 
the agricultural community. Food banks are doing this by 
dramatically increasing food purchasing and transportation 
capacity. We are providing financial support for our network of 
community-based feeding programs, many of whom operate out of 
churches and depend entirely on the commitment of volunteers. 
We are working with new partners, schools, business groups, 
local government, to distribute food in places and to 
communities where our existing partners could not meet the full 
demand.
    As Chairman Scott mentioned, we worked with him and other 
partners last year to operate large scale drive-thru sites 
where families could access testing and also receive food 
assistance. These pop-up partnerships are even more critical in 
rural communities where we have seen larger numbers of our 
existing partners forced to close.
    We couldn't have done this work, of course, without the 
support from our donors, and we are deeply grateful for the 
incredible support of the National Guard, which has deployed 
members to support food banks in many states around the 
country, including Georgia.
    Federal nutrition programs have been critical to helping 
food banks do our work. Food supplied by two Federal programs, 
The Emergency Food Assistance Program, TEFAP, and the Farmers 
to Families Food Box Program have provided food banks with 
substantial volumes of food, 50 percent of our total inventory 
in the Atlanta Community Food Bank since June. Sustaining our 
response will be impossible without ongoing support from USDA 
at similar levels. This is even more important for rural food 
banks, which faced higher levels of food insecurity, fewer 
private sources of food, and as a result, depend on Federal 
programs for 60 to even 80 percent of their total food 
inventory. We also believe a successful food box program can 
become more equitable and accountable by leveraging well-
established distribution channels and high-capacity partners 
for moving this food.
    Support for food assistance through other nutrition 
programs has also played a critical role. SNAP is the most 
important of these programs, and it provides nine times the 
amount of food that we provide through Feeding America food 
banks. We strongly support expanding access to SNAP, which will 
reduce the burden on food banks, reduce food insecurity, and 
stimulate local economies, especially in more rural areas.
    Looking forward, food bankers are preparing for a marathon. 
While we hope for a robust recovery, we expect to face 
historically high levels of food insecurity well beyond 2021. 
We are prepared to work with you to meet this challenge. We 
have the infrastructure, the partnerships, and the resources to 
do more. But to do more, we will need your help, especially in 
the form of additional funding for food. If the volume of 
Federal commodities flowing to my food bank were cut in half, 
we would need to double our budget to replace it, and we simply 
don't have enough resources to make up that kind of difference 
over the long haul. I urge the Committee, Congress, and the 
Administration to keep your foot on the gas, purchase more food 
through TEFAP and other USDA programs, leverage high capacity 
partners like the nation's food banks to move this food safely, 
efficiently, and equitably to the people and communities who 
need it, sustain the expansion of SNAP benefits, use waivers 
and other nutrition program flexibilities to make it easier for 
food-insecure families to access food, and doing so will help 
our country recover faster.
    I want to again thank Chairman Scott for inviting me to 
testify. We celebrate the Committee's interest in ensuring all 
of our neighbors have the food they need, and I look forward to 
working with you on that important goal and to answering your 
questions.
    Thank you.
    [The prepared statement of Mr. Waide follows:]

    Prepared Statement of Kyle Waide, President and Chief Executive 
           Officer, Atlanta Community Food Bank, Atlanta, GA
    Dear Chairman Scott, Ranking Member Thompson and distinguished 
Members of the Committee:

    Thank you for the invitation to testify at today's hearing on A 
Look at Food Insecurity in America. My name is Kyle Waide and I am the 
President and CEO of the Atlanta Community Food Bank, one of the 
largest food banks in the country. I am excited to share my perspective 
today on the food insecurity crisis and the work we're doing to 
confront it.
    My food bank is part of Feeding America, the national network of 
food banks. Like our sister food banks across the country, the Atlanta 
Community Food Bank works to fight hunger by engaging, educating and 
empowering our community. We work with a wide variety of retailers, 
farmers, manufacturers, distributors, and Federal programs to secure 
donated and purchased essential groceries. We distribute this food 
through a large, decentralized grassroots network of more than 600 
community-based feeding programs across twenty-nine urban, suburban and 
rural counties in north Georgia. In 2020, we served close to 900,000 of 
our Georgia neighbors, distributing more than 100 million pounds of 
food through a network of partners.
    Our work depends on broad community support. Feeding America food 
banks are supported by millions of volunteers, who help us pack food 
boxes, organize and manage food distributions, and address other client 
needs. In addition to managing a food supply chain that moves 7.5 
billion pounds of food in 2020, our network of food banks also provides 
a variety of additional programs and services, ranging from food 
pharmacies and nutrition education to job training and assistance with 
applying for benefit programs. Collectively, we serve kids, families 
and seniors in every county in the United States, including each of the 
159 counties in Georgia.
    The Feeding America network is uniquely capable of working to 
reduce food insecurity. Through forty years of growing our capacity, 
building public-private partnerships, responding to crises and driving 
innovation, we've seen it all. And yet the past twelve months have been 
the most challenging and most inspiring year our network of food 
bankers has ever experienced.
Impact of the Pandemic on Food Insecurity
    Prior to the pandemic, national food insecurity rates had reached 
their lowest levels in 20 years. After reaching a peak following the 
Great Recession, the food insecurity rate fell steadily as the economic 
recovery accelerated and we reached historically low levels of 
unemployment. Despite that progress, some 35 million individuals, 
including nearly 11 million children, still lived in food-insecure 
households. In Georgia, one in eight of our neighbors didn't always 
know where their next meal would come from, including more than 400,000 
children.
    Based on an analysis conducted by Feeding America, we estimate that 
the economic effects of COVID-19 have caused an additional 350,000 
Georgians to experience food insecurity, an increase of close to 30%. 
Nationally, the food-insecure population could be as high as 50 
million, including nearly 17 million children. These increases suggest 
that there are likely more food-insecure kids and families today than 
there were at the peak of the Great Recession. Many of the people who 
have fallen into food insecurity are experiencing it for the first time 
in their lives, as our food pantry partners across the country report 
that 35% or more of the people they're serving today had never received 
charitable food prior to the pandemic.
    While the pandemic has increased food insecurity far and wide, 
touching people and communities of all backgrounds, we also know that 
the impact has been even greater on those communities that were already 
experiencing higher rates of food insecurity prior to the pandemic. 
Black, Latino, and Native American/Alaskan communities were twice as 
likely to face food insecurity before the pandemic and were less likely 
to have health insurance. During the pandemic, these communities have 
experienced higher rates of COVID-19 infection and mortality, while 
also experiencing more significant increases in unemployment due to the 
economic downturn. Alongside our peer food banks across the country, 
the Atlanta Community Food Bank is working to enhance our core 
practices in communities of color to ensure we are serving people 
equitably.
    Similarly, many rural communities experienced higher levels of 
hunger before the pandemic, a challenge that has only intensified in 
the current environment. Food insecurity rates exceed 20% in a number 
of large, rural census tracts across Georgia for a variety of reasons. 
With the nearest grocery store, food pantry, or food bank potentially 
hours away, food deserts are more common. Job opportunities are more 
concentrated in low-wage industries. Higher fixed costs to operate 
impact profit margins for smaller grocery retailers, who pass on those 
increased costs to their customer base. Many of these communities face 
higher rates of unemployment and underemployment. The pandemic has 
intensified these challenges.
Food Bank Response to the Food Insecurity Crisis
    In the initial weeks and months of the pandemic, food banks faced 
three significant challenges as we sought to respond to the crisis. 
First, as noted above, demand for charitable food assistance grew 
dramatically and suddenly. The extent of this increase has been 
captured repeatedly in media images from around the country of lines of 
cars stretching for miles, waiting to receive boxes and bags of 
charitable food. Second, stress on the larger food supply chain reduced 
our access to several key sources of food at the very moment when we 
needed more food than we ever have. Third, like so many other 
businesses and nonprofits, we had to quickly adapt all of our core 
processes for storing, handling and distributing food in order to 
reduce the risk of exposure to COVID-19 for our staff, partners, 
volunteers and clients.
    Food banks, our partners and our volunteers have responded 
creatively and courageously to these challenges. At the Atlanta 
Community Food Bank, we have grown our weekly distribution of food by 
65% and now provide close to 2.5 million pounds of food a week. Nearly 
60% of the food we are distributing is perishable. Similarly, in 2020, 
Feeding America food banks collectively distributed 7.5 billion pounds 
of food, an increase of 43% compared to 2019. This included 3.8 billion 
pounds of fresh produce, milk, dairy and animal proteins, more than 
half of all the food we distributed. We are providing more food to more 
people more often than we ever have, significantly reducing the impact 
of hunger created by the pandemic.
    Fueling this growth are a variety of approaches for increasing our 
capacity in light of the crisis. Food banks have dramatically increased 
our food purchasing activity. In Atlanta, we are spending more than $1 
million every month to buy food, and we expect to increase this number 
significantly in the coming months to keep up with such high levels of 
demand. Food banks have also increased our trucking capacity to support 
more large mobile food distributions. In Atlanta, we are supporting 60 
mobile ``pop-up'' distribution deliveries each week, in addition to the 
regular orders we process, an increase of more than 50% compared to our 
volume prior to the pandemic. Food banks have increased operational 
staff to support higher volumes of activity. In Atlanta, our payroll 
expenses are 25% higher than they were a year ago, in addition to the 
increases in other operational costs related to supplies, 
transportation and so forth.
    Central to our effort has been the resiliency of our extraordinary 
network of community-based feeding programs, many of whom depend 
entirely on the commitment of volunteers to continue operating. Despite 
the obvious risks to the safety of these volunteers and staff, many of 
whom are seniors, the majority of these programs have continued to 
serve hungry families on the front lines. Food banks across the country 
have worked to support our partners financially with grants and other 
support to help them stay open and grow their capacity. At the same 
time, food banks have also worked closely with new partners during this 
pandemic to distribute food in places and to communities where our 
existing partners could not meet the full demand. My food bank has 
worked closely with schools, with local government leaders, with 
business groups, and with other nonprofits to host a variety of food 
distributions. For example, we helped support food distribution events 
with Chairman Scott and a variety of community partners last year, 
where families could access food assistance and COVID testing in a 
single, large-scale drive-thru site. These stand-up partnerships have 
been even more critical in rural communities, where we've seen larger 
numbers of our existing partners forced to close.
    Food banks could not sustain this effort without the support and 
partnership of the broader community. Many food banks have been unable 
to utilize onsite volunteers during the pandemic. In Atlanta, we 
engaged more than 600 volunteers in a typical week prior to COVID, an 
addition to our workforce that has been missing since last March. Like 
many food banks in multiple states, we were able to replace this 
volunteer capacity with support from our Georgia National Guard, as 
Governor Brian Kemp deployed more than 150 guard members to missions at 
food bank locations across the state throughout the past year. And of 
course our food bank network has been supported very generously by all 
types of donors, giving us the resources and confidence we need to 
respond aggressively to the crisis.
Role of Federal Support in Addressing Food Insecurity
    The support provided by and through a variety of Federal nutrition 
programs has been critical to helping food banks do our work, starting 
with two programs that are providing us with large volumes of food. The 
Emergency Food Assistance Program (TEFAP) is a means tested Federal 
program that provides nutritious food to low income individuals through 
food banks and other charitable organizations nationwide, while 
supporting U.S. grown commodities. The program provides critical 
support, helping us ensure a nutritious balance of food is distributed 
to families in need by allowing us to combine TEFAP with our other 
sources of food. As the Committee already knows, Congress authorized 
more than $1 billion in additional TEFAP spending through a number of 
stimulus bills over the past 12 months, dramatically increasing our 
access to food resources during the crisis.
    Another critical source of federally funded food has been the 
Coronavirus Food Assistance Program (CFAP), commonly known as the 
Farmers to Families Food Box Program. This program was launched by USDA 
in April of 2020, as an effort to leverage surplus produce, dairy and 
proteins to support farmers, food service distributors and families 
impacted by the pandemic. Distributors are awarded contracts to 
purchase the surplus food items, package them in easy to distribute 
boxes (20 lbs each), and distribute them to people in need through a 
network of nonprofits, including food banks. Almost $5 billion has been 
spent on this program since its inception.
    CFAP food boxes have provided a critical source of food inventory 
for the Atlanta Community Food Bank and many food banks around the 
country. Combined, TEFAP and CFAP have provided our food bank with 50% 
of our total inventory during the crisis, an influx of food we simply 
couldn't replace from any other source. Sustaining our response will be 
nearly impossible without ongoing support from USDA at similar levels. 
This is even more important for food banks serving more rural areas of 
the country, where private sources of food are more scarce. For these 
food banks, which are often serving areas with even higher levels of 
food insecurity, Federal food commodities are accounting for 60% to 80% 
of their total food inventory.
    That said, food banks and communities have not had equitable access 
to CFAP product. The food boxes have not been available in many parts 
of the country, a reflection of the capacity and capabilities of the 
food service distributors to whom contracts were awarded and the 
nonprofits with which they chose to work. This has been particularly 
true in smaller and more rural parts of the country. For example, the 
distribution of food boxes in Georgia has been highly concentrated in 
the metro Atlanta area, with a smaller percentage of this product 
reaching other parts of the state. To remedy this imbalance, we 
encourage USDA to rely more heavily on the well established 
distribution methods and capabilities evident in the TEFAP program, 
where food banks and other social service organizations have already 
developed the relationships and capacity to move large volumes of food 
safely and efficiently into the highest need areas of the country. In 
contrast, with each round of contracts awarded through the CFAP model, 
we are reinventing the supply chain for these products, a less 
efficient, equitable and sustainable operating model. To the extent 
that USDA renews the CFAP program, we recommend that USDA examine 
whether more state and regional contracting with growers and producers 
would better support our agricultural community most impacted by the 
pandemic.
    In addition to the food provided to food banks and other nonprofits 
by USDA, support for food assistance through other nutrition programs 
has played a critical role in response to this crisis. Our food-
insecure neighbors rely heavily on an array of Federal programs--SNAP, 
school lunches, Pandemic--EBT, WIC, senior meals--to meet their 
families' needs. Millions of Americans would not have the food they 
need to survive without the continued strong support of Federal 
nutrition programs.
    SNAP is the most important of these programs and stands as the 
nation's first line of defense against hunger. Feeding America food 
banks will distribute between six and seven billion meals this year. 
SNAP provides nine times that amount of food. Increasing, or 
decreasing, SNAP benefits by 10% is equivalent to doubling, or 
eliminating, access to all of the food provided through our nation's 
food banks. My food bank strongly supports expanding access to SNAP. 
Continuing to invest in SNAP will reduce food insecurity, improve the 
health and well-being of millions of families, reduce the burden on 
food banks, and continue to stimulate local economies. Alongside 
investing in SNAP, we also encourage USDA to continue to grant waivers 
providing flexibility to a number of nutrition programs (SFSP, NSLP, 
CACFP, P-EBT) as we continue to operate in a challenging environment.
Forward-Looking Outlook
    As we look forward to the rest of 2021 and beyond, food bank 
leaders across the country are preparing our organizations for a 
marathon. While we all hope for a robust economic recovery and a 
dramatic improvement in levels of food insecurity, our experience tells 
us that the families and communities impacted by the current economic 
crisis face a long, uphill struggle. We expect we will need to respond 
to historically high levels of food insecurity well beyond 2021.
    Food banks are well positioned to meet this challenge. Our network 
has made systematic, strategic investments over time to grow our 
capacity and capabilities to serve more food-insecure neighbors. We 
have expanded our distribution centers, especially in growing our 
freezer and cooler capacity for handling more fresh and frozen food. We 
have invested in trucking capacity, enabling us to move food more 
efficiently across the regions we serve. We have invested in technology 
systems, applying the best practices of the private sector to improve 
the efficiency of our operations. We have invested in the capacity of 
the community partners we supply with food, helping them add freezers 
and coolers, purchase trucks, engage more volunteers, operate more 
efficiently and serve more people. We have grown our fundraising, 
helping us sustain our growth for the long haul. As an example of these 
kinds of investments, my food bank now operates out of a 345,000\2\ 
distribution center with 35 dock doors and 80,000\2\ of freezer cooler 
space. We manage a fleet of 25 refrigerated trucks. We have invested 
millions of dollars in our partner network. Because of these 
investments, we are now distributing eight times the volume of food we 
distributed in 2008, prior to the Great Recession.
    We have the capacity to do more. Given our expectation for the next 
12 to 24 months, we will need to do more. I urge USDA to consider 
working even more intensively with our national network of food banks 
to safely and efficiently distribute food to the hardest to serve 
communities across the country. I also urge USDA and Congress to 
consider additional funding for providing food and growing the capacity 
of our food bank network. Even with all of the growth in our 
capabilities and resources, we cannot sustain our current distribution 
efforts without Federal support. As an example, if the volume of 
Federal commodities flowing to my food bank were cut in half, we would 
need to spend more than $20 million to replace it. Food banks simply 
don't have enough resources to make up that kind of difference.
Conclusion
    Increasing levels of food insecurity is one of the many challenges 
resulting from the pandemic. Families across our country are in crisis. 
For many of these families, this crisis is new. For others, this crisis 
is a deeper and darker chapter of the struggle they've been facing as 
long as they can remember. Without support, these families will 
struggle to survive today and will be less able to recover tomorrow. We 
are compelled to help them.
    Recovering from this crisis, as a community, will be an ongoing 
challenge for all of us. Ongoing Federal investment and support will be 
necessary to accelerate and sustain our recovery. This is even more 
true for food-insecure families, whose recovery will be 
disproportionately harder. I urge the Committee, Congress, and the 
Administration to keep doing what you're doing. Keep your foot on the 
gas. Sustain the expansion of SNAP benefits. Use waivers and other 
nutrition program flexibilities to make it easier for food-insecure 
families to access food. Purchase more food through TEFAP and other 
USDA programs. Leverage high capacity partners like the nation's food 
banks to move this food safely, efficiently and equitably to the people 
and communities who need it. Flood the zone with access to food. Doing 
so will help our families, communities and our country recover faster.
    I want to again thank Chairman Scott for inviting me to testify. We 
celebrate the Committee's interest in ensuring all of our neighbors 
have the food they need. I look forward to working with you on that 
important goal and to answering your questions.
            In gratitude for your ongoing support, 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	
            
Kyle Waide,
President and CEO,
Atlanta Community Food Bank.
                               Attachment
Georgia Food Banks

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	

    The Chairman. Thank you very much, Mr. Waide, and your 
testimony was certainly very revealing and very well-received.
    And now, our second panelist, Mr. Zippy Duvall, President 
of the American Farm Bureau Federation. You are recognized for 
5 minutes.

  STATEMENT OF ZIPPY DUVALL, PRESIDENT, AMERICAN FARM BUREAU 
                  FEDERATION, WASHINGTON, D.C.

    Mr. Duvall. Good morning, Mr. Chairman and Members of the 
Committee. My name is Zippy Duvall, and I am President of the 
American Farm Bureau, but I am a third-generation farmer in 
Georgia. I am pleased to be here to offer testimony on behalf 
of the Farm Bureau members across the country.
    When COVID-19 hit, it presented extreme hardships to 
America. The farmers were left with nowhere to go with their 
crops, the dairy, and the livestock due to supply chain 
disruptions. We found lines at our food banks over a mile long 
in some cases. Our nation's food insecurity was becoming more 
apparent every day, and it was imperative that something be 
done. As farmers, our mission is to feed our communities and 
our country. We were heartbroken that the produce, milk, and 
meat that we worked our heart and souls out to produce wasn't 
reaching Americans that desperately needed it. Farmers across 
the country took it into their own hands to address hunger. Our 
county and State Farm Bureaus worked with churches and 
community centers to help meet the need, and help we did.
    In the year of 2020, I am proud to share with you that our 
network of state and county Farm Bureaus across the country 
donated $5.4 million, 1.4 million pounds of food, and 20,000 
gallons of milk to local food banks and food pantries. But we 
didn't do it all alone. At the pandemic's onset, the American 
Farm Bureau immediately reached out to our friends at Feeding 
America to join together to call on USDA to help address the 
break down in the supply chain. Some farmers had no outlet to 
sell directly to consumers, and many Americans had no access to 
our local farmers. And some didn't have the financial means to 
purchase the food. USDA quickly answered the call by standing 
up the Farmers to Families Food Box Program, which played a 
critical role in addressing hunger by delivering more than 140 
million food boxes across the country.
    Even in times outside of a pandemic, a strong farm policy, 
the work that this Committee does, is critically important to 
addressing the fight against food insecurity. The United States 
is known as the bread basket of the world. As a Georgia farmer, 
there is no greater honor in my book than to claim that title. 
Yet food insecurity has crept into the rural communities, into 
our schools, and into our neighborhoods.
    To further address this need, benefits under the USDA 
Supplemental Nutrition Assistance Program have increased to 
more than $7 billion per month, 60 percent higher than pre-
pandemic levels, helping millions of Americans each day access 
food.
    I must tip my hat to you in Congress for making the USDA 
focus on this need by including the funding in the last COVID 
relief package. As those who produce the food, we feel a duty 
to make sure that everyone in America is fed. The greatest joy 
a farmer has is being able to share his bountiful harvest with 
someone else. Across the country, we have found creative ways 
to do that. In Montana, Park County Farm Bureau member Matt 
Pierson started Producers Partnership in April of 2020 to 
donate beef to local food banks and food pantries. What started 
as one rancher's idea has now resulted in 17,500 pounds of 
beef, and they have raised $65,000 to process that beef. In 
Arizona, Friends of the Farm used a statewide emergency food 
relief network to purchase fresh Arizona grown produce, dairy 
products, and protein to distribute to Arizonians who were 
struggling with hunger. Nearly 25,000 pounds of produce has 
been purchased from small farms.
    Mr. Chairman, I commend you on holding this hearing on such 
an important topic. We look forward to the bipartisan solutions 
this Committee will accomplish in fighting against food 
insecurity. America's farmers and ranchers have played an 
intricate role in combating food insecurity, and we will 
continue to do so, pandemic or no pandemic.
    Thank you for the opportunity to speak. I look forward to 
answering the questions.
    [The prepared statement of Mr. Duvall follows:]

  Prepared Statement of Zippy Duvall, President, American Farm Bureau 
                      Federation, Washington, D.C.
    Mr. Chairman and Members of the Committee, my name is Zippy Duvall. 
I am a third-generation farmer and President of the American Farm 
Bureau Federation. I am pleased to offer this testimony on behalf of 
Farm Bureau members across the country.
    When COVID-19 hit, it presented extreme hardship for America--
farmers were left with nowhere to go with their products due to supply 
chain disruptions, and we found the lines to food banks over a mile 
long in some instances.
    Our nation's food insecurity was becoming more apparent by the day, 
and it was imperative that something be done. As farmers, we were 
heartbroken that the produce, milk and meat we put our heart and soul 
into producing wasn't reaching Americans who so desperately needed it.
    Farmers across the country took it into their own hands to address 
hunger. County and state Farm Bureaus worked with churches and 
community centers to help those in need.
    And help, we did! As of today, I am proud to share that through our 
network of state and county Farm Bureaus across the country, we have 
given $5.4 million, 1.4 million pounds of food and over 20,000 gallons 
of milk to local food banks, food pantries and pandemic relief 
programs.
    But we did not do this alone. At the pandemic's onset, the American 
Farm Bureau immediately reached out to our friends at Feeding America 
to join together in calling on USDA to help address the breakdown in 
our supply chain.
    Some farmers had no outlet to sell directly to customers, and many 
Americans had no access to local farms or financial means to purchase 
food. USDA quickly answered the call by standing up the Farmers to 
Families Food Box program, which played a critical role in addressing 
hunger by delivering more than 140 million food boxes across the 
country. Even in times outside of a pandemic, strong farm policy, the 
work of this Committee, is important to assisting in the fight against 
food insecurity.
    The United States is known as the breadbasket of the world, and as 
a Georgia farmer, there is no greater honor in my book than to claim 
that title. Yet food insecurity has crept into our rural communities, 
schools and neighborhoods.
    To further address this need, benefits under USDA's Supplemental 
Nutrition Assistance Program have increased to more than $7 billion per 
month, 60% higher than pre-pandemic levels, and helping millions more 
Americans each day access food. I must tip my hat to you for including 
funding in the COVID relief packages.
    As those who produce this food, we feel a duty to make sure 
everyone in America is fed. The greatest joy for a farmer is being able 
to share with others an abundant harvest. Across the country, we found 
creative ways to do it.
    In Montana, Park County Farm Bureau member Matt Pierson started 
Producers Partnership in April of 2020 to donate beef to local food 
banks and food pantries. What started as one rancher's idea has now 
resulted in 17,500 pounds of beef and $65,000 raised for processing 
costs.
    In Maryland, our young farmers packed 5,000 meals for families in 
need as part of their Outreach Program and donated them to Maryland 
Food Bank community partners.
    Members of Oneida County Farm Bureau in New York joined with other 
groups to pass out 4,000 gallons of milk and 43,000 pounds of food to 
those affected by the pandemic.
    In Minnesota, 68 county Farm Bureaus held events resulting in 
donations of 12,200 pounds of food, 43,000 meals and $33,700 to local 
food shelves, reaching 52,250 people.
    In Central California, Farm Bureau members and local organizations 
came together to donate more than 400,000 meals and 1,000 volunteer 
hours. And in Arizona, ``Friends of the Farm'' uses the statewide 
emergency food relief network to purchase fresh, Arizona-grown produce, 
dairy, and protein and distribute it to Arizonans struggling with 
hunger. Nearly 250,000 pounds of produce has been purchased from small 
farms.
    Utah Farm Bureau also stepped up in a powerful way through their 
charitable foundation's Farmers Feeding Utah campaign. In 2020, they 
raised more than $400,000 in donations from individuals and businesses, 
and provided more than 500,000 pounds of food to Utah residents in the 
Navajo Nation, northern Utah, West Salt Lake, Ogden and to smaller 
community pantries throughout the Wasatch Front.
    In Texas, they do everything big and their charity work is no 
exception. County Farm Bureaus in the Lone Star State donated $379,000 
directly to food-relief and community organizations in 2020. Matching 
funds from the state Farm Bureau of another $174,500 increased the 
positive impact and the state Farm Bureau also donated $25,000 to Meals 
on Wheels Waco. Altogether, county and state Farm Bureaus in Texas 
donated more than a half million dollars to charities in 2020 to help 
address food insecurity and keep communities strong.
    I could go on and on with impressive stories of generous giving by 
hundreds of county and state Farm Bureaus nationwide. I could not be 
prouder to lead this organization. We are having a very real impact on 
food insecurity and we're helping to meet the need within our 
communities all across this great country. We are stronger together.
    Mr. Chairman, I commend you for holding this hearing on such an 
important topic. We look forward to the bipartisan solutions this 
Committee will accomplish in the fight against food insecurity. 
America's farmers and ranchers have played an integral role in 
combating hunger and we will continue to do so, pandemic or not. Thank 
you for the opportunity to testify before this Committee.

    Mrs. Hayes [presiding.] Thank you, Mr. Duvall.
    I now recognize Mr. McBrayer. Please begin when you are 
ready.
    Okay. We will go on to the next witness to give Mr. 
McBrayer an opportunity to figure out what is going on. Mr. 
Edenfield, please begin when you are ready. Mr. Edenfield?
    Okay. I recognize Mr. Hodel. Mr. Hodel, if you are ready to 
proceed, we will hear from you.

  STATEMENT OF ERIC HODEL, CHIEF OPERATING OFFICER AND CHIEF 
        FINANCIAL OFFICER, MIDWEST FOOD BANK, NORMAL, IL

    Mr. Hodel. Thank you and good morning. Thank you for the 
invitation to participate in today's hearing. My name is Eric 
Hodel, and I serve Midwest Food Bank as the Chief Operating 
Officer and Chief Financial Officer. I am honored to have a 
seat at the table today.
    Midwest Food Bank was founded by a farmer 18 years ago. I, 
too, was raised on a farm and continue to manage a 1,000 acre 
grain and livestock farm, in addition to my responsibilities at 
Midwest Food Bank. I come today understanding the impacts of 
agriculture policy as both a producer and a servant to the 
food-insecure.
    Midwest Food Bank started in 2003 when our founder, David 
Kieser, and his two brothers responded to a request to help in 
the local newspaper. The Kieser brothers saw a community in 
need and quickly turned a barn on their family farm into a 
distribution site for ten local food pantries. They soon 
realized that their need in the community was greater than they 
anticipated. Our values and mission remain steadfast after 
nearly 2 decades of growth via locations, food distributed, and 
quality of service to our over 2,000 agencies.
    In 2020, Midwest Food Bank distributed $383 million in 
food, including three million meals via disaster relief boxes. 
We have ten locations across the U.S.: Florida, Georgia, 
Pennsylvania, Connecticut, Indiana, Illinois, Texas, and 
Arizona, and two internationally: Kenya and Haiti. We have less 
than 50 full-time employees, and 99 of every dollar is spent 
for program services.
    Our business model is simple. We receive donations of food, 
financial support, and volunteer efforts. With these three 
inputs, we deliver four programs: number one, distributing food 
to nonprofit agencies; number two, providing family food boxes 
as disaster relief; number three, producing Tender Mercies, a 
high nutrition rice and beans meal; and number four, 
distributing Hope Packs, our weekend feeding program for 
school-aged children.
    Our faith-based mission calls us to serve each of our 2,000 
nonprofit agencies with dignity and respect. We have just two 
simple requirements for our agency partners. First, that they 
are registered nonprofits, and second, that they distribute the 
Midwest food at no charge to their clients. Midwest Food Bank 
does not receive payment for food distributed, and therefore 
does not create a business model that relies on compensation 
from our nonprofits.
    Midwest Food Bank bridges the gap between poverty and 
prosperity for the people we serve. Said differently, our hope 
is to serve our food recipients for a season, not for a 
lifetime.
    We celebrated the downward trend in rates of food 
insecurity across our nation in the decade leading up to 2020, 
and then last year, all aspects of the emergency food system 
were disrupted due to the pandemic. Without question, the 
pandemic catapulted more families into a state of food 
insecurity. Our combination of food distribution to nonprofits, 
and our disaster relief equipped us to serve during this 
challenging season. The USDA Farmers to Families Food Box 
Program was a valuable resource for Midwest Food Bank. Midwest 
Food Bank shifted our resources to be nimble and ensure each of 
our locations had access to the high-quality product. We 
distributed over one million boxes in 2020, and we applaud the 
USDA for the quick program execution from concept to delivered 
box. The program injected nutrition directly into the emergency 
food system while supporting farmers and producers.
    This past year, 2020, was the first year we consistently 
received food funded by government programs via the USDA 
Farmers to Families Food Box Program. As we grow, USDA, The 
Emergency Food Assistance Program, commonly known as TEFAP, is 
a viable option and we recently applied to participate in 
select areas.
    Moving forward, Midwest Food Bank will continue to pursue 
three opportunities. Number one, mission focus: serving our 
agencies with focus on efficiency and excellence. Number two, 
nutrition: increasing the nutrition of the food distributed. 
And number three, partnerships: strengthening our partnerships 
with community leaders and agencies to advance holistic 
programming for those we serve.
    In closing, we ask the Committee on Agriculture to commit 
to equitable policies that channel government resources to 
independent food banks able to meet program requirements. 
Alleviating hunger and malnutrition is a complex challenge 
requiring a multi-faceted solution. We ask that you continue to 
bring efficient, community-centric programs to the table for 
collaboration. Together, we will sustainably bridge the gap 
between poverty and prosperity for American families.
    Thank you.
    [The prepared statement of Mr. Hodel follows:]

  Prepared Statement of Eric Hodel, Chief Operating Officer and Chief 
            Financial Officer, Midwest Food Bank, Normal, IL
    Good morning and thank you for the invitation to participate in 
today's hearing. My name is Eric Hodel, and I serve Midwest Food Bank 
as the Chief Operating Officer and Chief Financial Officer. I am 
honored to have a seat at the table today.
    Midwest Food Bank was founded by a farmer 18 years ago. I too was 
raised on a farm and continue to manage a 1,000 acre grain and 
livestock farm in addition to my responsibilities at Midwest Food Bank. 
I come today understanding the impacts of agriculture policy as both a 
producer and a servant to the food-insecure.
    Midwest Food Bank started in 2003 when our founder, David Kieser, 
and his two brothers responded to a request for help in the local 
newspaper. The Kieser brothers saw a community in need and quickly 
turned a barn on their family farm into a distribution site for ten 
local food pantries. They soon realized that the need in their 
community was greater than they anticipated.
    Our values and mission remain steadfast after nearly 2 decades of 
growth, via locations, food distributed, and quality of service to our 
2,000+ agencies. In 2020, Midwest Food Bank distributed $383M in food, 
including three million meals via family food disaster relief boxes. We 
have ten locations across the U.S. (FL, GA, PA, CT, IN, IL, TX, AZ) and 
two internationally (Kenya and Haiti). We have less than 50 full-time 
employees, and 99 cents of every dollar spent is for program services.
    Our business model is simple: We receive donations of food, 
financial support, and volunteer efforts. With these three inputs, we 
deliver four programs: (1) Distributing food to nonprofit agencies, (2) 
providing Family Food Boxes as Disaster Relief, (3) producing Tender 
Mercies, a high nutrition rice & beans meal[;] and (4) distributing 
Hope Packs, our weekend feeding program for school aged children.
    Our faith-based mission calls us to serve each of our 2,000+ 
nonprofit agencies with dignity and respect. We have just two simple 
requirements for our agency partners: First, that they are registered 
nonprofits. Second, that they distribute the Midwest Food Bank food at 
no charge to their clients.
    Midwest Food Bank does not receive payment for food distributed and 
therefore does not create a business model that relies on compensation 
from our nonprofit partners. Midwest Food Bank bridges the gap between 
poverty & prosperity for the people we serve. Said differently, our 
hope is to serve our food recipients for a season, not for a lifetime.
    We celebrated the downward trend in rates of food insecurity across 
our nation in the decade leading up to 2020. And then, last year, all 
aspects of the emergency food system were disrupted due to the 
pandemic. Without question, the pandemic catapulted more families into 
a state of food insecurity. Our combination of food distribution to 
nonprofits and Disaster Relief equipped us to serve during this 
challenging season. The USDA Farmers to Families Food Box Program was a 
valuable resource for Midwest Food Bank. Midwest Food Bank shifted 
resources to be nimble and ensure each of our locations had access to 
the high-quality product. We distributed 1.1 million of the boxes in 
2020. We applaud the USDA for the quick program execution from concept 
to delivered boxes. The program injected nutrition directly into the 
emergency food system--while supporting farmers and producers.
    This past year, 2020, was the first year we consistently receive 
food funded by government programs--via the USDA Farmers to Families 
Food Box Program. As we are growing, USDA's The Emergency Food 
Assistance Program, commonly known as TEFAP, is an option we are 
exploring, and we recently applied to participate in Florida.
    Moving forward, Midwest Food Bank will continue to pursue three 
opportunities:

  1.  Mission Focus--Serving our agencies with focus on efficiency and 
            excellence.

  2.  Nutrition--Increasing the nutrition of the food distributed.

  3.  Partnerships--Strengthening our partnerships with community 
            leaders and agencies toadvance holistic programing for 
            those we serve.

    In closing, we ask the Committee on Agriculture to commit to 
equitable policies that channel government resources to independent 
food banks able to meet program requirements. Alleviating hunger and 
malnutrition is a complex challenge requiring a multi-faceted solution. 
We ask that you continue to bring efficient, community-centric programs 
to the table for collaboration. Together we will sustainably bridge the 
gap between poverty and prosperity for more American families. Thank 
You.
                               Attachment

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

2020 Annual Report

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

Bridging the Gap Between Poverty and Prosperity
Keep Moving Forward
          A message from Co-Founder, President, and CEO, David Kieser

        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
        
                                          No one could have predicted 
                                        the events of 2020. The global 
                                        COVID-19 pandemic created a 
                                        dynamic year. With the help of 
                                        volunteers, donors, staff, and 
                                        most importantly, the blessings 
                                        of God, Midwest Food Bank 
                                        responded nimbly to the 
                                        changing landscape.
                                          All MFB locations remained 
                                        open and responsive to the need 
                                        of our nonprofit partners. We 
                                        enacted safety protocols and 
                                        reduced volunteer numbers to 
                                        maintain social distancing 
                                        guidelines. To allow partner 
                                        agencies to receive food from 
                                        MFB safe-
ly, we altered our distribution model. Community, business, and donor 
support funded operations and helped with food purchases. More details 
on our response to the pandemic are on page 14.
    Noteworthy in 2020:

  <bullet> MFB distributed a record amount of food, 37% more than in 
        2019.

  <bullet> In 2020, we sent a record number of family food boxes in 
        Disaster Relief semi loads, nearly six times more than the 
        previous year.

  <bullet> We received record levels of support from both financial and 
        food donors.

  <bullet> While maintaining and growing our roots and existing 
        locations, MFB launched two new domestic divisions, 
        Pennsylvania and New England.

    We are humbled and thankful. Moving forward, we continue to follow 
the leading of the Lord as we live out our mission.
            In His service,

David Kieser.

          The Lord is good, a refuge in times of trouble; He cares for 
        those who trust in him.
                                                             NAHUM 1:7.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

Contents
    Mission & Values
    Food Insecurity
    Financials
    MFB Programs
    MFB Reach
    International Operations
    Pandemic Response
    Nonprofit Partners
    MFB Food Sources
    MFB Leadership

          Produced and designed by Midwest Food Bank. Photos represent 
        all of 2020, including pre-pandemic protocols. Printing 
        courtesy of GROWMARK
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Our Mission
    As a faith based organization, it is the mission of Midwest Food 
Bank to share the love of Christ by alleviating hunger and malnutrition 
locally and throughout the world and providing disaster relief, all 
without discrimination.
Our Values
    Midwest Food Bank's values are built on the Biblical base of the 
`fruit of the spirit'--Love, Joy, Peace, Patience, Kindness, Goodness, 
Faithfulness, Gentleness, Self-control. Our values give us a roadmap to 
``Sharing the Blessings.''

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                        Serving Those In Need

                          We recognize and adapt to our agencies (food 
                        pantries, schools, soup kitchens, shelters) 
                        needs, providing them resources to help them 
                        best solve food insecurity for individuals and 
                        families.

                        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                        
                        Empowering Volunteers

                          Our volunteers find purpose in their efforts 
                        shared with MFB. Opportunities are made 
                        available for any age and array of abilities. 
                        The countless hours and expertise of our 
                        volunteers is a unique and blessed 
                        differentiator.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                        
                        Embracing Our Communities

                          We warmly welcome community members and 
                        partners, engage with them to serve those in 
                        need, and sincerely appreciate the joint 
                        partnerships we have.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                        
                        Working With Integrity

                          Our communications and actions are always 
                        done with honesty and transparency.

 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                        
                        Executing Through Teamwork

                          We work across all our divisions and within 
                        our locations. We place a high priority on 
                        collaboration, leveraging best practices for 
                        continuous improvement of an already efficient 
                        organization.
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                        
Our Vision
          Provide industry-leading food relief to those in need while 
        feeding them spiritually.
Food Insecurity
Noun
          the state of being without reliable access to a sufficient 
        quantity of affordable, nutritious food

    Food-insecure households have difficulty at some time during the 
year providing enough food for all their members due to a lack of 
resources. In 2020, 16 percent (50.4 million households) of U.S. 
households were food-insecure (projected numbers). One in five 
Americans have turned to a food pantry or community food distribution 
at some point since the beginning of the pandemic.
    These numbers include 17 million, or one in four children. As of 
July 2020, an estimated 370 million children were missing school meals.
U.S. Food Insecurity Rate

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

U.S. Food Insecurity Rate (Children Only)

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
          Sources: USDA (200-2019); Feeding America (2020).
How Many People in the World Are Hungry?
    Globally, about 38% of the world's population goes to bed on an 
empty stomach. This number is the highest in Sub-Saharan Africa and 
Southeast Asia, estimated at 57% of the population.

          Source: The State of Food Insecurity and Nutrition in the 
        World 2020.

          ``But if anyone has the world's goods and sees his brother in 
        need, yet closes his heart against him, how does God's love 
        abide in him?''
                                                           1 John 3:17.
Food Recipients

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                                Ashley

                                  Years ago, the I-58 Mission helped 
                                Ashley when her husband was out of work 
                                with health issues. When COVID hit, she 
                                returned for help. She relies on them 
                                each week for food. The I-58 Mission is 
                                a nonprofit partner served by MFB 
                                Georgia.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                                
                                Wendy

                                  Wendy's husband lost his job. With a 
                                mortgage, bills, and children to feed, 
                                Wendy says they wouldn't have made it 
                                without help. She gives back by 
                                volunteering at MFB and other pantries. 
                                Wendy receives food from The Hope 
                                Chest, a pantry served by MFB Morton.

  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                                
                                Bo

                                  A former line worker from Charleston, 
                                WV, Bo has been retired since 2005. 
                                He's thankful for the help he receives 
                                from the Second Avenue Community Center 
                                served by MFB Bloomington-Normal 
                                through their remote distribution in 
                                Belle, WV.

 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                                
                                Berlinda

                                  Berlinda was left at an orphanage in 
                                Haiti. In her childhood she struggled 
                                with a speech disorder as a result of a 
                                long convulsion. Now she speaks without 
                                problems and is very athletic. Berlinda 
                                was helped by Matthew 25, a nonprofit 
                                partner served by MFB Haiti.

Our Midwest Food Bank Model

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

Midwest Food Bank Growth
Value of food distributed (millions)

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
Financials

              Years Ending December 31, 2018, 2019 and 2020
------------------------------------------------------------------------
                        2018               2019              2020 *
------------------------------------------------------------------------
Public Support
 and Revenue:
  Donated food,       $229,928,875       $270,649,371       $397,204,944
   vehicles,
   equipment
   and services
  General               $7,436,910         $7,487,187        $18,427,058
   public
   contribution
   s and grants
  Special                 $788,242           $809,831           $864,259
   events
  CARES and                $94,829            $67,262         $2,706,416
   Other *
                --------------------------------------------------------
    Total             $238,248,856       $279,013,656       $419,202,677
     public
     support
     and
     revenue
                --------------------------------------------------------
Expenses:
  Program             $232,260,156       $279,505,173       $392,370,479
   services
  Management            $1,123,151           $988,014         $1,278,165
   and general
  Fundraising             $776,111           $854,074           $961,835
    <1%                      0.81%              0.66%              0.57%
     Management
     , General,
     and
     Fundraisin
     g
                --------------------------------------------------------
      Total           $234,159,418       $281,357,261       $394,610,479
       Expenses
                --------------------------------------------------------
Net Assets:
  Food                 $19,606,336        $16,416,429        $33,284,514
   Inventory
  Cash,                $15,066,135        $19,297,314        $24,333,245
   buildings
   (net of
   debt),
   equipment,
   other
                --------------------------------------------------------
    Total net          $34,672,471        $35,713,743        $57,617,759
     assets
                --------------------------------------------------------
      With              $1,600,673         $1,205,399           $750,000
       donor
       restrict
       ions
------------------------------------------------------------------------
* Numbers above for 2018 and 2019 are from Midwest Food Bank's audited
  statements. Financials represented for 2020 numbers are year-end
  summaries. The Midwest Food Bank audited statements for 2020 will be
  finalized and available May 30, 2021. CARES and Other in 2020 includes
  revenue from CARES Act, including PPP Loan.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	  
          Midwest Food Bank multiplies and stewards donations through 
        the blessings of volunteer hours and donated food.
MFB Programs
Food Pantries

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    Midwest Food Bank is engaged in alleviating hunger and poverty 
throughout the world. In 2020, Midwest Food Bank distributed over $383 
million worth of food to over 2,000 nonprofit organizations. This is 
all thanks to the generosity of our donors, the valuable work of our 
volunteers and, most importantly, the blessings of God.
    The COVID-19 pandemic made 2020 a unique year. With feeding 
programs seeing an increase of 20-50% in need, Midwest Food Bank was 
challenged to distribute more food. At the same time, supply chains 
were disrupted. The first few months, in particular, food procurement 
was more difficult than usual, but MFB continued to find and distribute 
food.
Disaster Relief

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    In a typical year, Midwest Food Bank delivers 20-50 semi loads of 
Disaster Relief in concert with The Salvation Army and other partners. 
These loads primarily go to locations in the Midwest or South to 
victims of tornados, flooding, or hurricanes. 2020 was anything but a 
typical year.
    Pandemic-related quarantines and business interruptions created 
wide-spread food insecurity. Across the U.S., people were seeking food 
assistance for the first time. MFB sent 179 semi loads of family food 
boxes to many locations (see map on page 14). Supporters of Midwest 
Food Bank truly have an impact nationwide.

          MFB sent over 185,000 disaster relief food boxes in 179 semi 
        loads.
MFB Programs
Tender Mercies

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    Tender Mercies<SUP>'</SUP> is Midwest Food Bank's nutritious bagged 
meal of rice, beans, and soy protein, making a delicious meal. It is an 
integral part of fighting food insecurity in the United States. Tender 
Mercies is also a mainstay of our international efforts. In East Africa 
and Haiti, it is distributed to schools and orphanages to help young 
children learn by providing nutrition in their diets.
    In June 2020, single serving bags of Tender Mercies were 
introduced. They were designed especially for Hope Packs and homebound 
elderly people living alone.
    Tender Mercies can be packaged by machine or by volunteers hand 
measuring ingredients. COVID-19 brought a temporary halt to hand-
packing in 2020. At the same time, MFB experienced a great increase in 
need for the meals.
    In 2020, 11.64 million Tender Mercies meals were packaged, up from 
7.22 million in 2019. 90% of the meals were produced by volunteers 
operating the packing machine.
Tender Mercies Meal Production

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
Hope Packs

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    Hope Packs, Midwest Food Bank's student feeding program, provides 
food-insecure children with supplemental weekend food. Every Friday 
throughout the school year, qualifying children receive a pack of 
shelf-stable food. This helps to ensure that children arrive at school 
on Monday morning ready to learn.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    The pandemic caused schools to adjust their teaching model for 
safety purposes. Agencies participating in the Hope Packs program were 
faced with schools remote learning days. Agencies participating in Hope 
Packs had to use creativity to reach food-insecure students. Many 
avenues were used, including scheduling pick-up times and even 
delivering food to students at home.

          A child may be sponsored to receive Hope Packs for a school 
        year for only $50.
Midwest Food Bank Reach
    In 18 years, Midwest Food Bank has grown from a small ministry on a 
family farm, to ten domestic and two international locations. 
Additional locations continue to be evaluated based on need and 
support.

 
 
 
          Illinois--Normal                       East Africa
  [Est. 2003 <bullet> Serving 523       [Est. 2014 <bullet> Serving 40
             Agencies]                             Agencies]
          Illinois--Peoria                         Arizona
  [Est. 2007 <bullet> Serving 323      [Est. 2016 <bullet> Serving 296
             Agencies]                             Agencies]
              Indiana                               Haiti
  [Est. 2008 <bullet> Serving 300        [Est. 2017 <bullet> 180 Tons
             Agencies]                     Shipped to Haiti in 2019]
              Georgia                               Texas
  [Est. 2011 <bullet> Serving 291       [Est. 2018 <bullet> Serving 54
             Agencies]                             Agencies]
          Illinois--Morton                       Pennsylvania
[Est. 2012 <bullet> 4.43 Million TM     [Est. 2020 <bullet> Serving 30
          Meals Packaged]                          Agencies]
              Florida                            New England
  [Est. 2014 <bullet> Serving 171            [Est. December 2020]
             Agencies]
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     
International Operations
East Africa

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    The COVID-19 pandemic caused business closures and strict lock-
downs led to mass hunger, especially in the slum areas served by Kapu 
Africa (Midwest Food Bank East Africa). Working with partner 
ministries, Kapu Africa was able to share Tender Mercies meals in food-
insecure slums.
    A silver lining during this dark time is the great spiritual 
awakening taking place. Many of these slum-dwellers are social 
outcasts, shown no respect or courtesy. There are countless reports of 
people weeping as they receive food, asking, ``Why are you doing this 
for me?'' The gospel of Christ has been shared with many of these 
people before, but now they want to know what is driving the love they 
are shown.

          7.2 Million Tender Mercies meals were distributed in East 
        Africa in 2020.
Haiti

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    Haiti added the COVID-19 pandemic to its list of challenges in 
2020. All airports, seaports, factories, and schools were closed for a 
time.
    Most Haitian children receive their primary daily nourishment from 
their school lunch. MFB Haiti was able to get Tender Mercies 
distributed through partnerships with faith-based schools. In 2020, 
Midwest Food Bank Haiti more than doubled shipments of food to Haiti. 
Over 160 tons of food relief were shipped, nearly \3/4\ of which was 
Tender Mercies meals.

          In Haiti, nearly 1 million Tender Mercies meals were 
        distributed in 2020.

    We also partner with over 20 feeding centers, which provide a noon 
meal to 50 children up to 5 years old. Over 1,100 children receive 
these daily meals.
Volunteers
    One of the key strengths of Midwest Food Bank is its volunteers. 
They are the life-blood of the organization. From leading volunteer 
groups to driving semi-trucks, people generously give of their time and 
talents to further MFB's mission. In 2020 volunteer service hours 
equaled 150 full-time employees.
    The pandemic created safety challenges for MFB. Safety protocols 
were put in place at each location. Volunteer groups were limited to 
allow for social distancing. While we saw an increase in the amount of 
food needed, fewer volunteers were able to help.
    Multiple MFB locations received the invaluable assistance of the 
National Guard. They filled many of the volunteer positions vital to 
our operations--driving trucks and fork-lifts and helping with food 
distributions. Their presence was a blessing.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
          300,898 hours of service were volunteered by 17,930 
        individuals in 2020.

    Many volunteers demonstrated their courage and dedication by 
increasing their hours to meet the need. They applied their personal 
talents and efforts for a return for others. Their service allowed 
Midwest Food Bank to remain open and operational throughout 2020.
In 2020, There Were 450 Volunteers for Every 1 Paid MFB Staff Member

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
Pandemic Response
    The COVID-19 pandemic presented Midwest Food Bank with a unique 
opportunity to live out our mission. Yet, responding to the needs posed 
uncommon challenges.
    Most states experienced work suspensions and quarantines, causing 
food insecurity. Rather than sending relief to a single disaster area, 
our partner, The Salvation Army, requested semi-loads of family food 
boxes for all over the U.S. The first relief load was sent on March 18. 
When the loads reach their destination, they are immediately 
distributed to those in need.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    Procuring the contents of the boxes created other difficulties. 
Initially, it was a challenge to have items shipped. The increased need 
for shelf-stable food depleted our supplies of donated food. Leveraging 
our relationships with food manufacturers, Midwest Food Bank purchased 
some products to go into the relief boxes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                  ``I live out here in Sassoon City, 
                                California. But I wanted to say thank 
                                you. I really. really, really 
                                appreciate what you are doing. It helps 
                                out more than you could ever know. I am 
                                a single father of an 8 year old 
                                daughter. I greatly appreciate what you 
                                do. Thank you. I wanted to say thank 
                                you. We greatly, greatly appreciate it. 
                                You are amazing. Thank you. This kind 
                                of thing is really helpful. Thank you. 
                                Thank you and God bless. Thank you.''  

   Voicemail transcript MFB received from Tim, grateful recipient of a 
                                                       Family Food Box.
Nonprofit Partners
    Midwest Food Bank's nonprofit partners must be 501(c)(3) charities. 
They agree to give away the food received from MFB free of charge. 
Types of agencies include:

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
  <bullet> Food pantries

  <bullet> Soup kitchens

  <bullet> Homeless shelters

  <bullet> Residential programs

  <bullet> Children feeding programs

    In addition to the many ways the COVID-19 crisis affected Midwest 
Food Bank, our partner agencies also faced new challenges. Those that 
remained open had to alter their distribution methods. Human contact 
was limited as food was distributed. Our partners saw a 20-50% increase 
in the need for their services.

          MFB Served over 2,000 nonprofit partners in 2020.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	        
                                  ``During a time like this, when it's 
                                a crisis throughout the world, we are 
                                grateful for the support we get from 
                                Midwest Food Bank.''

                                                          Matt Burgess,
                    CEO of Home Sweet Home Ministries, Bloomington, IL.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

          A semi-load of relief arrives at the Navajo Nation, served by 
        Helping Hands for the Navajo Nation, a partner agency of 
        Midwest Food Bank Arizona.
MFB Food Sources
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We receive donated food from all over the country--food produced in 
excess, incorrect labeling, and more. Donated food comes from various 
sources:

  <bullet> Food manufacturers

  <bullet> Food distribution centers

  <bullet> USDA programs

  <bullet> Grocery stores

  <bullet> Private food drives
MFB Recipient of USDA Program
    In May, Midwest Food Bank began participating in the new USDA 
Farmers to Families Food Box program. It was created to help both food 
producers and those struggling with food insecurity as a result of 
COVID-19. With funding provided by the USDA, food distributors bought 
produce, protein, and dairy products directly from farmer and 
producers. The distributors boxed the food items and gave them directly 
to participating charities.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                  MFB distributed over $52 Million worth of nutritious 
                produce, protein, and dairy products in the USDA 
                program.

% Dairy, Produce, and Protein

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

          MFB gave away nearly 1.1 million cases of the USDA Farmer[s] 
        to Famil[ies] program food.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	        
          5% of MFB donations come from Share Partners

    Week by week, month by month, Midwest Food Bank is sharing the 
blessings with those in need. With this same recurring cadence, MFB 
Share Partners make faithful financial contributions that bring our 
mission to life. Share Partners are generous donors who are giving 
funds on a regularly scheduled basis.
    For people who wish to make a continual, positive impact, Share 
Partners makes it easy. Each week, month, or quarter, donors can make 
an automatic donation directly from a checking account, a debit or 
credit card.

    Convenience of recurring giving

  <bullet> Easy enrollment

  <bullet> Donor selects timing

      Select weekly, monthly, or quarterly

  <bullet> Donor directs giving

      Choose to support a specific MFB location
          To become a Share Partner, please go to midwestfoodbank.org/
        sharepartner
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Honor the Lord with your wealth, with the first fruits of all 
        your crops
                                                          Proverbs 3:9.
Midwest Food Bank Leads the Food Relief Industry in Low Administrative 
        Costs

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
        
          Sources: 2019 IRS Form 990.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	        
                          Charity Navigator, America's premier 
                        independent charity evaluator, has awarded four 
                        out of a possible four stars to Midwest Food 
                        Bank

the last 9 years. Only 4% of nonprofits have achieved at least 8 
consecutive years of Four Star Charity status.
    The Forbes 21st annual list of top 100 charities is based on 
donations received. For 2020, Midwest Food Bank moved up to number 57. 
The charities on the list are rated for ``Charitable Commitment,'' 
based on how much of a charity's total expense went to the purpose. 
Midwest Food Bank's rating is 100 out of 100.

 
 
 
                         National Board Members
 
David Kieser, President              Ann Kafer
    David founded MFB in 2003 with     Ann is the Vice-President of
 his brothers. He serves as CEO,      Human Resources and Strategy at
 and Board President.                 Growmark, Inc.
Bill Leman, Vice-President           Denny Mott
    Bill is owner and CEO of Leman     Dennis is a retired Business
 Property Management.                 Manager from Caterpillar, Inc.
Dave Hodel, Secretary/Treasurer      Trent Scholl
    Dave is a partner in Darnall       Trent is a principal partner at
 Concrete.                            Ledgestone & Associates, LLC.
Ralph Endress                        Eric Sheldahl
    Ralph is the retired owner and     Eric is a commercial and
 CEO of Young America Realty Inc.     residential real estate
                                      entrepreneur.
Jim Gapinski
    Jim is owner and CEO of
 Heartland Growers.
 
                          Functional Leadership
 
Eric Hodel, COO/CFO                  Michael Meece, Human Resources
                                      Director
Lisa Martin, Information Technology  Michael Hoffman, Inventory &
 Director                             Logistics Director
Brian Zink, Procurement Director     Dana Williamson, Accounting
                                      Director
Jada Hoerr, Chief Development
 Officer
 
                          Divisional Leadership
 
              Arizona                              Indiana
Merilee Baptiste, Executive          John Whitaker, Executive Director
 Director
Eric Sheldahl, Divisional Board      Jim Gapinski, Divisional Board
 President                            President
              Florida                            New England
Karl Steidinger, Executive Director  Jan Young, Executive Director
Stanley Sinn, Divisional Board       Brent Walder, Divisional Board
 President                            President
              Georgia                            Pennsylvania
Will Garner, Executive Director      Lori Renne, Executive Director
Jim Roy, Divisional Board President  Aleta Serrano, Divisional Board
                                      President
   Illinois--Bloomington--Normal                    Texas
Tara Ingham, Executive Director      David Emerson, Executive Director
Chris Stoffer, Divisional Board      Rich Stoller, Divisional Board
 President                            President
          Illinois--Morton                       East Africa
Lisa Martin, Executive Director      Christine Mutsoli, Executive
                                      Director
Trent Scholl, Divisional Board       Denny Mott, Divisional Board
 President                            President
          Illinois--Peoria                          Haiti
Monica Scheuer, Executive Director   Jerry Koehl, Divisional Board
                                      President
Frank Gutwein, Divisional Board
 President
 

How Can You Help?
1  Pray for Midwest Food Bank
    It is our hope to show Christ's love in our actions.
2  Volunteer
    Bring your gifts and talents to further MFB's mission. Consider 
becoming a lead volunteer, facilitating groups.
3  Follow us on social media
    Tag us in your Facebook and Instagram posts.
    Check our blog and newsletter for updates.
4  Connect your friends and family to MFB
    Your church or civic group would enjoy a volunteer service project.
5  Give
    We strive to be good stewards of funds entrusted to us. Consider a 
monthly gift as a Share Partner.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    midwestfoodbank.org
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    

    Mrs. Hayes. Thank you, Mr. Hodel.
    I now recognize Mr. Edenfield. Mr. Edenfield, if you are 
ready, please begin your testimony. I think you are muted.
    Okay, we will go to Mr. McBrayer. Mr. McBrayer, if you are 
ready, please begin your testimony.

  STATEMENT OF MAX E. McBRAYER, Jr., CHIEF EXECUTIVE OFFICER, 
             RaceTrac PETROLEUM, INC., ATLANTA, GA

    Mr. McBrayer. Hello, this is Max McBrayer. Chairman Scott, 
Ranking Member Thompson, and Members of the Committee, my name 
is Max McBrayer and I am Chief Executive Officer of RaceTrac. 
Thank you for inviting me to share what RaceTrac is doing to 
combat food insecurity in America.
    Headquartered in Atlanta, Georgia, RaceTrac is a family-
owned business that has been serving guests since 1934. 
RaceTrac, together with its franchise brand, RaceWay, operates 
over 750 convenience stores across 11 states, employing nearly 
10,000 people. Almost all of our stores that redeem SNAP are 
open 24 hours a day, 7 days a week, and nearly 20 percent of 
them are in rural communities. Over 10 years ago, in response 
to changing customer demand, we embarked on a journey to 
provide more healthy, fresh, and perishable food products to 
our guests. Today, all of our locations have robust, diverse 
food service operations. Food is increasingly our biggest 
customer draw.
    RaceTrac now sells over 12,000 pieces of fresh fruit a 
week, and in 2020, sold almost 800,000 bottles of milk, and 
close to a half million fresh sandwiches. Ten years ago, 
RaceTrac also began to participate in SNAP. Today, all RaceTrac 
stores and 98 percent of RaceWay stores redeem SNAP benefits. 
At RaceTrac stores alone, we process three million EBT 
transactions per year.
    Our stores have been designated critical infrastructure by 
the Federal Government, and have remained open throughout this 
pandemic, providing food and fuel to the public. COVID-19 has 
exacerbated food insecurity in the United States. At RaceTrac, 
we have seen this impact firsthand.
    RaceTrac has seen a 65 percent increase in EBT dollars used 
at our stores. RaceWay stores, which tend to be located in more 
rural communities, have seen a 102 percent increase. Guests are 
constantly coming into our stores and asking if we accept EBT 
dollars. Not only are we seeing an overall increase in SNAP 
purchases among adults, including homeless adults, we have seen 
an increase among students who will use EBT before and after 
school to purchase snacks or lunch.
    RaceTrac's participation in SNAP is critical because it 
enables beneficiaries to conveniently access approximately 
1,700 competitively priced EBT-eligible products. Low-income 
Americans often work and shop for food during unconventional 
hours. Our stores are often the only easily accessible retail 
food store located in that particular area, and our stores are 
open during extended hours when other larger food retailers are 
closed. For that reason, having RaceTrac and other small format 
stores participate in the program benefits many SNAP recipients 
who save time and resources by not having to travel 
inconvenient distances from where they live or work to purchase 
milk and bread.
    Congress created SNAP to alleviate hunger and malnutrition. 
To maximize beneficiaries' access to food, lawmakers 
intentionally designed the program to ensure that both large 
and small retailers can participate. This approach has been 
successful. RaceTrac and other small format retailers serve an 
important role in SNAP. We provide convenient locations for 
SNAP beneficiaries to access affordable food at any time they 
wish, day or night.
    No American should go hungry. I hope we can continue to 
work together to fulfill the program's goal. Our industry's 
unique format and business model has been and should continue 
to be a meaningful asset in the government's effort to combat 
hunger in the United States. We hope to remain active partners 
in SNAP in order to provide essential food access to the 
thousands of people in our communities who have come to rely on 
us.
    Thank you for the opportunity to testify. I am happy to 
answer any questions you may have.
    [The prepared statement of Mr. McBrayer follows:]

 Prepared Statement of Max E. McBrayer, Jr., Chief Executive Officer, 
                 RaceTrac Petroleum, Inc., Atlanta, GA
I. Summary of the Testimony
  <bullet> RaceTrac, together with its franchise-brand RaceWay, 
        operates over 750 convenience stores across 11 southeastern 
        states and employs nearly 10,000 team members. All of 
        RaceTrac's stores, and 98 percent of RaceWay stores are 
        licensed under the Supplemental Nutrition Assistance Program 
        (``SNAP'' or the ``Program'') and accept Electronic Benefit 
        Transfer (``EBT'') purchases.

  <bullet> Our stores, the vast majority of which are open 24 hours a 
        day, 7 days a week, contribute to a variety of communities 
        throughout the southeast United States. Almost 20 percent of 
        our stores are in towns of 2,500 to 20,000 people. All of our 
        stores have robust, diverse food-service operations that are 
        increasingly our biggest customer draw.

  <bullet> COVID-19 has exacerbated what was already an unacceptable 
        situation with respect to food insecurity in the United States. 
        At RaceTrac, we have seen this impact firsthand. Our stores, 
        which the Federal Government designated as critical 
        infrastructure, have remained open throughout this pandemic, 
        providing food and fuel to the public.

  <bullet> Over the past year, our store teams have seen a notable 
        increase in SNAP purchases. In fact, the percent of EBT 
        transactions at our stores has almost doubled over the past 
        year. RaceTrac has seen a 65% increase in EBT dollars used at 
        our stores. RaceWay stores, which tend to be located in more 
        rural communities, have seen a 102% increase.

  <bullet> RaceTrac's participation in SNAP is critical because it 
        enables beneficiaries to access food without excessive 
        inconvenience or expense. Low-income Americans often work--and 
        shop for food--during unconventional hours. Our stores are 
        often the only easily accessible retail food store located in a 
        particular area, and are consistently open longer than other 
        large-format food retailers and thus provide extended hours 
        during which customers can access food.
II. Introduction
    Chairman Scott, Ranking Member Thompson, and Members of the 
Committee, thank you for the opportunity to testify this morning. My 
name is Max McBrayer, and I am the Chief Executive Officer for RaceTrac 
Petroleum, Inc. (``RaceTrac'').\1\ Today I will share what RaceTrac is 
doing to combat food insecurity in America. RaceTrac and the entire 
convenience store industry places a growing importance on food service 
relative to even 10 or 15 years ago. Our industry's unique format and 
business model has been, and should continue to be, a meaningful asset 
in the Federal Government's effort to combat food insecurity in the 
United States. My testimony today will outline our experience as 
Supplemental Nutrition Assistance Program (``SNAP'' or the ``Program'') 
retailers, and offer some suggestions for how the Federal Government 
can continue to harness companies like ours in its efforts to provide 
affordable, convenient access to food for America's most vulnerable 
citizens.
---------------------------------------------------------------------------
    \1\ RaceTrac is a member of the National Association of Convenience 
Stores (NACS), the National Association of Truckstop Operators (NATSO), 
and the Society of Independent Gasoline Marketers of America (SIGMA).
---------------------------------------------------------------------------
    Headquartered in Atlanta, Georgia, RaceTrac is a family-owned 
business that has been serving guests since 1934.RaceTrac, together 
with its franchise-brand RaceWay, operates over 750 convenience stores 
and employs nearly 10,000 team members. Our stores, the vast majority 
of which are open 24 hours a day, 7 days a week, contribute to a 
variety of communities throughout the southeast United States. Almost 
20 percent of our stores are in towns of 2,500 to 20,000 people. All of 
these locations have robust, diverse food-service operations that are 
increasingly our biggest customer draw. All of RaceTrac's stores and 98 
percent of RaceWay stores redeem SNAP benefits.
    The past year has been a struggle for Americans and their families, 
particularly with respect to food insecurity. Our presence in rural, 
suburban, and urban areas throughout the Southeast gives us a unique 
vantage point through which to understand the critical role that 
convenience stores and other small format retailers play in providing 
food to low-income families through SNAP.
    For SNAP beneficiaries, RaceTrac's stores serve as critical 
locations to access food. Not only do we provide beneficiaries with a 
variety of competitively priced, SNAP-eligible foods, we provide them 
access to those foods during extended hours, when other food retailers 
are closed. For that reason, RaceTrac's participation in the Program 
benefits many SNAP recipients, who save time and resources by not 
having to travel inconvenient distances from where they live or work to 
purchase milk and bread.
    Over the past year, the percent of SNAP transactions at our stores 
has doubled--and we have seen a 65% increase in EBT dollars used at 
RaceTrac stores and a 102% increase at RaceWay stores. No American 
should go hungry. We hope to remain active partners in SNAP in order to 
provide essential food access to the thousands of people in our 
communities who have come to rely on us.
a. About RaceTrac
    RaceTrac is composed of two operating divisions: \2\ RaceTrac and 
RaceWay. RaceTrac operates 549 RaceTrac-branded retail fuel and 
convenience stores across seven southern states: Alabama, Florida, 
Georgia, Louisiana, Mississippi, Tennessee, and Texas; and owns more 
than 200 contractor-operated RaceWay-branded stores across 11 states: 
Alabama, Arkansas, Florida, Georgia, Louisiana, Mississippi, North 
Carolina, South Carolina, Tennessee, Texas, and Virginia.\3\ RaceTrac 
employs nearly 10,000 individuals across its divisions and 
subsidiaries.
---------------------------------------------------------------------------
    \2\ RaceTrac also has two subsidiaries: Energy Dispatch and 
Metroplex Energy. Our transportation company, Energy Dispatch, hauls 
fuel for RaceTrac and RaceWay, and employs more than 230 drivers and 
operates 88 tractor-trailers out of six states (Alabama, Florida, 
Georgia, Louisiana, Tennessee, Texas). Energy Dispatch delivers more 
than 1.2 billion gallons of fuel each year. Our wholesale fuel 
supplying company, Metroplex Energy, secures bulk fuel to supply 
RaceTrac and RaceWay stores and other third-party companies by rail, 
pipeline, truck, barge and vessel across 13 states (Alabama, Arkansas, 
Florida, Georgia, Louisiana, Maryland, Mississippi, North Carolina, 
Pennsylvania, South Carolina, Tennessee, Texas, Virginia). Metroplex 
Energy sells about 4.8 billion gallons of fuel annually.
    \3\ Of the current group of RaceWay franchise operators, 71% 
identify as Desi (i.e., a person of Indian, Pakistani, or Bangladeshi 
descent), 18% identify as Arab (i.e., a person of Middle Eastern or 
North African descent), and 10% identify as ``other''.
---------------------------------------------------------------------------
    Every day, RaceTrac operates under its mission to ``make people's 
lives simpler and more enjoyable''--and for that reason, the company 
has been named a top workplace across many of the states in which it 
operates, and has been recognized on the Forbes list of largest private 
companies every year since 1998.
    Since 2015, RaceTrac has built an average of 40 new stores 
annually, investing about $225 million each year across our footprint. 
We plan to invest another $300 million to build 31 new stores in 2021, 
which will lead to expanded employment opportunities as each of our 
stores employs approximately 20-22 people. The company has also 
invested over $33 million in alternative fuels infrastructure. To 
further support the communities in which it operates, since 2010 
RaceTrac has raised over $5.6 million for several charities, including 
the Michael J. Fox Foundation for Parkinson's research, Camp Sunshine 
(a retreat for children with life-threatening illnesses), Second 
Harvest Food Bank of Middle Tennessee, and the Boys & Girls Club 
Florida Alliance.
b. RaceTrac has proudly been participating in SNAP for a decade
    Our participation in SNAP is critical because it enables SNAP 
beneficiaries to access food without excessive inconvenience or 
expense. The Program is designed to make life easier for approximately 
43 million low-income Americans, including 18.9 million children,\4\ 
and our stores play a critical role in accomplishing this objective. 
All of RaceTrac's 549 stores and 200 RaceWay stores accept SNAP 
benefits. RaceTrac's stores process roughly three million EBT 
transactions per year.\5\ Throughout the Southeast, our stores are 
convenient places for SNAP beneficiaries to access food. Many low-
income Americans often work--and shop for food--during unconventional 
hours. Not only are our stores often the only easily accessible retail 
food store located in a particular area, they are consistently open 
longer than other large-format food retailers and thus provide extended 
hours during which customers can shop for food.
---------------------------------------------------------------------------
    \4\ See generally, U.S. Dept. of Agriculture, Characteristics of 
Supplemental Nutrition Assistance Program Households: FY 2018 (Nov. 
2019), https://fns-prod.azureedge.net/sites/default/files/resource-
files/Characteristics2018-Summary.pdf; U.S. Dept. of Agriculture, 
Program Information Report (Sept. 2020), https://fns-
prod.azureedge.net/sites/default/files/data-files/Keydata-September-
2020.pdf.
    \5\ This number does not include EBT transactions at RaceWay-
branded stores.
---------------------------------------------------------------------------
    Almost all RaceTrac stores and 111 RaceWay stores are open 24 hours 
per day, 7 days a week; \6\ and 93 RaceWay stores are typically open 
from 5 a.m. to 11 p.m. Our continuous and extended hours ensure that 
customers are always able to access our stores to purchase the food, 
including approximately 1,700 SNAP-eligible items, they need at any 
time. In rural and urban communities, our stores may be the only place 
for the community to shop conveniently for common food items and the 
only location where a SNAP beneficiary can make an EBT purchase. 
Because of our extended hours, our stores may also be the only location 
for consumers to purchase food with SNAP benefits at the beginning or 
end of a late work shift. One store team member put it best: ``My store 
is in a low income area where our guests do not have reliable 
transportation. We are their store for supplies and food. Guests choose 
us for the accessibility and price.'' \7\
---------------------------------------------------------------------------
    \6\ Throughout the COVID-19 pandemic, to ensure the health and 
safety of our customers and store teams, we now close our stores for 1 
hour each night to perform a deep clean/disinfect of the store.
    \7\ Another employee noted: ``We do have several EBT guests that we 
consider to be our regular guests. Whether it's a landscape worker 
stopping in for lunch or a homeless guest without transportation.''
---------------------------------------------------------------------------
c. RaceTrac's Initiatives to Expand Fresh and Healthy Food Offerings
    RaceTrac has been at the vanguard of the convenience store industry 
when it comes to providing fresh and healthy food selections for our 
guests. In everything we do and offer, we are driven by consumer 
demand--and just like all successful retailers, we constantly try to 
identify and respond to what our customers want.\8\
---------------------------------------------------------------------------
    \8\ The entrepreneurial culture of RaceWay and its operators has 
resulted in store-specific food service offerings that are tailored to 
meet the tastes of a particular community. For instance, RaceWay 
operators have put in place chicken, BBQ and Tex-Mex offerings, in 
addition to stocking staple food items targeted to food preferences of 
certain ethnic groups in the communities where they operate.
---------------------------------------------------------------------------
    Over 10 years ago, RaceTrac embarked on a journey to provide more 
fresh and perishable products to our guests. This shift was neither 
easy nor inexpensive, requiring a significant change to our store 
format and operating procedures. We redesigned our approximately 5,000 
square foot stores, which are nine times smaller than the average 
supermarket and have limited refrigerated and freezer space, to 
accommodate an expanded food offering that would appeal to our guests' 
changing tastes.
    There are many challenges that small format retailers face in 
providing perishable and fresh foods, generally related to spoilage and 
food-safety protocols.\9\ To address those challenges and secure a 
consistent and trusted source for our fresh food programs, we had to 
create our own internal distribution program, RaceTrac Distributing 
(``RTD''). And because we don't run our own commissary, we had to 
institute and manage a commissary relationship in order to develop and 
oversee a system to assemble and distribute product to our warehouses, 
stores, and ultimately, consumers. Food safety protocols were embedded 
in every step of this process. Throughout our entire supply chain (RTD 
and wholesale partners), we have a rigorous food supplier vetting 
process, robust ingredient traceability, and end-to-end tracking and 
management of our cold chain, all to guarantee the safety of our 
offerings.
---------------------------------------------------------------------------
    \9\ Unlike a grocery store, which may get daily food deliveries, 
small-format stores like RaceTrac and RaceWay only get deliveries a few 
times a week--in our case, approximately three times per week.
---------------------------------------------------------------------------
    There has been a steady increase in customer demand for healthy 
staples over the past few years--and RaceTrac has strived to meet that 
demand. We offer an assortment of fresh whole fruits, cut fruit, and 
packaged salads; dairy products, including milk, cheeses, and fresh 
yogurt parfaits; breads, pasta bowls, and cereals; as well as 
hardboiled egg packs, ``protein packs'' with fresh nuts, cheeses, 
fruits, and meats, and fresh sandwiches. RaceTrac now sells over 12,000 
pieces of fresh fruit per week--and in 2020, sold almost 800,000 
bottles of milk and over 410,000 fresh sandwiches.
d. Our Stores Are Essential for Food Access
    ``To alleviate hunger and malnutrition,'' Congress created the 
Program and strategically designed it to ensure the participation of 
both large and small format retailers as a means of maximizing 
beneficiaries' access to food.\10\ Small-format convenience stores and 
large-format grocery stores serve different beneficial purposes in the 
Program. Convenience stores tend to supplement the traditional grocery 
store with respect to food access. Many SNAP beneficiaries come to 
RaceTrac to conveniently purchase items such as bread and milk in 
between trips to the grocery store. Small-format stores like ours 
provide convenience--both in terms of location and hours of operation--
as well as competitively priced food to all consumers, including SNAP 
beneficiaries. We constantly endeavor to provide convenience, value, 
and quality to American consumers on the go. In short, we strive to 
make the lives of all of our customers, including low-income consumers, 
simpler and more enjoyable.
---------------------------------------------------------------------------
    \10\ See e.g., 7 U.S.C.  2011, 2012(o), 2018 (discussing food 
access and retailer eligibility).
---------------------------------------------------------------------------
    Despite our best efforts to provide fresh, competitively-priced 
food products, COVID-19 has imposed significant challenges. In addition 
to increased health and safety protocols that were layered on top of 
existing food-safety protocols, we had to contend with sporadic supply 
disruptions and food shortages. We were able to overcome these supply 
disruptions and we continue to work diligently with our suppliers to 
minimize disruption for our customers, who have come to rely on our 
stores as an essential component to their monthly food shopping 
routine.
    RaceTrac stores are open 24 hours per day, 7 days per week, rain or 
shine. They are open during normal times and during emergencies. While 
COVID-19 has been a historic national emergency, it is not the first 
time that our stores have kept their doors open during times of 
national or regional hardship. For over 80 years, our stores have 
stayed open during national disasters, including hurricanes and other 
extreme weather events. In the words of one frontline team member, 
``during disaster times like hurricanes, we are the only thing open. 
It's great we can help and provide the needed items to our guests in 
their time of need.''
    Throughout national disasters, we do whatever it takes to keep our 
doors open, providing communities with places to refuel their vehicles 
and purchase basic necessities. This includes the ability to purchase 
hot foods when cooking at home is infeasible. During those times, we 
have seamlessly adjusted our EBT operations to effectuate Federal hot 
food waivers to ensure our most economically vulnerable guests have the 
ability to eat. (For many of our SNAP guests, there has been confusion 
as to why hot foods waivers were not granted during the worst of the 
pandemic shutdown when people were struggling to get by without 
childcare and other support.)
III. Food Insecurity and COVID-19--A Retailer's Perspective
    Regrettably, hunger and food insecurity are a persistent presence 
in our country. In 2019, before the COVID-19 pandemic, approximately 
35.2 million Americans, including 5.3 million children, were food-
insecure. This equates to more than one in ten American households.\11\ 
COVID-19 has exacerbated what was already an unacceptable situation; at 
RaceTrac, we have seen this impact firsthand.
---------------------------------------------------------------------------
    \11\ Economic Research Service, U.S. Dept. of Agriculture, Food 
Security Status of U.S. Households in 2019, https://www.ers.usda.gov/
topics/food-nutrition-assistance/food-security-in-the-us/key-
statistics-graphics.aspx.
---------------------------------------------------------------------------
    Designated as critical infrastructure by the Department of Homeland 
Security,\12\ RaceTrac's stores have remained open throughout this 
pandemic, providing food and fuel to the public. Our frontline team 
members have shown up, day after day, complying with stringent health 
and safety protocols to ensure that healthcare workers, first 
responders, and everyday people can refuel, whether that be with a cup 
of coffee and a sandwich or with a gallon of gas. This availability and 
accessibility has been particularly important to the food-insecure 
during the pandemic. As one store team member described: ``During 
COVID, guests could count on us to be there, open, and be in stock.''
---------------------------------------------------------------------------
    \12\ ``Food & Agriculture,'' which includes the convenience 
industry, was classified by the Department of Homeland Security (DHS) 
as a Critical Infrastructure Sector in its August 18, 2020, Guidance. 
See Department of Homeland Security, Cybersecurity & Infrastructure 
Security Agency, ``Advisory Memorandum on Ensuring Essential Critical 
Infrastructure Workers Ability to Work During the COVID-19 Response,'' 
(Aug. 18, 2020) available at https://www.cisa.gov/sites/default/files/
publications/Version_4.0_CISA_Guidance_on_Essential_Critical_Infrastruc
ture_Workers_FINAL%20AUG%2018v3.pdf.
---------------------------------------------------------------------------
    For the past year, store team members have seen a notable increase 
in EBT purchases. According to one of our frontline employees, ``many 
low-income working households shop with us for affordable breakfast, 
lunch, dinner, or snack items. EBT sales have also increased due to the 
state offering more assistance and increasing benefits for lower-income 
households.'' Per a different store team member: ``unemployment 
increases and with poverty and the homeless population levels growing, 
many of them shop with us because of the selection and value.'' Another 
highlighted: ``when guests enter the door, they constantly are asking 
do we take EBT. We have seen an increase with students as well. Kids 
will use EBT before or after the school day to purchase a snack or 
lunch.'' \13\
---------------------------------------------------------------------------
    \13\ These anecdotes are bolstered by the available data regarding 
the impact of COVID-19 on food insecurity. See FRAC, Not Enough to Eat: 
COVID-19 Deepens America's Hunger Crisis (Sept. 2020), (finding that 
``about one in four adults are estimated to be food-insecure during 
COVID-19''); Urban Institute, Forty Percent of Black and Hispanic 
Parents of School-Age Children are Food Insecure (Dec. 2020), https://
www.urban.org/sites/default/files/publication/103335/
forty_percent_of_black_and_hispanic_parents_of_school_age_children_are_f
ood_insecure_
0.pdf (finding that ``one in four (24.7 percent) families with school-
age children reported household food insecurity in September; this rate 
rose to over one in three (36.9 percent) among families in which 
someone lost work or work-related income at some point during the 
pandemic.'').
---------------------------------------------------------------------------
    RaceTrac's store teams have seen a two-fold increase in EBT 
purchases over the past year. They have served customers with large 
baskets, and have watched as the guest monitors the total on the 
register as they ring them up, in order to add in as many items as 
possible under their available benefits. They have also served guests 
who stop in quickly to make an EBT purchase and then dash out to work. 
Our data confirms what our store teams have been seeing with their own 
eyes: before COVID (2019 and early 2020), EBT accounted for around 0.7-
1.0% of our total transactions; since March 2020 this has nearly 
doubled to 1.2-1.6% of total transactions. Moreover, RaceTrac stores 
have seen a 65% increase in EBT dollars used and RaceWay stores, which 
tend to be located in more rural communities, have seen a 102% increase 
in EBT dollars used. It is clear to all of us at RaceTrac that in 2020 
many of our guests have been struggling to make ends meet, and are 
experiencing food insecurity. Congress's 15 percent increase of SNAP 
benefits has been critical to ensuring that our most economically 
vulnerable citizens have access to the food they need. In addition, P-
EBT has been important in ensuring that eligible school children are 
able to access food via temporary emergency EBT benefits while their 
schools are closed or operating with reduced hours.
IV. Conclusion
    RaceTrac takes its role in the Program seriously. Small-format 
stores like ours serve an important role in SNAP: we provide convenient 
locations for SNAP beneficiaries to access affordable food at any time 
they wish to, day or night. I hope we can continue to work together to 
fulfill the Program's goal to alleviate hunger and food-insecurity 
across the country.
    Thank you for the opportunity to testify, I am happy to answer any 
questions you may have.

    Mrs. Hayes. Thank you, Mr. McBrayer.
    I now recognize Mr. Edenfield. When you are ready, you may 
begin your testimony now.
    Mr. Johnson. While we wait, Madam Chair, I might just note 
to my colleagues they have 5 more minutes to vote, if they 
haven't done so yet.

        STATEMENT OF RON EDENFIELD, PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, WAYFIELD FOODS, INC., LITHIA SPRINGS, GA

    Mr. Edenfield. [inaudible] two for one fresh SNAP produce 
purchase program with the assistance of a Food Insecurity 
Nutrition Incentive grant knowledge, FINI, 2018 to 2019. We see 
the importance of these programs to our customers when they are 
going through difficult times.
    Since the pandemic hit, I have never been prouder of our 
500+ associates dedicated to serving our community. When 
Georgia's Department of Labor became overwhelmed with 
unemployment claims, we heard horror stories from our customers 
who went months before they received any benefits. Many are 
still facing this challenge, but for those individuals SNAP has 
been a lifeline for getting food on the table and the emergency 
allotments that increase benefits to a maximum were and are 
critically important.
    When the schools in Atlanta closed due to the pandemic, 
many customers had to quit their jobs to care for their 
children. Feeding their children became a real struggle for 
those who rely on free and reduced-price school meals. 
Thankfully, the Families First Coronavirus Response Act of 2020 
that you passed allowed USDA's Food and Nutrition Service to 
facilitate the distribution of pandemic EBT to families 
affected by school closures.
    Georgia families received their one-time allotment of 
$256.50 in P-EBT benefits per child, based on a calculation of 
$5.07 per day for the 45 days the child missed last year. 
Unfortunately, there have been no P-EBT benefits issued for 
this school year, though we are now 7 months into the year. 
Pilot P-EBT program is not under the jurisdiction of this 
Committee. I encourage you to work with the House Education and 
Labor Committee to examine this program and its challenges. The 
model is a good one; the delay is inexcusable. I would 
encourage this Committee to consider P-EBT model for summer 
feeding programs that are under your jurisdiction as well.
    I also want to comment on the food boxes that were 
delivered to supplement families in tremendous need. I know, 
without a doubt, that the existing food partnership that 
distribute funds through an EBT card or through food banks are 
far more efficient and give parents the opportunity to shop at 
their convenience and to purchase the best food for their 
children. Just imagine the frustration of a parent who receives 
a food box containing peanut butter with a child with a peanut 
allergy.
    Our grocery saw increased sales. We were confronted with a 
significant number of costs to keep our associates and our 
customers safe. The national data the FMI, the Food Industry 
Association has collected for more than 40 years finds that the 
supermarket industry profit margin has never hit two percent. 
Perhaps the industry may hit two percent margin this year, but 
for my associates and for many other retailers, that profit 
goes back to them through our employee stock ownership plan.
    In spite of these increased costs, I am proud to say that 
the food retail industry continues to be the largest private-
sector donor to Feeding America. According to their 2020 annual 
report, food retailers donated more than 1.5 billion meals to 
the Feeding America network last year.
    Although your Committee does not have jurisdiction over the 
WIC Program, I did want to share my frustration that Georgia 
has still not transitioned to eWIC. Although every state was 
mandated to transition to eWIC by October 2020, Georgia 
received a waiver to extend their timeline. We are now hearing 
it could be another year before Georgia is ready to launch 
eWIC.
    When we talk about food insecurity, we recognize that SNAP 
is an important stabilizer for low-income families. It is also 
a powerful economic stimulator for the local economies.
    In conclusion, addressing an issue as complex as food 
insecurity requires all of us to work together. Wayfield Foods 
will continue to work with our partners to increase access to 
quality food in our communities and are pleased to see the 
result of this work in healthier customers. I may be biased, 
but the House Agriculture Committee has the right person 
leading this important work at this critical time.
    I would be pleased to answer any questions you have. Thank 
you.
    [The prepared statement of Mr. Edenfield follows:]

  Prepared Statement of Ron Edenfield, President and Chief Executive 
           Officer, Wayfield Foods, Inc., Lithia Springs, GA
    Chairman Scott, Ranking Member Thompson, and Members of the 
Committee:

    My name is Ron Edenfield and I am President of Wayfield Foods, a 
nine-store independent grocer with stores across the metro-Atlanta 
area. Wayfield Foods is an authorized retailer in the Supplemental 
Nutrition Assistance Program (SNAP) and also in the Special, 
Supplemental Nutrition Assistance Program for Women, Infants and 
Children (WIC).
    As a WIC and SNAP-authorized grocer for 39 years, I appreciate the 
opportunity to come before this distinguished Committee to share my 
views on food insecurity and how the many assistance programs you 
oversee have been a lifeline to my customers, particularly during the 
pandemic.
    Wayfield Foods has been a part of metro-Atlanta since 1982. My goal 
was to bring a full-service grocery store to communities that were 
being all but abandoned by other retailers. Most of our stores are 
located in low-income census tract areas. Without the arrival of our 
stores, these communities would be considered food deserts. We work, 
live and deeply engage in these communities that now have access to a 
reliable, economical source of fresh produce and meats. Our customers 
deserve to eat better for less, like any other community in America. 
This is our mission, and we have devoted our brand to reflect this 
commitment. Almost 40 years later, we are proud of the many ways we 
have become part of the community, providing jobs for over 500 
associates.
    Since the pandemic hit, I have never been prouder of our 
associates' dedication to serving our community. I know all of you 
experienced occasional empty shelves as customers literally rushed to 
get the last pack of hamburger meat or the last roll of toilet paper 
during some of the early days of the pandemic. Our dedicated essential 
employees came to work every day, even working overtime to take care of 
our customers, and we quickly got products back on the shelves.
    As an essential industry, our stores never closed during the 
pandemic. Unfortunately, many of my customers have not been so lucky. 
Many have lost jobs or had their hours reduced. We have had Wayfield 
employees startled by the community need and reached into their own 
pockets to give a customer a few dollars when they could not pay their 
bill at check-out. Wayfield Foods has never wavered in our support of 
local food pantries and community groups to provide additional 
assistance, especially as this need is at an all-time high.
    When Georgia's Department of Labor \1\ became inundated with 
claims, we heard horror stories from our customers who went months 
before they received any benefits. Almost a year later, there are still 
customers who tell us they are having trouble receiving unemployment 
benefits. For those individuals, SNAP has been a lifeline for getting 
food on the table and the Emergency Allotments that increased benefits 
to the maximum were and are critically important.
---------------------------------------------------------------------------
    \1\ https://www.11alive.com/article/money/georgia-unemployment-
benefits-elusive/85-e4af9830-b01d-4ac3-9f2c-17cff5767410.
---------------------------------------------------------------------------
    When the schools in Atlanta closed due to the pandemic, many 
customers had to quit their jobs to stay home and take care of their 
children. Feeding their children became a real struggle for those who 
rely on free and reduced-price school breakfasts and lunches. 
Thankfully, the Families First Coronavirus Response Act of 2020 that 
you passed allowed the U.S. Department of Agriculture's Food and 
Nutrition Service to facilitate the distribution of pandemic EBT--or P-
EBT--to families affected by coronavirus-related school closures.
    Georgia families received a one-time allotment of $256.50 in P-EBT 
benefits per child based on a calculation of $5.07 per day for the 45 
days the child missed school during last year's school year. 
Unfortunately, there have been no P-EBT benefits issued for this school 
year even though we are now 7 months into the school year. To date, 
less than half the states have been approved to issue P-EBT benefits 
for the current school year. While the P-EBT program is not directly 
under the jurisdiction of this Committee, I encourage this Committee in 
coordination with the House Education and Labor Committee to examine 
the program and why many states are facing so many challenges in being 
approved for the current school year. While implementing P-EBT remains 
a challenge for states, there are some very positive pieces to its 
model like how it is tailored directly to children in need and that it 
leverages the existing EBT rails. For families who already participate 
in SNAP, they can shop as they usually do with added benefits on their 
existing cards. For families who do not currently receive SNAP, they 
are issued EBT cards that function under the same requirements of SNAP. 
This allows families to continue shopping at their neighborhood grocer 
who is SNAP-authorized and easily redeem those benefits. I would 
encourage this Committee to consider the P-EBT model for summer feeding 
programs as well. I have always thought this approach of utilizing the 
EBT card for summer feeding made a lot of sense rather than having to 
send children away from their homes to feeding sites.
    I also want to comment on the so called ``food boxes'' that were 
delivered to supplement families in tremendous need. While I certainly 
believe the need is there and that we should do everything we can do to 
help these families, I know without a doubt that the existing food 
partnerships that distribute funds through an EBT card or through food 
banks are far more efficient and give parents the opportunity to shop 
at their convenience and to purchase the best foods for their children. 
Imagine the frustration of a parent who receives a food box containing 
peanut butter but has a child with a peanut allergy.
    There is much that has been said in the press that is less than 
accurate about the increased sales resulting in vastly increased 
profits to grocers this past year. While we certainly saw increased 
sales, we also confronted a significant number of costs to keep our 
associates and customers safe, including investments in PPE, enhanced 
cleaning and retrofitting stores with plexiglass to help keep cashiers, 
baggers and customers safe at check-out. The national data that FMI--
the Food Industry Association has collected for more than 40 years 
finds that the supermarket industry profit margin has never hit 2%. 
Perhaps when this year's numbers are calculated, the industry may hit a 
2% profit margin, but for my associates and for many others, that 
profit goes back to them through our Employee Stock Ownership Plan 
(ESOP).
    In spite of these increased costs and the huge demand from 
consumers now responsible for preparing three meals a day for their 
families, I'm proud to say that the food retail industry continued to 
be the largest private sector donor to Feeding America. According to 
their 2020 Annual Report,\2\ food retailers were responsible for 
donating more than 1.5 billion meals to the Feeding America network 
last year. And this represents only one stream of the efforts 
undertaken by retailers.
---------------------------------------------------------------------------
    \2\ https://www.feedingamerica.org/sites/default/files/2021-02/
FA_2020AnnReport_FINAL_
updated0204.pdf.
---------------------------------------------------------------------------
    Although your Committee does not have jurisdiction over the WIC 
program, I did want to share my frustration that Georgia has still not 
transitioned to eWIC. Although every state was mandated to transition 
to eWIC by October of 2020, Georgia received a waiver to extend their 
timeline. We are now hearing it could be another year before Georgia is 
ready to launch eWIC.
    Retailers and our customers are challenged to deal with an outdated 
system that requires customers to receive all their monthly benefits at 
one time and maintains the stigma of using the WIC paper vouchers. The 
eWIC system will benefit retailers because costly human error will be 
reduced, reimbursement will happen faster and there will be less risk 
of rejected purchases.
    Please encourage your colleagues to do everything they can to move 
Georgia WIC as well as other states who have not implemented eWIC 
forward to better take care of our customers.
    When we talk about food insecurity, we recognize that SNAP is an 
important stabilizer for low-income families, but it is also a powerful 
economic stimulator for the local economies and grocers. Wayfield Foods 
has been in partnership with a SNAP-Ed-funded community agency, Open 
Hand Atlanta, since 2017, to address food insecurity and health in our 
stores directly with our customers. Wayfield Foods & Open Hand have 
supported hundreds of store nutrition education sessions, employee 
trainings and thousands of healthy food demonstrations and produce 
donations over the last 5 years. We are committed to doing this work 
and we have witnessed firsthand, SNAP recipients making the best use of 
their limited funds as they learn to shop for healthy food on a budget, 
read nutrition labels, and other critical nutrition messages that help 
empower them to make better decisions related to nutrition and the 
health and wellness of their families.
    We have also partnered with the Atlanta Community Food Bank by 
implementing the two for one SNAP fresh produce purchase program with 
the assistance of a FINI (Food Insecurity Nutrition Incentive) grant in 
2018 and 2019. Wayfield Foods supports this critical work, and we 
amplify the USDA funding with our own financial and staff support. 
These types of programs show that private-public partnerships can make 
a significant impact on the way people shop, think about food, healthy 
eating and nutrition.
    One of the efforts we were engaged in during the pandemic was 
encouraging our customers and providing support with healthy and 
economical meal solutions with the theme--Stay Strong with Family 
Meals, recognizing that eating well helps to keep our customers healthy 
until they are able to be protected by the COVID vaccination.
    In conclusion, addressing an issue as complex as food insecurity 
requires grocers, community-based organizations, food banks, hospitals, 
universities, and public health agencies working together to build 
nutrition programs that not only reduce hunger and poverty, but enhance 
nutrition knowledge, improve health outcomes and productivity, create 
jobs and economic growth, and strengthen our communities. Wayfield 
Foods will continue to work with our partners to increase access to 
quality food in our communities, and we are pleased to see the result 
of this work in healthier customers.
    I may be biased, but I happen to think that the House Agriculture 
Committee has the right person leading this important work at this 
critical time.
    I would be pleased to answer your questions.

    Mrs. Hayes. Thank you, Mr. Edenfield, for your testimony.
    Without objection, Mr. Sanford Bishop, our soon to be 
fellow Committee Member, will participate in today's hearing.
    Hearing none, so ordered. Welcome, Mr. Bishop.
    Mr. Bishop. Thank you very much.
    Mrs. Hayes. At this time, Members will be recognized for 
questions in order of seniority, alternating between Majority 
and Minority Members. You will be recognized for 5 minutes each 
in order to allow us to get in as many questions as possible. 
Please keep your microphones muted until you are recognized in 
order to minimize background noise.
    I now recognize the Ranking Member, the gentleman from 
Pennsylvania, Mr. Thompson.
    Mr. Thompson. Madam Chair, if it is okay with you, out of 
respect for colleagues that are going to be eventually 
traveling here, I would defer to the end.
    Mrs. Hayes. That is okay with me.
    Mr. Thompson. Okay.
    Mrs. Hayes. I now recognize Mr. Costa, and immediately 
after Mr. Costa, I will recognize Mr. Austin Scott from 
Georgia.
    Mr. Costa. Thank you, Madam Chair, and I want to thank the 
Chair as well for holding this important hearing on food 
insecurity in America. Certainly, it has been a challenge in 
this country for years, but in the last 12 months during this 
pandemic when our complex, complicated food supply chain has 
been turned upside down, this deep recession created by the 
pandemic with the closure of restaurants and schools, we have 
found that hunger in America has only increased, sadly. We find 
people going to food banks that have never been to a food bank 
in their lives.
    I represent a Congressional district that has significant 
poverty. Almost 24 percent of my constituents are enrolled in 
SNAP, the second highest in California in Congressional 
districts. And yet, it is one of the most productive 
agricultural regions in the entire country. Such a contrast, 
sadly.
    But, we need to do a better job of connecting the 
resources. This hearing is important to do that, and I want to 
commend folks. Clearly, it has been indicated by the American 
Enterprise Institute that increased benefits over the last 
year--and I do want to commend Secretary Perdue and the efforts 
that the Agriculture Committee working together with the USDA 
last year did to put the Food Box Program together to provide 
supplemental support for our food banks and for our religious 
organizations to, in fact, try to bridge the gap as a result of 
the increased hunger that resulted in that.
    The American Enterprise Institute report indicated that 
increased benefit has helped keep the lid on poverty at about 
11 percent in the last 12 months from going higher. It could 
have been higher.
    Mr. Waide, I want to thank you for all that you have done 
to help people. You mentioned in your testimony that just ten 
percent increase in SNAP benefits is equivalent to doubling 
access to all food provided to our nation's food banks. Could 
you speak a little more about the importance of the 15 percent 
increase that SNAP has had during the pandemic, and the 
importance of SNAP benefits, going forward, as we provided in 
this most recent COVID package?
    Mr. Waide. Yes, I really appreciate the question.
    SNAP as a program is really the nation's first line of 
defense against hunger. Certainly, food banks----
    Mr. Costa. It is our safety net.
    Mr. Waide. It is our safety net. Certainly, food banks do 
extraordinary work leveraging public and private resources to 
get much needed food into the hands of folks who need it.
    That said, just in terms of the scale at which these 
programs operate, SNAP operates at a much larger scale, and so, 
as I said in my testimony, if we reduce SNAP by ten percent or 
expand it by ten percent, that is the equivalent--that changes 
the equivalent of the entire volume of the food that is 
provided through Feeding America food banks.
    Mr. Costa. Okay.
    Mr. Waide. What SNAP really allows people to do is to--and 
Mr. Edenfield spoke to this--is to be able to use the existing 
food supply chain, which is well-established, highly 
sophisticated, highly accessible to people all over the 
country, and to simply use resources very efficiently to get 
the food that they need that is right for their families.
    Mr. Costa. I think that is an important point, but my time 
is limited here. I want to ask one more question, if you don't 
mind.
    Mr. Duvall, I want to thank all of your good work on behalf 
of the American Farm Bureau. As you know, I work very closely 
with a lot of the Farm Bureaus throughout California.
    Your testimony about the importance that farmers take and 
the pride that they do in feeding America. I would say farmers 
and farmworkers--we hope to provide some legislation next week 
that will provide some legal status for our farmworkers. But 
they literally put food on America's dinner table every night, 
and food, I continue to tell everybody, is a national security 
issue.
    Could you elaborate on the importance of SNAP to rural 
communities from your perspective, Mr. Duvall, Zippy?
    Mr. Duvall. Yes, thank you, sir. It is good to be with you 
today.
    It is, in rural communities where the job markets are 
difficult, it is so important. The SNAP Program is so important 
in those areas. Our rural communities continue to struggle for 
a number of reasons, whether it be health care, whether it be 
education, whether it be lack of broadband. Whatever it might 
be that brings jobs there, and that is what is important. We 
need to rebuild our rural communities, make sure that they have 
the broadband, help create some jobs there for our people. But, 
those programs are vitally important.
    Mr. Costa. Thank you. I appreciate it. We need to focus on 
rural America as well, and thank you for your good work.
    My time has expired.
    Mr. Duvall. Thank you.
    Mrs. Hayes. Thank you. I now recognize Mr. Scott from 
Georgia, followed by Mr. McGovern from Massachusetts, if you 
could ready yourself.
    Mr. Austin Scott of Georgia. Thank you, Madam Chair, and 
Mr. Waide, I want to thank you for your comments on the 
successful Food Box Program. I was there at the Atlanta Farmers 
Market when then Secretary Perdue came down, and the thing that 
I noticed about that--the farmers box is that is the same high-
quality food that my family might enjoy if my parents were 
coming over for dinner, fresh produce and other things, and it 
is just a different quality than the food boxes that I have 
helped pack with Second Harvest in south Georgia. It is 
important that we have the combination for people as we work to 
help alleviate these challenges in these really unprecedented 
times. I am happy that we are having this discussion and we are 
not attacking the Food Box Program. I want to thank all of you 
that complimented it, and I am going to thank the Democratic 
Party for their support of the Food Box Program. It is 
important that we do anything and everything we can do right 
now.
    I want to, Zippy, say hello to you. It has been a while 
since I have seen you. I look forward to seeing you back in 
Georgia in Congressional District 1, and as we talk about 
policies that impact the price of food, it obviously places a 
greater burden on our low-income citizens in the United States, 
and part of it gets back to U.S. agriculture policy. Starving 
farmers can't help feed hungry people. One of my concerns is 
how long it takes us to get disaster relief to our producers 
when something happens. It is my understanding that disasters 
of the Midwest, those farmers still have not received any 
disaster payments, and there were over 200 million bushels of 
corn and soybeans and other things destroyed through the storms 
of August 10 and 11.
    Zippy, could you talk about the importance of the 
resilience of our ag producers with regard to the food supply 
in the United States?
    Mr. Duvall. Sure, Congressman. I appreciate the opportunity 
and look forward to seeing you real soon in person, too.
    Farm programs are so important to our rural communities. It 
bolsters the economies in the rural communities, and it is as 
simple as that. When we bolster their economies, we feed 
people. And you are exactly right. Starving farmers can't feed 
starving people.
    So, to make sure that our country's food insecurity becomes 
better, that we make sure that all our Americans are fed, we 
have to have strong farm programs as we move forward. It is 
important that our farmers are surviving and have been able to 
get through the natural disasters and the fluctuation in the 
prices that we see.
    Mr. Austin Scott of Georgia. Zippy, there has been a lot of 
talk about the challenges of minority farmers. I see it as 
challenges for small farmers. I mean, the margins are so thin 
in agriculture right now, and they have been for many, many 
years. If things like Waters of the U.S. and restrictions on 
pesticides and other things that we use in the inputs of our 
food supply chain are restricted and the cost of producing a 
crop goes up, what would the impact be on the food supply chain 
if the cost of inputs on the agriculture producers go up? 
Because we all know that the food that we buy off the shelves 
in the grocery store, it starts with the inputs on the farm, 
and the next step is the harvest. And then it actually makes it 
through processing into the grocery store.
    Mr. Duvall. Yes. If you increase input costs, I mean, it is 
going to be extremely hard to continue to help feed the people 
in our country. You are exactly right. If it costs us more to 
produce it, it is going to cost the consumer more to buy it, 
and it is important that we streamline regulatory oversight of 
all the tools that are coming down the pike for our farmers to 
use. They need to be efficient.
    And you talked about small farmers. We have enough barriers 
in the way. We don't need to create more barriers with over-
regulation.
    Mr. Austin Scott of Georgia. Mr. Duvall, thank you for your 
testimony. I am extremely concerned about all of our small 
farmers out there, the lack of the margins. The fact of the 
matter is when you spend $100 at the grocery store, maybe $1 of 
that ends up being positive revenue to the farmer out there.
    And so, again, thank you for your testimony. I appreciate 
the work of the Committee, and I just want to make sure that we 
have a balanced approach to solving this challenge of hunger in 
the country.
    Mrs. Hayes. Thank you. I now recognize Mr. McGovern from 
Massachusetts, followed by Mr. Crawford from Arkansas.
    Mr. McGovern. Thank you very much, and I want to express my 
appreciation to the panel for their excellent testimony today.
    I want to thank Mr. Waide in particular for reminding us 
that while the crisis that we are dealing with right now is 
new, this issue of hunger for many in our country existed long 
before the crisis. One thing is clear, and that is the Federal 
response, our response was inadequate then, and I still believe 
it is not adequate now. There is more that we need to do. I 
disagree with the Ranking Member who took a potshot at the 
American Rescue Plan. It is important that we extend the 15 
percent increase in SNAP. Not, and by the way, I would say that 
not just through September, but we ought to make it permanent. 
The average SNAP benefit is about $1.40 per person per meal. 
That is--you cannot live on that. A cup of coffee is more than 
that now. We need to be thinking immediately about making that 
increase in SNAP permanent. I appreciate the Chairman of the 
Agriculture Committee holding this hearing, but we also need to 
appreciate the fact that if we are going to solve the issue of 
hunger, it falls under the jurisdiction of multiple committees, 
not just the Agriculture Committee. We ought to think seriously 
about doing joint committee hearings with Ways and Means, with 
Education and Labor, and other committees that have some 
jurisdiction over a piece of the response to ending hunger. We 
need a holistic approach to this.
    I am grateful that President Biden and Vice President 
Harris have talked about the importance of dealing with the 
issue of hunger, and I hope that we can get some bipartisan 
support on a couple of requests that I have made to the 
Administration. One is they ought to appoint a hunger czar, or 
as my friend Jose Andres calls for a food czar, but somebody 
who can coordinate an effort to kind of connect all the dots. 
Again, just like we have multiple committees here in Congress 
that deal with the issue, there are multiple agencies and 
departments that deal with the issue. And you know, unless 
there is somebody bringing everybody together in a room, it is 
hard to have a holistic, coordinated response.
    I also hope the people will support an effort that I am 
trying to convince the Administration to undertake, which is to 
do a White House conference on food, nutrition, health, and 
hunger. Again, you know I don't want to manage this problem. I 
want to solve this problem. And you know, FRAC points out that 
right now we have an estimated 50 million Americans, including 
17 million children, who are hungry or food-insecure. Every one 
of us should be ashamed by that statistic. We are the richest 
country in the history of the world. We should not tolerate 
that at all. I would like to call on the President to make this 
one of this Administration's priorities. Do a conference on 
this issue. Bring together struggling families. Bring together 
the food banks, our mayors, the advocates who are on the front 
lines doing such incredible work, those of you who are on this 
panel who play a role. Bring our medical experts, our schools, 
our business community, our farmers. Bring everybody who has a 
role in this together, and let us piece together a holistic 
response to this with goals and benchmarks to see whether we 
are reaching those goals and those benchmarks.
    Hunger is a political condition. We have the resources. We 
don't have the political will.
    I will just finally say that everybody in Washington, you 
are never going to find anybody who is going to say they are 
pro-hunger. Notwithstanding some of the votes that some people 
take. But the bottom line is, we have to do more than talk the 
talk. We got to walk the walk, and we need a dramatically 
different approach. We need to think out of the box. We need to 
bring other people to the table, and we need to, again, develop 
a plan to solve this.
    And let us, again, in the immediate term, let's make these 
improvements in SNAP, this 15 percent increase, let's make that 
permanent. We all should agree on that. The benefit is 
inadequate.
    But beyond that, we need to develop a holistic plan, and 
included in that has to be the understanding that if you want 
to end hunger, we also have to deal with the issue of wages. 
The majority of people who are on SNAP right now who can work 
actually do work. They earn so little, they still quality for 
the benefit. So, we need to do much more.
    I thank the panel. I thank the Chair for the hearing, and I 
yield back.
    Mrs. Hayes. Thank you, Mr. McGovern.
    I now recognize Mr. Crawford from Arkansas, followed by Ms. 
Adams from North Carolina.
    Mr. Crawford. Thank you. Let me get to Mr. Edenfield.
    You referenced food boxes in your testimony, and how 
current infrastructure is far more efficient. I kind of 
struggle with that as such a broad sentiment, especially for 
those in rural communities like my district who have really 
benefitted from the program, including distributions at food 
pantries, especially in the early phases of the pandemic when 
produce was being plowed over, milk dumped, and grocery shelves 
emptied. The Farmers to Families Food Box Program seemed like a 
reasonable and efficient combination. Do you disagree with 
that?
    Mr. Edenfield. Well, the food box----
    Mrs. Hayes. Can I ask everyone who is not speaking to mute?
    Mr. Edenfield. Well, the food box is a short-term solution, 
and it has been beneficial. There is no doubt about that. But 
talking about long-term solutions, a lot of things, especially 
when we are talking about the rural areas, and you mentioned 
rural areas. Rural areas also are where we have food deserts, 
and a lot of times, the food deserts you just don't have that 
much population. Anything that takes away from having a store 
there, a full line store to select from, it is like a 
competition there. And I must say, the competitions aren't 
good. But one of the things I think in looking at food deserts 
is anything you can do to alleviate that.
    I am not saying it wasn't good. It was a good thing. It 
certainly served a purpose, and it is a good short-term 
solution. I just don't look at it as being a long-term 
solution. Also, especially when it is predetermined what they 
are going to get in that box. Now, some of the things that went 
through the--it was entirely different, but when it is not--it 
is predetermined what a family is going to get, as I mentioned 
earlier, I mean, if a family gets peanut butter and they have a 
child with a peanut allergy, that is not a good thing. So--and 
as hard as farmers--I grew up in a farming community, so I will 
always have a heart for farmers. As a matter of fact, it is 
some of the hardest, most fulfilling work there is, and I 
still--when I go back home now to south Georgia, I look at the 
farm community and how different it was when I grew up, there 
has been a lot of changes there, and there have been a lot of 
changes from the food deserts--when I was growing up, they had 
different things like garment factories and everything to help 
support that economy that they don't have anymore. Basically, 
it is farming and it is going to create more of a challenge to 
have quality grocery stores in these areas, especially if food 
distribution [inaudible]. Did I make sense?
    Mr. Crawford. Thank you, I appreciate it.
    I want to ask Mr. Duvall if you have any thoughts on how we 
can expand distribution points moving forward, particularly as 
we look at options to continue a more direct farm to family 
link without putting government bureaucracy in the middle of 
that?
    Mr. Duvall. Sure, Congressman. I appreciate the question, 
and of course, without putting bureaucracy in the middle of it, 
if we've got to go to our NGOs and our local communities, Farm 
Bureau is one of those. We know the people in our community. We 
go to church with people that know people in that community 
that need help. And the people on the ground, just like tending 
to our farmland, we know our land better than anything. Those 
NGOs in those communities know the landscape of their 
communities, and they know where they can help. What we have to 
be careful of, though it is not easy for someone to admit they 
need help, so also we have to be working with the regional NGOs 
to be able to offset some of that pressure on people to be able 
to come forward and be able to receive the help that is 
available to them there.
    But our farmers and ranchers and our Farm Bureaus are there 
and willing to help any time that they can and in any way they 
can.
    Mr. Crawford. Thank you.
    Madam Chair, I yield back.
    Mrs. Hayes. Thank you.
    I now recognize Ms. Adams from North Carolina, followed by 
Mr. DesJarlais from Tennessee.
    Ms. Adams. Thank you, Madam Chair, and thank you to the 
Ranking Member as well for hosting the hearing today. To the 
witnesses, thank you for your testimony.
    It is an incredibly urgent and important conversation. 
Right now, more than 50 million Americans are struggling with 
hunger, with an estimated 17 million children living in 
households facing food insecurity. Over 18 million Americans 
are receiving unemployment benefits, and up to 40 million 
Americans cannot afford rent and fear eviction.
    In North Carolina alone, 1.5 million people currently 
depend on SNAP to put food on their tables, an increase of 
300,000 North Carolinians since the pandemic began. In 
Mecklenburg County, where my district is, there are more than 
150,000 people receiving SNAP, an increase of more than 50,000 
people since March of last year. It is clear that there is a 
hunger crisis in our nation, and the jump in SNAP participation 
only shows us part of a larger picture.
    Mr. Duvall, thank you for your testimony in support of 
America's farmers. In this Committee, we are incredibly proud 
of the contributions that farmers make to our nation, and we 
are glad to hear of the great work that you have done, and that 
farmers have done, to combat hunger.
    I do want to ask some needed additional context to your 
remarks. In addition to the increase in SNAP benefits, which 
the American Enterprise Institute has estimated has kept 
millions of Americans out of poverty, our Committee also 
provided a rather large number of needed Federal relief dollars 
to producers in this country.
    My question to you is, to build upon the importance of that 
interconnection, Mr. Duvall, could you comment on the 
importance of SNAP in rural communities, such as those in your 
home State of Georgia?
    Mr. Duvall. Yes, ma'am. Anytime you go into the rural parts 
of our country, it is vitally important that those SNAP dollars 
be there. On a previous question I talked a little bit about 
rebuilding our infrastructure that will bring jobs back out to 
our rural communities, and that is hopefully going to come 
through this Biden Administration and through you all in 
Congress. But it is vital. We have seen an increase in costs of 
food to families that are going to the grocery store to buy it 
of about six percent, where normally on a year-to-year basis it 
is about two percent. There is a desperate need out there for 
help, and those funds are very important.
    Ms. Adams. Well, thank you so much.
    Mr. Waide, in my district Loaves and Fishes is a nonprofit 
that provides groceries to individuals in Charlotte Mecklenburg 
in short-term crisis has a program that provides unutilized 
perishable TEFAP foods to those in need. It alone has increased 
from serving around 500 people per month pre-pandemic to 
serving between 5,000 and 7,000 per month.
    So, can you expand on how the COVID-19 pandemic has 
affected the way you store, handle, and distribute food, and 
how you have managed those hurdles?
    Mr. Waide. Thank you for the question. The key challenge 
that we face from the pandemic in how we operate is really in 
the distribution methods. Rather than ask clients at food 
pantries to come inside, shop for food, and then leave, we have 
really pivoted to a mobile distribution model where people are 
driving through parking lots and we are putting food directly 
in trunks or in cars, just to maximize peoples' safety.
    There has been a huge influx of perishable products through 
the Food Box Program and through other sources of food that we 
have relied upon significant investments in our infrastructure 
in freezer and cooler capacity to help handle that food. And 
then, of course, we have had to buy a lot of food. My food bank 
alone is purchasing $1 million or more per month in food 
purchases, about five times what we were doing prior to the 
pandemic, and we think that is going to continue kind of 
indefinitely.
    So, those are some of the ways we have had to adapt, and we 
expect to have to operate in this way for a number of months to 
come.
    Ms. Adams. Well, thank you for all that you do. I had a 
Kellogg fellow who worked--who was in my group, Bill Bolling, 
who worked with the Atlanta Food Bank. Is he still with you?
    Mr. Waide. Bill was my predecessor and right now, he is 
failing at retirement.
    Ms. Adams. Oh, okay. When I saw the Atlanta Food Bank----
    Mr. Waide. He is still very active in our----
    Ms. Adams.--I looked, and I said you don't look like Bill. 
Thank you for all your work.
    I yield back, Mr. Chairman.
    The Chairman [presiding.] Thank you, Ms. Adams.
    And now, I recognize Mr. DesJarlais for 5 minutes.
    Mr. DesJarlais. I thank the Chairman, and thank our 
witnesses for being here today for this important hearing.
    Mr. Duvall, as you know, the average U.S. family spends 
just shy of ten percent of their disposable income on food, 
while other countries experience much higher food costs and 
spend a higher percentage of their disposable income on food. 
Many of these countries employ market distorting farm policies, 
or no farm policy at all, leading to volatility and 
availability of and price of their food. What role does farm 
policy have in stabilizing the availability and price of food 
in the United States?
    Mr. Duvall. It plays a huge role, because these farm 
programs, they bolster the economies in our communities, and as 
you bolster the economies there, we also produce the food and 
generating the money in our communities to be able to feed our 
hungry people there.
    We are the bread basket of the world. We are known--and we 
are proud of that. We should never have hungry people in our 
communities and across this country. We look forward to working 
with you all to find other solutions to be able to solve this 
problem.
    Mr. DesJarlais. Okay. We touched upon this the last time 
you were here, which wasn't long ago, so it is great to have 
you back. But you know, here on the Committee, we strive to be 
very conscious about how policies may impact the price of food, 
and in turn, place an even greater burden on those struggling 
to feed their families.
    I am greatly concerned when I hear priorities of folks 
across the aisle, particularly as it relates to imposing 
burdensome regulations on farmers, whether it be for climate 
change, WOTUS, or even restrictions on crop protectants and 
provide cost-effective ways to manage the risk of weeds and 
pests. Do you share these concerns, and what is the impact on 
the overall food supply chain if we arbitrarily increase the 
cost of production on our farmers and ranchers, and who winds 
up paying for these mandates?
    Mr. Duvall. Well, of course, first of all we need to be as 
efficient as we can, and [inaudible] better. We need to 
streamline the approval of the new tools that are coming down 
the pike for our farmers to be more efficient, and then, of 
course, if you raise the cost to our farmers to produce that 
food, someone has got to pay for it, and it is going to be paid 
for by the consumer at the end of the chain.
    Farm programs play a role in making sure that we keep it--
the fluctuation of prices from going up and down, and our risk 
management tools are vitally important to making sure that we 
can protect our farms and be there year after year after year.
    So, all of this put together helps our country be food-
secure, and now we have to figure out how best to deliver it to 
the people that need it, especially during this pandemic when 
so many people lost their jobs.
    Mr. DesJarlais. Absolutely, and I appreciate your comments. 
I also want to thank the Chairman again for his comment at the 
last hearing about making sure that Farm Bureau, stakeholders, 
producers would have a seat at the table when we talk about 
imposing regulations, and so, I appreciate his commitment to 
that as well.
    With that, I yield back.
    The Chairman. Thank you very much, and now, the lady from 
Maine, Ms. Pingree, you are recognized for 5 minutes. Is she 
here?
    Ms. Pingree. Thank you, Mr. Chairman. Sorry, I moved an 
inch away from my camera. I apologize. Thank you. I wasn't 
expecting to come up.
    I want to just thank the witnesses. I really appreciate 
your testimony, and I appreciate the Chairman for getting such 
a diverse group to testify in front of us.
    So, Mr. Edenfield, thank you for your testimony and for 
your support for your customers, making sure that people had 
access to healthy food. I really appreciate what you talked 
about.
    You mentioned that your store was part of the incentive 
program to help SNAP participants to buy more fruits and 
vegetables a few years ago, and I know in my home State of 
Maine, the Harvest Bucks and Farm Fresh Rewards Program have 
become only more important during the pandemic to help people 
access fresh and healthy foods. Can you talk about what it 
would have meant for your business and your customers if those 
fruit and vegetable incentives for SNAP had been available 
during the pandemic?
    Mr. Edenfield. Thank you for the question. No, the pandemic 
would have been an absolutely ideal time to have that, because 
the response was great. When we participated in that program, 
we tried to have extra specials going on: not only did they get 
double, sometimes they almost got triple what they would have 
normally got in fresh produce.
    And so, it is a great program. As far as health 
initiatives, some of the things that we do as far as pushing 
and working with our community on healthy initiatives, and it 
just kind of fit right with that. And, it certainly meant a lot 
to our customer base, and it was very, very well received, and 
utilized where I thought we got the most out of it and the 
customers got the most out of it.
    Ms. Pingree. Great. Well, thank you for that, and I do 
think when we talk about hunger--and clearly that is the focus 
of this hearing, but we also have to remember that it is not 
just about calories, it is also about making sure people get 
fresh fruits, healthy vegetables, so that kids can grow up with 
a healthy diet and build those habits. I know how important it 
is and I know that is important certainly to the food banks.
    Mr. Duvall, Zippy, thank you so much for once again being 
with us. You are now a regular at our hearings, and so, we 
appreciate you taking the time to be with us.
    I have been working on this issue of reducing food loss and 
waste, and it is such a strange contrast in our country to be 
wasting about 30 percent of the food, yet we have so many 
people going hungry. And that was really exacerbated during the 
pandemic, particularly in the early days. You mentioned that it 
was just heartbreaking to watch farmers having to slaughter 
animals that couldn't get to the slaughterhouse or plow under 
fields of vegetables, and I appreciate the work that you talked 
about making sure that farmers could move that food.
    But, sometimes I hear that there are obstacles for farmers 
who want to donate food, or just even make the connections to 
make sure that food can get to the places it needs to be. Can 
you talk about that? Have you seen farmers experience an issue 
around donating, or just the obstacles of getting the food 
where it needs to go?
    Mr. Duvall. Yes, ma'am. It is very difficult. When we have 
a just in time system like we do, and we have something like 
this happen, it really clogs everything down because most 
farmers, especially medium to larger size farmers, have a 
particular way they are going to sell it. They are going to 
sell it that way, and they do it day in and day out, every day. 
Now, the smaller farmers, we saw an increase in their 
capability of selling direct to the people, but that is through 
farmers' markets, local farmers' markets, and anywhere we can 
do to assist them to make it easier for them and have access to 
areas where they can use the SNAP program benefits to be able 
to purchase those, that is good for those smaller-type farmers.
    But yes, sometimes it is very difficult for them to be able 
to make that transition from that just in time to trying to go 
somewhere different when the interruption comes in the chain.
    Ms. Pingree. Thank you for that. I think we have learned a 
lot about the just in time food system and the food chain in 
general, and certainly that gives us opportunities to look into 
that. And I appreciate you mentioning the small- to medium-
sized farmers. I know in our state, there was a tremendous 
increase for small- to medium-sized farmers who were able to 
sell directly, but you are right. Some of them also experienced 
problems, how do the customers make contact with them, and 
often for things like SNAP benefits, you need to have broadband 
access so that you can actually use a card at a farmers' 
market, and that leads to another program we talk a lot about--
or problem we talk a lot about on this Committee. I am glad to 
hear that talked about.
    My time is up. Thank you, Mr. Chairman, and I really 
appreciate this hearing today.
    The Chairman. Thank you very much.
    And now, the gentleman from Illinois, Mr. Davis, you are 
now recognized for 5 minutes. Is he here? Okay. Is Mr. Davis--
okay. We will then move to Mr. Mann from Kansas. Proceed.
    Mr. Mann. Thank you, Mr. Chairman, and thank you for having 
this important hearing. Mr. Chairman, I request unanimous 
consent to submit a letter in support of the Farmers to 
Families Food Box Program from the Topeka Rescue Mission 
Ministries.
    [The letter referred to is located on p. 134.]
    Mr. Mann. My question is for Mr. Hodel. The Midwest Food 
Bank is active in combating food insecurities across the U.S. 
and around the world, and works with more than 2,000 agencies 
to distribute food. Within the U.S., the Midwest Food Bank's 
reach spans both urban and rural communities, definitely 
understand and appreciate that, and including those that look 
like rural areas that I represent throughout the big 1st 
District of Kansas.
    Could you tell me a little bit, if you would, about your 
work in rural communities and how your organization has adapted 
and is adapting to meet the needs of our rural citizens?
    Mr. Hodel. Yes, thank you, Mr. Mann. I appreciate the 
question.
    The way our distribution model is set up, we are very 
focused on reaching the rural communities, and a lot of that is 
done through remote or satellite distributions. And so, we will 
take semis out of our main warehouses and we will work with 
other organizations, other businesses, and bring that semi a 
load of food of both frozen, cooled as well as shelf stable 
food, and we take that out into the rural communities and set 
up a remote distribution so that it is closer and easier access 
for our agencies and our pantries to come pick up the food. And 
so, we are very proud of our effort to be able to serve the 
rural community, and it is tied all the way back into our 
organizational roots, and the focus on the farmers and reaching 
back into those communities.
    Mr. Mann. Great. I understand, you and I both grew up on a 
farm and in the production side of agriculture, and that side 
of the food supply. How does that influence your work on food 
insecurity issues coming from the production side of the 
industry, and now with what you are doing today?
    Mr. Hodel. Yes, on a macro level, you are born and you are 
taught from your parents and your grandparents that your job as 
a farmer is to feed America. And so, in the nonprofit sector of 
a food bank, you carry the heart of that mission with you, and 
you know your job is still to feed America. This is now, 
unfortunately, families that have fallen on troubled times or 
somebody that has lost a job or whatever the situation might 
be, it is still kind of that same macro mission that was seeded 
in you at a young age.
    For me, it is an easy transition to go from both the 
producer as well as an organizational leader to make sure that 
that mission is fulfilled, and that you are helping somebody 
get fed, just equitably and without discrimination.
    Mr. Mann. Yes. I appreciate what you all do. I represent 
the big 1st District of Kansas, a lot of farmers, ranchers, 
livestock producers who are trying to feed the world, care a 
lot about hungry people throughout the country, in their 
communities, and really appreciate you all being on this panel 
and serving with us today.
    Mr. Hodel. Thank you.
    Mr. Mann. With that, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    I am going to take my questions. I wasn't here at the very 
start, and I want to thank Mrs. Hayes for stepping in for me.
    The real fundamental question that I want to get each of my 
guests, all five of you are all so distinguished. Mr. Waide, 
Mr. Duvall, Mr. Edenfield, Mr. McBrayer, and Mr. Hodel, if you 
had to name one thing, what would be your major thing as to why 
we are now in this hunger crisis? We need to get that question 
answered from each of your variety of perspectives, because you 
each come from different perspectives. But if we are going to 
get the right answer, we have to make sure we ask the right 
question. And that is if you could share with us why we are in 
this hunger crisis today? What would be that one major thing, 
in your mind, each of you, quickly please?
    Let's start with you, Mr. Waide.
    Mr. Waide. Well, thank you, Mr. Chairman. Great question. 
Fundamentally, the answer is that an extraordinary number of 
American families have experienced economic disruption as a 
result of this crisis, and they were, prior to the crisis, at a 
place of real vulnerability where they couldn't absorb the kind 
of economic impact they faced as a result of losing jobs, of 
having their kids out of school, and so forth.
    And so, for us to solve that problem, obviously we have to 
get the economy going, but when people face that crisis, we 
have to have a really robust intervention system to help people 
stay solid until they can get back to work and back on their 
feet.
    The Chairman. Mr. Waide, while we're on that, the food 
banks and Feeding America, you all are at the front of the 
point of the spear when it comes to this issue of food 
insecurity and hunger, being the community food banks. It would 
be helpful for us in the Committee and the people across the 
nation who may be tuning in as to how do you get your food, 
your supplies to feed the hungry as you do? Could you share 
with us how the food banks acquire that food that you all 
deliver? How do you get it, and what do we need to make sure 
that your food supply chain is secure?
    Mr. Waide. Food banks work with a wide variety of food 
suppliers to get the food that we then distribute in the 
community. We work with manufacturers and distributors to 
source excess inventory from those channels. We work with 
farmers to get any number of agricultural products, especially 
produce directly from the farm, surplus farm products that we 
can then move through our system. We work with retailers to get 
short-dated and excess inventory from stores to our vast 
network of agency partners really quickly so that that food can 
still be utilized, and of course, we work with government to 
utilize Federal programs like TEFAP and to provide lots of 
accountability and food safety measures to ensure that 
government-funded program goes where it needs to go when it 
needs to be there, with lots of accountability around it. And 
then last, we purchase a lot of food, and that is an important 
part of our supply chain.
    We then move that through a grassroots network of partners. 
We provide lots of advice and guidance and oversight for those 
partners to ensure they are serving people equitably, to ensure 
they are not charging people for food, to ensure they are 
operating safely, and using that food in responsible ways. And 
that ensures, then, that we are feeding literally tens of 
millions of people every year.
    The Chairman. And let me just ask you this, because you are 
key and we need to know this. And so, who pays for this? Where 
do you get your money from? What is it that is your greatest 
need and threat to not being able to adequately respond? 
Because I tell you, in my working with you, I was just 
fascinated. But people say they go and they get their food from 
the community food bank, you are there, you got plenty, but the 
question has to be what is it that we need to do for the food 
banks here in Congress to make sure that your supply of being 
able to acquire this food is safe? Because you mentioned people 
contribute, you get this, but as the economy goes up and goes 
sideways, where are we in terms of making sure that our 
community food banks are secure and do you need us in Congress 
to be able to provide a way for you all, the food banks, 
Feeding America, to get more resources to make sure that you 
don't run out of food?
    Mr. Waide. Mr. Chairman, the majority of our funding as 
food banks comes from private sources. In Atlanta, 60 percent 
of our funding comes from private fundraising. We certainly 
have some amount of government funding, about \1/4\ of our 
funding, and then we have fees and other sources of revenue 
that make up the difference.
    I think for us, the most important risk that we face and 
the most important thing that this Committee and Congress and 
the Administration can do to support us is to continue to 
invest robustly in food purchases through TEFAP and other USDA 
programs. If that food supply declines, it would significantly 
impact our ability to respond in the way that we have. My food 
bank has sourced about 50 percent of our inventory since June 
from TEFAP and from the Farmers to Families Food Box Program, 
the majority of that through TEFAP. And so, significant 
investments in that program are the most important thing to 
help us continue to distribute food.
    And the second thing I would say, of course, is we need to 
continue investing in SNAP as a way to relieve some of the 
burden on food banks.
    The Chairman. Very good, and there is so much here for us 
to inquire. My time has certainly run out there, but I will 
come back to each of the others in my closing comments and try 
to get answers there. But there is one other that we got to get 
an answer from, and you can be thinking about it, and that is 
our veterans. It is unthinkable that we have over one million 
of our veterans going hungry. That is right. And there are some 
estimates that it is more than that. I want to come back to 
that, because we have to make sure that all of our American 
people are not going hungry, and most certainly not our 
veterans.
    With that, Mr. Davis is back, so for the next 5 minutes we 
recognize Mr. Davis.
    And panelists, I will come back to my line of questioning 
because there are some very important things here, because I 
want you all to be thinking about how we in Congress can help 
you.
    Now I recognize Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman, and thanks again to the 
witnesses. Those pesky little votes they are calling, I 
apologize. I am--was a little late getting back here.
    But I have always been a big supporter of the Farmers to 
Families Food Box Program. As a matter of fact, if you talk to 
former Secretary Perdue, he would tell you I bent his ear and 
his staff's ear at the beginning of this pandemic to talk about 
ideas that ended up culminating in this very successful program 
that I advocated for, and we have seen, just based on the 
testimony already, the immense value to every single American 
who needed these boxes that got them.
    So, it is an innovative program, proved to be immensely 
valuable, and we are combating hunger in a time of crisis. It 
is disappointing to see so many people make feeding hungry 
families actually a political issue. In my opinion, this 
program is the type of innovation we need, and should be the 
start of a conversation on how we can use it as a model for 
years to come. Additionally, I would like to submit for the 
record, Mr. Chairman, a study from the Wallace Center that 
showcases the value of investment in this program.
    [The report referred to is located on p. 121.]
    Mr. Davis. My question for you, Mr. Hodel, your testimony 
reflects on the immense value of this Food Box Program, too, 
and as you know, the program currently asks that dairy, 
protein, and fresh produce be provided in a combination box. Is 
that the correct approach?
    Mr. Hodel. Yes, thank you, Mr. Davis, for the question.
    I would say it depends. If it works. Personally for Midwest 
Food Bank and for the majority of our agencies that we serve, 
receiving them in kind of a bulk item allows us better 
flexibility in terms of refrigeration and freezer. When it 
comes in a combination box today, it limits us a little bit in 
terms of the time that we have to get them out to an agency, 
and an agency that may not have a lot of refrigeration space 
has to immediately get those into the trunk of a car. That 
works really well. We had a partnership with Jackie Joyner-
Kersee Foundation where we distributed 500 boxes in east St. 
Louis, and it went from the truck to the trunk of the car, and 
those boxes worked really well. In general, we would probably 
prefer them to be in bulk so that we could put the meat into 
the freezer and we could freeze it, and we could put the milk 
and the produce into the cooler and we could hold it, and it 
gives us just a little bit more flexibility in terms of the 
supply chain to be able to get those to our agencies and the 
agencies also would have that same flexibility.
    Mr. Davis. Excellent. I know you have alluded to this 
before, Mr. Hodel, and so have the other witnesses. I think 
there is unanimous support for the program. We just want to 
make it better.
    I do believe from your testimony, you believe that there is 
a value to continuing this Food Box Program in a post-pandemic 
era. Give us another reason why you think that that is a good 
idea?
    Mr. Hodel. Yes, absolutely. I think diversity is key, and 
so, the programs that have been talked about here today are all 
very good, but this program really is an additional pipeline of 
nutritious food into the supply chain for food banks. And so, 
that is why the nutritional value of it, and then the 
partnership that can be connected and the exposure that the 
food bank has to the farmer and to the producer to get this 
great product, and to get it into the food bank pipeline, I 
sincerely plead that it continues because we have seen it as a 
tremendous benefit to the families that are in need and are 
fighting hunger. It really gives a nutritious option for them 
to have.
    Mr. Davis. Well, Mr. Hodel, thanks again for joining us 
today. I hope all is well back home. I will be there hopefully 
in a matter of hours, but I appreciate your comments, and the 
comments from all of our witnesses today.
    And for the new freshmen on the Committee, I am actually 
going to yield a minute back, which doesn't happen often. So, 
mark this day down.
    I yield back, Mr. Chairman.
    The Chairman. Thank you very much, and thank you for giving 
us that extra minute, because we can use it.
    And now I will recognize the lady from Virginia, Ms. 
Spanberger. You are recognized for 5 minutes.
    Ms. Spanberger. Thank you very much, Mr. Chairman, and 
thank you to our witnesses who are here today. I am so grateful 
that this Committee is holding a hearing on this incredibly 
important topic.
    Before the pandemic, far too many families had to make 
sacrifices to feed themselves and their children, and this 
crisis has only worsened food security in our communities, 
including mine in central Virginia. The realities of this 
crisis are that parents must make difficult decisions about 
what to forego to feed their children, and recently unemployed 
people are experiencing hunger, sometimes for the first time, 
and there remains a severe lack of available resources for 
those who have been suffering from hunger long before this 
pandemic.
    I have heard about these issues all across the communities 
I serve, ten counties in total, and I have been a frequent 
visitor because of a personal interest and also because of this 
wonderful Committee assignment to our local regional food bank 
to understand really what goes into ensuring that people 
throughout central Virginia and our food pantries that serve 
them have the resources that they need. As an example, before 
the pandemic, a church located in Henrico County reported that 
they typically served about 24 families a week through their 
food pantry. But just last month, there was a line of 125 cars 
waiting to receive food at the drive-thru pantry. And I know I 
am telling stories that many of my colleagues have heard across 
their districts and certainly our witnesses know firsthand 
through their tremendous work to ensure that people are having 
their needs met and that we are delivering these tremendous and 
important programs. I am grateful to each of you for your 
efforts to ensure that food is delivered to hungry Americans, 
and I wholeheartedly support efforts to improve Federal 
programs and their efficiency and effectiveness, and Mr. Hodel, 
I really appreciated your answer to Mr. Davis's question about 
how you store the products you receive through the food box.
    But, I will get to my questions. Mr. Edenfield, SNAP online 
recently became available for some large-scale grocery stores, 
and there are currently several grocery stores in central 
Virginia that allow SNAP recipients to purchase food online. 
What obstacles do you foresee in trying to implement SNAP 
online for midsize and smaller grocery stores?
    Mr. Edenfield. Well, thank you. That is a very good 
question. For us--and we are small. We are a nine-store 
independent. It takes a little bit more on technology and it 
takes more to get into it. One of the things that I am still 
not sure exactly how it works is who, there is a cost on the--
if you are talking about home delivery, there is an extra cost 
there, and how that would work out. And so, I think that I 
would like to find out more about this here, and I can see this 
coming because sometimes there is a real need.
    I know in our stores, there is a problem with 
transportation sometimes. I have seen people that live a \1/2\ 
mile or \3/4\ mile, maybe even a mile from the store going down 
the street with bags of our groceries sometimes. So, it is an 
issue. It is an issue that needs to be looked at. But it is 
going to be a little bit more challenging for the smaller 
independents as far as the technology and everything that--to 
get there, and we are close to being ready for that, but we are 
not. Well, like I said, one of the things--the questions I have 
is who pays that delivery charge there?
    Ms. Spanberger. And Mr. Edenfield, I have an additional 
question for you.
    I am curious if you could provide your thoughts related to 
the use of SNAP benefits to purchase hot foods. Currently, 
families can't use SNAP benefits to purchase hot foods, and I 
am wondering what your thoughts are on this current policy, 
whether it might place a burden on SNAP participants who visit 
grocery stores like yours, and who might need additional 
flexibility? I know it is a little bit of a leading question, 
which I admit, but I am curious about your comments on this, 
sir.
    Mr. Edenfield. Well, there are mixed emotions on this here 
because that spreads out when you talk about hot foods. I guess 
it could be so many different things. Most of the hot foods in 
most grocery stores are pretty economical. You can get a 
rotisserie chicken at a pretty low cost. I would have mixed 
opinions on it because sometimes I guess it would open the door 
maybe for other things, but at the same time--and the example 
of rotisserie chicken, while it can be bought hot, it can be 
cooked a day and refrigerated and bought the next day cold. So, 
it can be a little confusing. That is a very good question.
    Ms. Spanberger. That is a very good example, sir. I 
appreciate that very much. Thank you.
    Mr. Edenfield. It would take a lot of work, a lot of 
talking to go over this here and a lot of discussion.
    Ms. Spanberger. In terms of delineating what elements and 
portions of your store or other stores would be eligible for 
it. That makes sense.
    Thank you very much, Mr. Edenfield. Thank you to the other 
witnesses, and Mr. Chairman, I yield back.
    The Chairman. Thank you very much, Ms. Spanberger.
    And now I will recognize the gentleman from Georgia, Mr. 
Rick Allen, for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and again, I want to 
thank you for hosting this hearing today, and hearings on these 
important matters.
    As we go forward, one of the things that, that we hear 
every time that we get together and talk about hunger, is the 
number of people who go to bed, particularly children, hungry 
at night, and when they go to bed, and then we have other folks 
who are not getting the food supply that they need. Yet when 
you look at the amount that our farmers are producing, I mean, 
it is 120 percent, plus we export 25 percent of the food 
produced here. I think we need to go from the source. In other 
words, let's find the children that are going to bed hungry, 
and let's find out what the root of the problem is there. That 
should not happen in this country. I agree with you, Mr. 
Chairman. We need to go directly there and work backwards and 
see how is the most efficient way to make sure they don't go to 
bed hungry.
    I was very proud of the folks in my district who provided 
breakfast and lunch and their snack pack for every child in my 
district. No child should have gone hungry in the 12th District 
of Georgia.
    So, my point being--and Zippy, this question is for you. 
Obviously, we have gotten very efficient. In fact, farmers are 
just about producing themselves right out of business. Going 
forward, we have thrown $6 trillion at this problem, and 
another $2 trillion is going to be signed into law this week. 
That takes our borrowing to $30 trillion. We are seeing 
inflation--six percent inflation, as you mentioned, at the 
grocery store. We are seeing gas prices increase dramatically, 
and as we see this and it begins to spiral, is it directly 
related to the amount of borrowing this government is doing and 
the impact it is having on capital markets? Zippy, could you 
tell me your thoughts on that?
    Mr. Duvall. That is a good question, Congressman, and I 
don't know that I can even get my mind around $1 trillion, to 
start with, coming from the farm.
    I don't know that I am qualified to answer that question, 
Congressman.
    Mr. Allen. How about----
    Mr. Duvall. But it can't be good for us as a country.
    Mr. Allen. Yes, the ag economists, have they looked at the 
potential risk of the collapse of capital markets that our 
farmers so depend on for this national security and food 
security issue?
    Mr. Duvall. No, sir, not that, I don't have their evidence 
in front of me.
    Mr. Allen. Okay. I would suggest that we get our ag 
economists to look at the current financial picture, and the 
dependence of our industry on government and the ability for 
government to continue to fund that, in addition to their 
borrowing costs and what those borrowing costs could look like 
if we continue--I don't see this stopping. That is the thing 
that concerns me. I don't see anybody that is thinking anything 
about, big deal, $30 trillion. Well, heck, why not make it $60 
trillion if it doesn't matter? I just don't know where you draw 
the line here, but I can tell you this. There is no reason in 
the world why we--anyone in this country should go hungry. Of 
course, we know in the last event that frankly, the processing 
folks were a big part of the problem, yet I called all of my 
processors in my district and they are working 24/7. I said how 
are you doing this? They said, well, we are working per CDC 
requirements, and our folks are showing up for work and we are 
getting the job done. And of course we have had tremendous 
efforts from healthcare professionals, teachers. None of this 
has been easy. But if you look at where we are financially, the 
importance of food, Zippy, we have to look at the impact of 
what we are doing here in Congress as far as spending goes, and 
how that is going to impact our ability to produce the food we 
need. I think your organization needs to get the right 
professionals together and we need to look at this key 
component of how our economy works.
    Mr. Duvall. Congressman, we have some great economists 
here, and we will put them to work to see what the answer to 
your question is, and try to get back to you.
    Mr. Allen. We will save that answer for a future hearing. 
Thank you, Zippy.
    I yield back.
    The Chairman. Thank you very much, Congressman Allen.
    And now I recognize Ms. Kuster of New Hampshire for 5 
minutes.
    Ms. Kuster. Thank you, Mr. Chairman, and thank you again 
for scheduling this important hearing.
    Hunger is so heartbreaking and food insecurity is plaguing 
my state just as it is the rest of the country. One in seven 
people in New Hampshire are now struggling with hunger, and the 
number of food-insecure has grown by almost 70 percent.
    Part of the tragedy is this challenge is not new. COVID 
worsened the problem, but I like to say it pulled back the 
curtain and exposed the staggering degree of food insecurity 
that existed even before the pandemic. No one in America should 
have to go hungry. We can and must do much better.
    So, I have been proud to help champion increases in food 
assistance in the COVID response packages that Congress has 
passed over the last year. Yet, American Recovery Act which we 
passed and sent to President Biden just yesterday provides 
billions in additional food support at a time when Americans 
still desperately need it.
    I am also constantly inspired by the work of our food and 
nutrition organizations across New Hampshire, including the New 
Hampshire Food Bank, which has provided 15 million meals in 
2020, and logged over 15,000 volunteer hours all in the midst 
of a pandemic health crisis, with great help from our New 
Hampshire National Guard.
    But it is clear that food banks and soup kitchens and 
incredibly dedicated volunteers and advocates cannot stem the 
tide of hunger alone. Without robust support from SNAP and WIC 
and other Federal nutrition and food assistance programs, 
countless more of our friends and neighbors won't know where 
their next meal is coming from.
    Mr. Waide, your testimony demonstrated perfectly when you 
say increasing SNAP by ten percent has the practical effect of 
doubling the amount of food already provided by our food banks, 
and to that end, I have been excited to see SNAP online 
purchasing pilots launched in 47 states, including New 
Hampshire. My hope is that these pilots will continue and grow.
    From your perspective, Mr. Waide, have you seen the impact 
of SNAP online pilot programs in Georgia, and how does it help 
reduce the stigma of SNAP? And also, those who are sick or 
elderly or unable to get to a store?
    Mr. Waide. Well, as an initial statement, for this larger 
food insecurity crisis, we have to take a both/and approach to 
the overall issue, and we need more investment in food 
commodity programs like TEFAP and the Farmers to Families 
Program. We need more investment in SNAP, and so forth.
    The solution is all about access and making it easier for 
folks to access food, given all of the challenges that we are 
navigating. Online access to SNAP in this environment where we 
are still needing to practice social distancing, where people 
are challenged in terms of their time commitments to get to the 
grocery store, can help ensure that families, especially 
families with children, can access the food that they need. It 
is also important for seniors who face higher risks around the 
virus and who are challenged to get to the grocery store.
    So, we certainly think any effort to increase access is a 
good one, and with the right kind of controls, we can do this 
in a way that is both accountable and increases accessibility.
    Ms. Kuster. Excellent, and thank you for mentioning the 
Farmers to Families Program. I don't think it is lost on any of 
us that for some folks living in rural communities, their 
farmers and producers are closer to home than the nearest 
grocery store or in a food desert, a convenience store.
    Mr. Duvall, do you think helping farmers' markets and rural 
farm stands become licensed under SNAP and able to accept EBT 
will make a difference in addressing rural hunger?
    Mr. Duvall. By all means it would. I mean, we have seen an 
increase in people coming to those small markets, and we need 
to make sure that those funds are available through those small 
markets.
    Ms. Kuster. Excellent, and I know that will be a boost to 
our small family farmers in New Hampshire.
    Thank you very much, Mr. Chairman. I yield back with 10 
seconds remaining.
    The Chairman. Very good. And now I recognize Mr. Johnson of 
South Dakota. You are recognized for 5 minutes.
    Mr. Johnson. Thank you very much, Mr. Chairman.
    Like all of my colleagues, I want to thank the panelists 
who have done a nice job and an insightful job of getting us a 
better understanding of hunger in America. I particularly would 
like, Mr. Hodel, talking about the poverty to prosperity 
pathway, and talking about helping people for a season, not for 
a lifetime. I think that is a beautiful goal and an aspiration 
that is, frankly, I am sure, shared by every Member of the 
Committee. How do we get people on that pathway out of poverty?
    And with that in mind, I want to talk to all of the 
panelists about how we help America, how we help Americans and 
American families move from an unfortunate position of 
dependence and needing this necessary help to a greater degree 
of independence. And so, you have been wonderful advocates 
today, but all of you or most of you are also employers, and so 
maybe you can share a little bit with the Committee things that 
your organizations are doing to make sure that you are creating 
jobs or giving your employees better career development, or 
just in any other way really contributing to an economic 
vitality that can help lift people out of poverty. And I 
suppose I should pick somebody so we don't have a free for all, 
so Zippy, my friend, if you want to go first, and then we 
will--I will call on others from there.
    Mr. Duvall. Well, thank you, Congressman. I appreciate the 
question.
    Of course, our farmers are all the time creating jobs. We 
have limiting factors that keep us from doing that through 
regulation, or whether it be lack of labor, but if you really 
look at what the graduates come out of our ag schools, there 
are more jobs available than there are students that come out. 
It comes down on our end of creating jobs, it comes down to 
awareness and the education of our children that, ``Hey, 
farming is not a bad place to make a living. And just because 
you would go work under a farmer on his larger farm, doesn't 
mean that you are less of a citizen than anyone else.'' We need 
to put the education out there to our young people that there 
is great opportunity in our farmland, and our farmers will hire 
them and put them to work.
    Mr. Johnson. Yes, very well said, Mr. Duvall. Thanks.
    Madam or Mr. Chairman, I can't see the time, and I know 
Chairman Scott wanted to keep us on, so when I have a minute 
left, maybe just politely give me a nudge.
    Mr. McBrayer, how about you and RaceTrac. Talk to us about 
your efforts.
    Mr. McBrayer. Sure, I am glad and happy to talk to you 
about our efforts.
    As I said earlier, RaceTrac is a privately owned company, 
750 stores in 11 states. We are spending about $350 million in 
capital every year building new stores, and each of those new 
stores takes 20 to 25 additional jobs to run. In addition to 
that, we have 10,000 employees. We operate in a business where 
turnover is quite high, and so, we are hiring 1,200 to 1,300 
people a month into our stores. We think we are on the 
frontline of creating not only access for SNAP beneficiaries 
with the dignity of choice of the food that they eat, but if 
they are unemployed, we will take their application at our 
stores any time, because our needs are great. We were able to 
stay open the entire pandemic. We didn't have to close our 
stores unless directed by government to do so, and we meet 
people at the point of their need with access to food.
    We can only do that because of the dedication of our folks 
in the field, and that need is growing every day.
    Mr. Johnson. Thank you, and I did find the timer and I have 
just a minute left, so my apologies to Mr. Waide and Mr. 
Edenfield and Mr. Hodel. You are not all going to be able to 
answer. Do any of the three of you particularly want to use the 
last minute we have?
    Mr. Waide. Yes, this is Kyle Waide from the Atlanta 
Community Food Bank.
    Mr. Johnson. Thank you.
    Mr. Waide. Our view about how we are trying to create 
economic opportunity for our team is that we believe we are 
more successful when our employees are engaged, and they are 
engaged when we are demonstrating how much we value them 
through our professional development efforts and the way in 
which we compensate them and provide them with benefits.
    We have continued to develop new training programs to help 
people access new opportunities here at the food bank, like a 
driver's apprentice program. We have continued to provide 
supplemental pay or hazard pay to our employees even now, 12 
months after the onset of the pandemic. We have a minimum 
salary at the food bank of $15 an hour. We provide extensive 
health benefits, and we think it is critically important for us 
to retain our employees, and keep them engaged for us to be 
successful. I think those practices, if practiced broadly by 
the private-sector, can really benefit lower income workers who 
face the brunt of food insecurity, not just during times of 
crisis, but all the time.
    Mr. Johnson. Mr. Waide, well said.
    Thank you, and I yield back.
    The Chairman. Thank you very much, Congressman Johnson.
    And now I will recognize Mrs. Hayes from Connecticut for 5 
minutes.
    Mrs. Hayes. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here today, and for holding this incredibly 
important hearing on food insecurity.
    Every community in our country has seen the impact of 
astronomical hunger over the past year. Nationally, we have 
heard that food insecurity could be impacting as many as 50 
million Americans, including 17 million children. That number 
is so large that it is almost inconceivable. To put it in 
perspective, it is about 13 times the population of the State 
of Connecticut.
    Yesterday in Congress, we passed the historic American 
Rescue Plan to begin to address this crisis by continuing the 
crucial 15 percent increase to SNAP, bolstering SNAP online 
purchasing programs, and supporting critical child nutrition 
programs like WIC, pandemic EBT, and providing needed funds to 
ensure seniors have regular nutritious meals.
    As the Chairwoman of the NODO Subcommittee, I intend to 
continue lifting up this vitally important work and 
improvements to Federal nutrition programs, and working with 
the Ranking Member and the Subcommittee Members to address 
hunger before it strikes.
    My question today is for Mr. Waide. There is a 
misconception about the type of person who typically struggles 
with food insecurity. In your testimony, you described 
increased demand at the Atlanta Food Bank due to the pandemic. 
Can you speak to the demographics and the changing demographics 
of the clients you have served throughout the past year?
    Mr. Waide. Well, thank you for the question. First of all, 
this food insecurity crisis that has been exacerbated by the 
pandemic has really touched all communities far and wide, and 
we have seen a dramatic increase in the number of people who 
are experiencing food insecurity for the first time, who are 
coming to food pantries for the first time. Thirty-five to 40 
percent of the people that we are serving are doing so for the 
first time in their lives.
    That said, we also know that communities that were already 
vulnerable prior to the pandemic have experienced this rise in 
food insecurity more severely. Communities of color, especially 
Black and Latinx communities, have disproportionately 
experienced these challenges. We know that rural communities 
have as well, and fundamentally, it is a challenge facing 
families who typically work in lower income, lower wage jobs. 
Our prototypical client base or client household is a family 
with kids where somebody is working or trying to get back to 
work, and simply they cannot make the math work in their day-
to-day lives. The long-term solution to that is how do we 
create more economic opportunity for those families, while 
providing them the supports they need to establish themselves 
in higher paying jobs and opportunities.
    Mrs. Hayes. Thank you. I think that is a very important 
point to make. Many of the people who we have seen visiting our 
food banks are people who are working a job and just trying to 
make ends meet, and they can't get the bottom line to balance 
out.
    Mr. Waide, how would you describe the influx of funding, 
commodities, and waivers from the COVID relief packages--how 
have they bolstered your ability at the Atlanta Food Bank and 
other community organizations to combat hunger in Georgia, and 
how do you think Congress can continue to build on the progress 
that we have made thus far?
    Mr. Waide. We could not have done what we have done without 
the support of those Federal programs. Our food bank is 
distributing 65 percent more food today than we did prior to 
the pandemic. We will complete this fiscal year having 
distributed close to 120 million pounds of food, and the 
funding that we have also received, not just through Federal 
programs, but through generous philanthropic support from the 
private-sector, has allowed us to respond so aggressively.
    We know that this crisis is not going to be over any time 
soon. We expect higher levels of food insecurity well beyond 
2021, and so, for us to continue to respond to this elevated 
level of demand, we need ongoing access to food support from 
Federal programs. For us, the TEFAP Program has been critically 
important. This is product that we have a well-established 
supply chain for accessing and distributing. The Farmers to 
Families Food Box Program has also been critically important, 
and we support finding ways to sustain that program while 
making important improvements. The improvements that we would 
recommend around the Food Box Program are really making it more 
long-term sustainable and improving some of the execution 
around the program. There is a lot of churn in the distributors 
that are selected to operate the program, meaning we are 
reinventing the supply chain with each new round of funding. We 
are also engaging a lot of partners who don't have real 
experience in this work, and we would urge the USDA and the 
Committee to consider making changes to the Food Box Program so 
that it operates more like TEFAP with the kind of 
accountability measures that are in place there that allow us 
to ensure that the food goes to the right place.
    Mrs. Hayes. [presiding.] Thank you. Thank you, Mr. Waide.
    I am sorry, my time has expired. Thank you. I am sorry, my 
time has expired, but that is very helpful. Thank you.
    First of all, I want to just apologize to my colleague, Mr. 
DesJarlais for the mispronunciation of his name earlier.
    I now recognize Mr. Moore from Alabama, followed by Mrs. 
Bustos of Illinois.
    I apologize. I now recognize Mr. Feenstra.
    Mr. Feenstra. Thank you, Madam Chair, and thank you, 
Ranking Member Thompson.
    First, I want to thank each of our witnesses for their 
testimony today. Hunger is an important issue to examine, and 
we know the COVID-19 pandemic has impacted hunger in many, many 
ways.
    Iowa's 4th Congressional District is one of the leading 
districts for agriculture production in the nation, supplying 
beef, pork, eggs, dairy, turkey, and more to our nation's food 
supply. I know farmers in my district are passionate about the 
role they play in feeding the world, and know firsthand the 
responsibilities they have in affordable, predictable, and safe 
food supply oftentimes goes unnoticed.
    This question is to Mr. Duvall. Mr. Duvall, at the 
beginning of the pandemic, we saw supply chain disruptions and 
bulk purchases of food at grocery stores that resulted in some 
shelves of food at grocery stores to be empty. For example, 
entire meat sections were empty of all products at many stores; 
beef, chicken, pork, turkey completely sold out. For some 
families, this likely meant that they were unable to access 
foods they would normally purchase for their families, or had 
to look towards more expensive and unusual products to purchase 
for their families.
    I believe it is important that we examine what could have 
been done to prevent a situation like this from taking place, 
and proactively think about situations in the future that could 
impact the regular supply of food products in our grocery 
stores.
    Mr. Duvall, could you discuss any ideas the American Farm 
Bureau may have about how to better secure our supply chain to 
ensure product supply disruptions don't happen again, and 
number two, could you also discuss any threats to our 
agriculture supply that you believe this Committee should be 
looking at in the future, like African swine fever, foot-and-
mouth disease, bird flu, et cetera, that could have potential 
causes for disruptions as we move forward in society? Thank 
you.
    Mr. Duvall. Well, to speak to the disruptions, we have 
learned a lot. I know that all links of the food chain have 
learned extremely a lot, and we have to be nimble to be able to 
change as these issues come up. Hopefully we will never see 
another pandemic, but I know we will be more prepared for it. 
To realize that we really made that change in about 4 months 
was pretty amazing how resilient our food supply chain really 
is. But we have learned a lot and--but if you think about 
putting in things to make--the things that we have been 
implementing, it slowed the system down. And when you slow the 
system down, it is not as efficient and it costs more. There is 
a balance between how much are we willing to spend trying to 
get it there, and it is mostly in processing, of course, not at 
the farm level, processing. How much are we willing to spend 
and how much of that is going to be passed on to people at the 
grocery store, and what does that do to hunger? It makes it 
worse. So, to slow it down is expensive.
    Speaking to the farmer, what we can do to the farm and make 
sure that that food is always there? Our risk management 
programs in the farm bill are absolutely crucial. It is the 
cornerstone on the farm bill, and we need to make sure that we 
streamline the approval process of the new products that come 
out to help us be more competitive in the world and to stay on 
the cutting edge, so that we can be efficient.
    Mr. Feenstra. Thank you, Mr. Duvall, and I just wanted to 
say, my family works very hard on a cattle and hog farm in 
northwest Iowa, and you know, it was really a scary time when 
March and April hit, and all of a sudden we had to make big 
decisions because the packing plants were closed, and there was 
no meat or produce on the shelves.
    I just hope, I learned a lot, but when it comes to African 
swine flu or bird flu, can you talk about how we should be 
proactive in those areas? Because that could be the next thing. 
We had it with COVID, but now there are other storm clouds on 
the horizon that could do the same things.
    Mr. Duvall. You are exactly right. When HPAI came through 
with poultry--I am in the poultry industry. It was great 
communications between universities and State Departments of 
Agriculture and the Federal Government. We just need to make 
sure that all those plans are there, and of course, I have 
mentioned this many times. The importance of research and 
development dollars to make sure that we are ready to vaccinate 
or do whatever we have to do to protect our animals and the 
people as we move forward.
    Mr. Feenstra. Thank you, Mr. Duvall, and I yield back.
    Mrs. Hayes. Thank you.
    I now recognize Mrs. Bustos of Illinois.
    Mrs. Bustos. All right, thank you, Madam Chair.
    Mr. Hodel, thanks for your testimony before the Committee 
today.
    Last summer, I took a virtual tour of Midwest's warehouse 
in Peoria, and got to meet some of your wonderful team members. 
One issue that came up during the conversations that I had 
there was the issue of storage, and with the Farmers to 
Families Food Boxes, many of the food banks and pantries didn't 
have the infrastructure that was needed so they could keep 
perishable commodities fresh. We heard this from other places 
as well. My question is did the Midwest Food Bank have the cold 
storage infrastructure that you needed to keep items like milk 
and eggs and meat fresh? And as part of the Farmers to Families 
Food Box Program, did you receive an allotment of funds for 
storage and distribution?
    Mr. Hodel. Yes, thank you, Mrs. Bustos, for the question.
    In general, yes, we did have adequate capacity. Midwest 
Food Bank has worked hard to ensure our freezer and cooler 
capacity size is adequate as we build and expand our 
facilities. We did bring on additional storage. We were able to 
purchase some additional external trailers or seed containers, 
so we added some capacity in the midst. In some cases, we were 
blessed to do that with some private funding and support. In 
other cases, we did see some CARES dollars get extended out to 
the food bank that allowed us to put that cold storage and 
capacity in place.
    Like anything with the disruption, we kind of had to modify 
our modes of operation multiple times in real time. One of the 
things that we did to accommodate for that was to increase the 
frequency of our distribution. Knowing our agencies could not 
hold the items, we would increase their pick-up two, three 
times a week so that they could take what they could hold and 
distribute within a day, and come back the next day. Those were 
some things from an operational perspective that we just had to 
be nimble and work our way through.
    Mrs. Bustos. How do you see that, as far as the cold 
storage, going forward? Do you still have additional needs, and 
if you could even broaden that beyond just your own 
organization, what you are hearing from your colleagues as far 
as what the need is for cold storage?
    Mr. Hodel. Yes, I think that is always the prized space in 
the warehouse is the cold storage, and it varies. It varies 
across the food banks that we have or the food banks that I 
visit. I think support for the wholesale food banks to have 
that infrastructure in place would certainly be welcome funding 
support, because we know that those dollars translate in 
holding nutritious food. And so, those dollars really at the 
end-user client result in that they get a more healthier food 
item, because we were able to have it in cold storage.
    And likewise, I think the granting opportunities available 
for even our agencies, there are thousands of pantries across 
the U.S. that would benefit from additional coolers and 
additional freezers. We try to connect them with those 
resources as well. It is both at the wholesale food bank level, 
but also at the retail food pantry level that that benefit 
would help.
    Mrs. Bustos. Thank you, Mr. Hodel.
    A follow-up question. The Midwest Food Bank serves a large 
portion of central Illinois, including parts of the 
Congressional district that I serve. What are some of the 
unique challenges that you have faced in delivering meals to 
more of the rural areas in our state?
    Mr. Hodel. Yes, the infrastructure for people to get to our 
food banks--and so, we have just had to kind of extend 
ourselves out in terms of our distribution sites. But, it is 
also the challenge of just knowing who is in need. Sometimes 
them raising their hand or getting a good contact with them, we 
have found it requires kind of multiple trips into a region and 
setting up a mobile pantry, then the word starts to spread. And 
so, it is through repetition and some consistency that is key, 
but at the same time, making sure you have product there that 
they can take home and use, and it is a benefit for them and 
their family.
    So, it is a journey that we continue to learn, but we 
certainly have our eyes and ears open to how we can best serve 
kind of all of the rural areas equally.
    Mrs. Bustos. All right, very good. Thank you, Mr. Hodel.
    My time is about ready to expire, and with that, I yield 
back, Madam Chair.
    Mr. Hodel. Thank you.
    Mrs. Hayes. Thank you, Mrs. Bustos.
    I now recognize Mr. Moore from Alabama.
    Mr. Moore. Thank you, Madam Chair.
    I just have a question for Mr. Hodel. If we have been told 
over the years to give a man a fish, you will feed him for a 
day. You teach him how to fish, you will feed him for a 
lifetime. I was just curious. I know food banks have evolved 
over the last few years and you all have made some great 
changes and adjustments, especially considering this pandemic 
we have been facing. Are we working to connect families with 
programs other than just SNAP? There are some training 
programs, employment opportunities, and the one thing I picked 
up on this call is there are plenty of opportunities for people 
to work, and I am sure there are some people coming through 
there if we could coordinate the training, not just feeding 
them, but teaching them, so down the road they have 
opportunities to have employment, and they are not so dependent 
on us to feed them. I think that that is the direction that I 
would love to see us go: less dependency on government, more 
independency for people out there.
    I am just curious if you guys have had an opportunity to 
connect socially with other groups and organizations maybe and 
through the SNAP Program, the training programs to allow these 
people to get off of SNAP and get on their own feet? I think 
that is--at the end of the day, government programs are great 
safety nets, but I don't want them to be spider webs. I don't 
want to trap people in those programs. I want freedom and 
opportunities out there. Is that something we can do, Eric, or 
do you all see us going in that direction at some point? And 
Mr. Waide, feel free to weigh in as well. I am just curious as 
to your input on this.
    Mr. Hodel. Yes, thank you for the question, Mr. Moore.
    We do certainly try to connect those individuals that are 
in need, and to get them plugged in. One of the things that was 
a benefit during the pandemic, as businesses had to close or do 
furloughs, we provided a place for their employees to come and 
their employers encouraged them to come and volunteer, so they 
were able to still get paid by their company, but they were 
volunteering and they were giving back to the community. That 
was an example of probably keeping somebody from slipping into 
that poverty level, by keeping them employed but also giving 
them purpose and putting them to work, so they knew what it was 
to serve the community.
    And so, those are the types of creative programs that we 
try to be open and partner with, the business and the 
supporters of the food bank.
    Mr. Moore. Well great. That is a great answer. I am glad 
that you do that. I think sometimes we have to think on our 
feet, and certainly I know those of us in the private-sector, 
and here in government, obviously, in the last few years have 
had some challenges, so anything we can do to get people to 
work and to give them opportunities, I appreciate that. I must 
say, hopefully we can start training them to work outside just 
our organization, but in the private-sector because one 
gentleman on here said he had 1,300 job openings a month. They 
are hiring people, and I know that Zippy said he needed some 
people on the farm all the time, so anything we can do to 
produce opportunities and train people to connect with just the 
food bank for the training programs, I would be supportive of 
that. Thank you.
    Mr. Waide. If I may, Representative Moore, I would love to 
add to the context here.
    At our food bank, we certainly agree that helping people 
get access to increased opportunity through higher paying jobs 
is an important part of solving for food insecurity. Just 
yesterday I was down at Atlanta Technical College where we are 
partnering with them to distribute food to students who are 
trying to access greater opportunities. We work with Goodwill 
and other workforce development organizations. And so, that is 
really important.
    At the same time, it is important to understand that these 
kinds of transitions are not a light switch, and that it takes 
time for families to make such transitions. And in the 
meantime, we have to support them so that they can sustain the 
effort that is required to get the training they need to access 
new kinds of opportunities. So, that is the first important 
point.
    The second important point is it is important to also 
recognize that there is a tremendous amount of turnover in the 
people who access SNAP during normal times. In Georgia, the 
average amount of time that people spend on SNAP is less than a 
year, which means the program worked as it is intended. People 
get on the program as they face crisis, and then as they regain 
stability in their lives, they exit the program. Which is 
exactly what we want for our food pantries as well, is to help 
people transition out of a place of needing help and into a 
place where they can provide for themselves.
    Mr. Moore. Thank you, Mr. Waide. I appreciate the input. I 
will say in my district, prior to the pandemic, we saw 15 
percent user rate drop to 13 percent, so that is encouraging. 
We like to see people getting on their own feet, so thank you 
for what you do. We appreciate what you guys do and what you 
are doing for our country and our hungries, as we call them.
    Thank you all so much for your time. I yield back.
    Mrs. Hayes. Thank you.
    I now recognize Mr. Carbajal from California.
    Mr. Carbajal. Thank you, Madam Chair, and thank you to all 
the witnesses that are participating today.
    Certainly, COVID-19 has forced millions of Americans into 
economic uncertainty, unsure whether they will be able to keep 
the roof over their heads or put food on the table.
    Under the last Administration, USDA and SNAP emergency 
allotments to bump existing SNAP households to the maximum 
allotment. This meant that households already receiving the 
maximum allotment, which are the lowest income SNAP households, 
did not benefit from emergency allotments. Mr. Waide, can you 
talk about how this policy might have affected the people in 
the communities your food bank serves, and whether you think it 
would be beneficial for those communities if SNAP households 
already receiving the maximum allotment also received emergency 
allotments?
    Mr. Waide. Well, thank you for the question. What we know 
is that some of the families who have been most impacted by the 
current crisis are families with children. They are sort of 
facing the crisis on two fronts. On the one hand, they are 
facing economic challenges related to losses of jobs. On the 
other hand, they have kids who ordinarily would be physically 
in school and they are not able to go to school physically. 
They are not getting access to the meals in the school, and it 
is hard for parents to leave the kids at home to go to work. 
And so, those households are often the maximum beneficiaries in 
terms of the SNAP Program, so we do believe that helping those 
families have access to more benefits would be helpful, because 
those are the families that are experiencing, by far, the 
greatest challenges.
    Mr. Carbajal. Thank you very much.
    Mr. Duvall, in your testimony, you discussed the ingenuity 
of farmers across the nation, and the important role those 
changes have played in fighting food insecurity. Can you talk 
about some of the obstacles that farmers faced in trying to 
donate food early in the pandemic? How can we make it easier to 
connect farmers who have extra food with those who are in need?
    Mr. Duvall. Yes, sir. Thank you for the question.
    A lot of our farmers' markets just disappeared, because 
they were going to food services rather than to grocery stores, 
and they had to adjust for that. The Farmers to Families Food 
Boxes was a great place to help those farmers that lost their 
markets go straight into that program. Programs like that and 
ones that are sustainable in the future that are open to all 
size farmers--I heard the combination box spoke of earlier, 
when the funds are slim, that kind of takes the ability for 
small to medium-sized farmers to be involved in that. We need 
to have a steady flow of funds going into programs like that so 
that our farmers can be prepared to market to that program.
    Mr. Carbajal. Thank you so much.
    Mr. Edenfield, your testimony mentions the partnership 
Wayfield Foods has with the SNAP-Ed funded community agency, 
Open Hand Atlanta. How has the pandemic affected that 
partnership and the nutrition education programs offered?
    Mr. Edenfield. Well, it has affected it because that is 
one, I say one on one. We have groups where there are 10 to 15 
people, and so, there hadn't--since the pandemic, there really 
hasn't been any of that at all because of the opportunity to 
distance and it just kind of threw that off track, along with 
some other things there. Really, for the last year, there 
really hasn't been any movement in that. It is a great program. 
I think it is all volunteer, the people that come to it, and as 
far as spending wisely, not only healthy eating, but to get the 
most out of your money, feeding a family of four on $10, and 
planning for it to be a healthy meal. It is a great partnership 
and a great plan, but there hasn't been anything going on there 
in the pandemic.
    Mr. Carbajal. Thank you very much, Mr. Edenfield.
    Madam Chair, I yield back.
    Mrs. Hayes. Thank you. I now recognize the Ranking Member 
of the Nutrition Subcommittee, Mr. Bacon from Nebraska.
    Mr. Bacon. Well, thank you, Madam Chair. I look forward to 
working with you on this great Subcommittee, and working as a 
strong team to do what is right for our country and our 
communities.
    I appreciate our panelists today. Thank you for sharing 
your wisdom and your perspective.
    We have the greatest economy in the world, but yet, we need 
to have a strong safety net that is effective and efficient. 
The best poverty program and the best way to fight food 
insecurity is a growing economy and jobs. We can't lose sight 
of that as well. Prior to COVID, the largest wage earners were 
seeing increases in income, the higher percentage and the 
highest wage earners. We were seeing that poverty gap close for 
the first time in about 2 decades. Unemployment was at a 50 
year low. Our goal right now should be to defeat COVID, and get 
our economy back in high gear, and we are on that track, 
particularly with the vaccines.
    With that said, we are always going to need a strong safety 
net to ensure the most needy among us have access to nutritious 
food, and out of that, one of our main goals is to have a smart 
safety net program that is giving a hand up as a primary focus. 
Helping folks become independent for themselves and their 
families is an important priority.
    So, Mr. Hodel, your testimony mentions helping recipients 
for a season, but not a lifetime. Tell us more about that--and 
you may have done this a little bit in some previous 
questioning, but we have--are going on our fourth vote so we 
have been in and out. So, hopefully we are not being redundant. 
But I would appreciate any statistics or recommendations that 
you have, and how we could perhaps modify SNAP that would help 
with that goal of making it a seasonal program versus a 
lifetime program. I would appreciate your perspective.
    Mr. Hodel. Yes, thank you for your question, Congressman 
Bacon.
    Food insecurity, we have talked about this a little bit, 
hovered around 11 percent for 2000 to 2007. The economic 
downturn in 2008 spiked the food insecurity back to 15 percent, 
and so to your point, the economic disruption really drives an 
increase in the food insecurity, and so, that 10 year journey 
of progress we are now back on. We have to work our way to try 
to help fight food insecurity to get it back to where it was 
pre-pandemic, or even better.
    Our independent organization serves pantries who welcome 
anyone in with a need, and our clients do the same. And so, our 
clients can change over the course of a month, and their 
clients can do the same. Specifically, we have had situations 
where we talk about a hand up or bringing people up. We have 
had clients that have transitioned into volunteers and even 
transitioned into employees at Midwest Food Bank. You can see 
the food relief support that they got to get their family on 
track, the ability to be in action and the purpose of working 
or volunteering, then developed skills that they were able to 
really demonstrate that turn into an employment opportunity for 
this person.
    And so, I think that is a journey that we can kind of work 
with people, and it is individual by individual and it is 
family by family. We continue to survey our agencies to make 
sure that we are staying in touch with them and their needs, 
and we want to make sure that we are providing them the best 
service, the right products, and then providing holistic 
support. And so, this an area of focus of the food bank as we 
continue to go forward.
    Mr. Bacon. Thank you.
    My next question is to the entire panel, or whoever would 
like to speak up, not that everybody has to.
    We put in about $40 billion in additional nutritional 
programming and funds over the five previous COVID relief 
bills. Were any of you surveyed about these needs or asked to 
provide testimony as we developed the spending? If so, how, and 
by whom? Thank you.
    Mr. Hodel. Yes, I guess I will answer the question. I 
wasn't surveyed, but certainly would be willing to be a part of 
the solution, going forward.
    Mr. Bacon. Right. Thank you very much, Mr. Hodel.
    Any of our other panelists? Did anybody reach out to you 
about what the needs would be when we came up with this $40 
billion?
    Mr. McBrayer. This is Max McBrayer. We were not surveyed, 
nor was there any outreach. But as previous, we would be happy 
to----
    Mr. Bacon. Thank you, sir.
    With that, Madam Chair, I will yield back.
    Mrs. Hayes. Thank you. I now recognize Ms. Craig of 
Minnesota.
    Ms. Craig. Thank you so much, Madam Chair, and thanks again 
for holding this incredibly important hearing.
    My family and I are frequent volunteers at the Open Door in 
Eagan, Minnesota, and it has just been extraordinary to see how 
many ways across Minnesota our food pantries have figured out 
how to distribute food during this pandemic. The Open Door 
Mobile Pantry has allowed the organization to distribute food 
at more locations throughout Dakota County. On the other hand, 
Open Door found that during the pandemic, they were lacking 
other critical pantry infrastructure, like extra refrigeration 
to keep up with the growing demand.
    Mr. Waide, let me start with a first question for you. What 
do you see as the greatest infrastructure challenges at our 
charitable food distribution sites, and how can the Federal 
Government be a better partner in addressing these 
infrastructure needs?
    Mr. Waide. Well, thank you for the question.
    What we have seen in metro Atlanta and north Georgia is 
that when we can make critical infrastructure investments, 
particularly in freezer cooler capacity, not just in our food 
bank, but in our vast network of community-based feeding 
program partners, then we can dramatically increase access to 
perishable products, which are often more nutritious. And so, 
investments from the Federal Government, from USDA to help grow 
this capacity beyond the way that we have grown it already will 
help us take advantage of all those great products that our 
agricultural community is producing in surplus and get it to 
families who need it.
    Ms. Craig. I appreciate that, and I guess I am going to 
stick with you here for one more question then. Also in my 
district, Neighbors Inc., which is based in South St. Paul, 
provides emergency assistance and supportive assistance 
programs to low-income community members in northern Dakota 
County. I have heard from Neighbors Inc. that those who were 
once volunteers turned into clients over the course of the 
COVID-19 health crisis.
    Mr. Waide, you talked about the importance of your 
volunteers who pack food boxes, organize food distributions, 
and address other needs. How has the pandemic affected your 
ability to retain a volunteer workforce? And of course, we are 
all looking forward to the day when those vaccines are in arms 
and we can get back to volunteering in our community.
    Mr. Waide. Well, again, another great question. The high-
level view on that, without getting too in the weeds, is we 
have been really inspired by the degree to which volunteers 
have continued to participate in our work. Many of them are 
seniors and put themselves at risk to continue to do that work. 
They are doing it out in the community to get food to people in 
need.
    That said, in our facility we have stopped utilizing 
volunteers and have not resumed that yet, just as a way to 
minimize risk inside our building. Not every food bank has done 
that, but that is what we have done. And we were really 
fortunate to have the National Guard step in to replace that 
volunteer capacity to help us continue to do our work. 
Volunteer access is critical, especially critical out in the 
community in local pantries, and we are doing everything we can 
to help connect volunteer labor to those frontline pantries so 
that they can continue to serve the community.
    Ms. Craig. Well, I appreciate your testimony today, and all 
of you. I will just add as a final remark here that, I know I 
visited almost every food distribution center. Sometimes cars 
were backed up 1 or 2 miles for months in my Congressional 
district and across Minnesota. I know as our COVID relief 
packages have been developed, that input from a number of us 
has been obviously received and we have been very focused on 
making sure that the COVID relief packages address food 
insecurity in our country.
    So, thank you very much to all of you, and Madam Chair, I 
yield back.
    Mrs. Hayes. Thank you, Ms. Craig.
    I now recognize Mrs. Cammack from Florida.
    Mrs. Cammack. Thank you, Madam Chair. I appreciate it, and 
thank you to all of our witnesses here joining us virtually. I 
know that we have had votes called throughout this hearing, so 
I have been in and out, but again, I appreciate an opportunity 
to talk about this very important issue.
    As we all know, 2020 was unlike any year that we have ever 
experienced, and this program has been a godsend to many folks, 
both as producers, but also as consumers. I am excited to talk 
about that here today, and like Representative Craig, I visited 
several food banks in my district and have talked with folks 
and gotten their feedback, so I am excited to hear from our 
witnesses here today.
    Particularly, I heard from food banks and other nonprofits 
in our district who struggled at the onset of the pandemic to 
provide food to our constituents. They report that the Food Box 
Program really is a lifeline for our communities, and there are 
ways that we can further develop and streamline this.
    But despite the important achievements of this program, I 
have also heard from several of our local producers about their 
struggle to participate in the program. The program, in earlier 
rounds, purchasing gave several of our local producers the 
opportunity to provide produce only, meat only, and dairy only 
boxes. However, when we moved to the combination boxes, that 
raised logistical costs to the point where many producers 
reported they could no longer participate in the program, in 
addition to other hurdles that they couldn't overcome. It is 
disappointing to hear from farms within my own district that 
after delivering nearly one million produce only boxes to 
Americans in need, they were unable to participate in later 
rounds that required combination boxes. What is even more, even 
as I have spoken to those who have continued to participate in 
the program, they have struggled amid extremely short, 
inflexible turnaround times with suppliers expected to ship out 
boxes only 7 days after being awarded a bid.
    As we move forward with improvements, I hope we can 
remember that this program is called the Farmers to Families 
Food Box Program, and its success is determined not just by how 
many boxes are delivered to Americans in need, but also how 
many of America's agricultural producers, big and small, are 
supported through this challenging time.
    So, with that, I am going to jump into some questions for 
Mr. Zippy Duvall. Zippy, it is good to see you. Your testimony 
told a similar story of many farmers around the country who 
care not just for producing food, but also ensuring that it 
gets to those most in need. And that being said, I have heard 
from many of Florida's producers about the difficulties 
associated with the switch under the Food Box Program from a 
produce only, dairy only, meat only box to the combination box.
    From what you and your members have seen, what effect did 
the shift to a combination box have on your producers who 
participated in the Food Box Program as a whole?
    Mr. Duvall. Well, it did restrict the use of the program 
for our small- to medium-sized producers, and we heard earlier 
that food banks really work better when they get it in bulk. 
But our smaller guys can't do that, and those hurdles were put 
up. Well, we know that USDA was faced with a problem to be able 
to stretch the dollars, not knowing that there would be 
additional funds put into the program. They had to stretch 
those dollars as far as they could to feed as many people as 
they could, and we think that is why the combination box came 
into effect. Knowing that there is going to be a steady stream 
of dollars in a program like that, and not moving the goalpost 
when it comes to regulations that you have to abide by to get 
in the program. Set it up to where the farmers can get used to 
how they are going to deliver it, and allow them to produce it.
    But we got to keep in mind, it is a farmer to family food 
box, and the ones that got hurt the most were our small- and 
medium-sized farms in that situation.
    Mrs. Cammack. And as a follow-up to that--so, I heard some 
of our local producers talk about how they came across folks 
that were bidding on this and participating in the program 
using foreign produce that had been dumped on our markets. Have 
you heard that same thing?
    Mr. Duvall. I heard that. I can't qualify it, but I did 
hear that.
    Mrs. Cammack. Okay. That kind of defeats the whole local 
domestic produce to our communities in need issue, again, and 
then as a follow-up, so how would you recommend moving forward 
that we can improve this? I think there is a logistical push 
that we are seeing on the recipient's side which would help 
streamline a little bit, and that both Eric and Ron have spoken 
to. But from the farmer and the producer side, what can we do 
to streamline to ensure that more farmers, especially our 
smaller and midsize producers, are able to participate in the 
program, regardless of where they are at geographically?
    Mr. Duvall. We got to make sure that we understand the 
small family farm. It is a small business, doesn't have an HR 
department, doesn't have a stream of lawyers. It doesn't have 
anyone that is out there helping them abide by the rules that 
are put in front of them to participate. We got to make it 
simple. We got to streamline it, and we got to shape it so it 
will fit all sizes of our farms, and make sure that it is 
funded.
    Mrs. Cammack. Excellent. Thank you so much, Zippy. I think 
my time has expired, and I appreciate it.
    With that, I yield back.
    Mr. Duvall. Thank you.
    The Chairman [presiding.] Thank you very much, and now I 
recognize Congresslady Schrier of Washington.
    Ms. Schrier. Thank you so much, Mr. Chairman, and thank you 
very much to our witnesses. I really appreciate all of you 
being here to discuss the very real and pervasive issue of 
hunger in America.
    Now, the Feeding America network of food banks, which is 
the largest charitable food assistance network nationwide, has 
experienced average increases of almost 55 percent in demand 
for food assistance since the start of the pandemic, and in 
some areas, far more. Last year, food banks provided six 
billion meals to people in need. Now, the number of children 
not getting enough to eat is ten times higher than it was 
before the pandemic, and research by the University of 
Washington showed that in my home state, about \1/3\ of 
households surveyed are now food-insecure. Fifty-nine percent 
of these households include children, and people of color were 
1\1/2\ times more likely to be food-insecure. As a 
pediatrician, I cannot overstate how important it is to ensure 
our children not only have access to food, which is clearly the 
first priority, but also that the foods are healthy and 
nutritious and varied, and ideally, local. Poor nutrition is 
linked to poor school performance, and also to later chronic 
diseases, ranging from diabetes to heart disease.
    So, one of the ways that USDA tried to tackle this was what 
we have talked about a lot here, the Farmers to Families Food 
Box Program, and in fact, I heard from multiple small farmers 
and co-ops who participated in the first round who loved this 
program. The food banks called it a lifeline, and the farmers, 
as they experienced full scale market failures because of 
school and restaurant closures, were really saved by this 
program. However, there are unresolved problems and later 
issues that Representative Cammack just talked about. I led a 
bipartisan letter with the Washington State delegation 
outlining some of the changes needed, and she touched on some 
of these, being, kind of involving large farms and not small 
ones, having really big boxes that were too much for food bank 
refrigeration systems, lack of notification when things were 
coming, shipping food from across the country and leaving out 
our small and local farmers, and many of these small and local 
farmers were really just shut out in the later rounds, leaving 
their farm circumstances really in dire situations, despite a 
really well-intended program.
    And so, I was wondering, at best the Food Box Program 
provides this unique opportunity for USDA to catalyze just an 
extraordinarily effective response to food insecurity, 
developing, getting food from farms to families, but as my 
colleague just discussed, leaving the smaller farms out. I was 
wondering, what steps, Mr. Duvall, might you consider in future 
rounds to make sure things like smaller packaging, separating 
perishables from nonperishables, in meeting the needs of food 
banks might be considered?
    Mr. Duvall. Well, you have touched on it some yourself in 
your question. We have to go in and investigate what happened 
between the beginning of the program and what was happening at 
the end, and fix those problems and make sure that all size 
farms have the opportunity to participate in that.
    In any program, when you make it more difficult, the small 
family farm gets left out.
    Ms. Schrier. That is right. Now, I have a follow-up 
question, and maybe this one is best for Mr. Waide.
    In the last Congress, I introduced a bill, H.R. 6724, 
Farmers Feeding Families Coronavirus Response Act that actually 
would be a bit more nimble. It would channel money to the 
states, and then the states do have relationships with the 
small and medium farmers, and with the food banks. And so, I 
was just wondering, Mr. Waide, can you--have you thought about 
having food delivered more on a small scale, getting the states 
involved and distributing it more like the TEFAP Program?
    Mr. Waide. So, thank you for the question. We certainly 
think that there are advantages to the TEFAP system that should 
be integrated in the way that we think about a food box 
program. I think forward looking visibility on how long the 
program is going to last is really important, having 
consistency in the participants. And in particular, the issue 
you are raising is really important of--and that Mr. Duvall is 
raising is getting great input from people at the local level 
about how the program can work better.
    We have a great relationship, in part thanks to Mr. Duvall, 
with Georgia farmers across the food banks serving Georgia. 
Commissioner Gary Black here in Georgia helped facilitate that 
relationship, and there is a really strong community in Georgia 
of all of those agricultural participants. Speaking to them at 
the local level will help ensure the program can be sustainable 
and meet both of its objectives of getting food to people while 
also supporting farmers.
    Ms. Schrier. Thank you very much. The states have great 
relationships.
    I am out of time. I wanted to thank you, and I yield back, 
although I don't think I have anything to yield.
    The Chairman. Thank you very much.
    And now we will hear from Mr. Baird of Indiana. You are 
recognized for 5 minutes.
    Mr. Baird. Thank you, Mr. Chairman, and I really appreciate 
all the witnesses being here today and sharing their expertise 
about the food insecurity.
    I am going to start with Mr. Hodel. I have thoroughly 
enjoyed the opportunity to learn more about your organization 
and the model that you have used and the way you do business. 
In terms of food security, each and every one of us in this 
hearing are probably fortunate compared to some on the global 
average. I have particularly enjoyed learning about how your 
organization is so successful, including counties that are in 
my district here in Indiana, and through such a massive 
volunteer base and without dependence on government assistance. 
And most striking to me as a note I found reported on your 
website that 99 percent of every dollar your organization 
receives is spent on program funding and goes back to those in 
need, and whom the donors feel that those funds should go to.
    Mr. Hodel, would you share your perspective on how your 
model of doing business might be expanded to deliver these 
quality foods that we produce in this country to the food 
desert areas?
    Mr. Hodel. Yes, thank you, Mr. Congressman. I appreciate 
the question.
    We are thankful to be able to serve in Indiana. We have a 
great division there, and a great partnership with leaders, and 
so it is a team effort that we really are privileged to be able 
to serve the greater Indiana community, and counties and 
individuals.
    Our model is really built off of volunteers. Volunteers are 
our secret sauce. Mr. Waide talked about that a little bit, 
their reliance on the volunteers as well, and so we are 
tremendously blessed and we do a lot to train, empower, and 
educate our volunteers so that they can play critical roles 
within our locations. Each of our divisions operates with about 
four paid staff members, and so from there, they provide the 
leadership to then have core volunteers, and then also to lead 
volunteer groups that come into the facility. A big part of our 
efficiency model goes to the credit of the community giving 
back, and I think that is also part of our mindset. We are 
serving a community, and we are looking to the community to 
help them give back to those that are in need. And so, it is 
definitely a community focus that we bring in to our locations, 
and we try to be open and flexible with a variety of volunteer 
opportunities, as well as a variety of volunteer times. And so, 
we try to be flexible for those individuals to come in and 
help.
    We are also blessed with major corporations that have 
volunteerism as a part of their mission, and so, a lot of our 
locations that we operate out of have a fantastic relationship 
with the corporations that also provide the volunteer base to 
the food bank. That is probably our main driving force that 
allows us to operate efficiently.
    The next level then would be the donated food. Our 
partnerships with food manufacturers, food distributors, 
grocery chains, et cetera, we are incredibly thankful and 
blessed to be able to have that donated food that we take and 
we rescue and we bring into the food bank and make sure that we 
have it reorganized and ready for our pantries.
    So, that is probably the two-pronged approach in terms of 
our model, and our focus on efficiency.
    Mr. Baird. Well, thank you for that.
    I want to move to Mr. McBrayer now. In your testimony you 
referenced the important role that convenience stores play in 
somewhat of a--like a missing middle for those further removed 
from larger grocers, which is really those that are living in 
food deserts. I commend the efforts your stores have undertaken 
to provide healthier options, and to be a resource for our 
communities and your communities in providing quality food.
    So, my question really comes, Mr. McBrayer, do you think 
that there is opportunity to leverage the National Network of 
Convenience Stores as a potential distribution net [inaudible]?
    Mr. McBrayer. Congressman, I missed a good portion of what 
you said. Would you mind repeating?
    The Chairman. Yes, that was a very good question, because 
that is sort of what we are looking for in this Committee, how 
we can solve this problem.
    Mr. McBrayer, did you hear it?
    Mr. McBrayer. I am going to take a stab. I heard about half 
of it.
    Mr. Thompson. Jim, you may want to turn off your camera to 
get good audio.
    Mr. Baird. Okay.
    The Chairman. Could you ask that again, Jim, your question?
    Mr. Baird. Now can you hear me?
    The Chairman. Yes, we can hear you.
    Mr. Baird. Okay. I just, Mr. McBrayer, you referenced in 
the importance of the convenience stores and that you serve 
maybe kind of a missing middle for those further removed from 
the larger groceries, and so that really ends up being the 
people we are talking about that end up in the food deserts. 
And so, I commend your efforts. And so, to get to my question, 
do you think there is an opportunity to leverage the National 
Network of Convenience Stores as a potential distribution 
network for helping deliver these high-quality foods, 
particularly to those food deserts? Did you get all that?
    Mr. McBrayer. Yes, I did. Thank you.
    Yes, our convenience stores--and I am speaking of RaceTrac 
and RaceWay, provide that last mile, which is a term of art 
these days, to meet people where there is need, whether it be 
at 4 o'clock in the afternoon or 4 o'clock in the morning.
    The convenience store industry is about 160,000 individual 
stores in this country. It is absolutely an important idea to 
talk with our trade organizations of which we are members of 
three, and say how might we do this and get participation in 
that discussion, because we are the last mile. People who shop 
at grocery stores--we are not the solution to the whole 
problem. We are the point at which people can interface quickly 
and with dignity and obtain food to take home and eat. We can 
also provide more, as we talk about how we might be willing and 
able to do that under some type of Congressional approach.
    I would like to say that the SNAP Program, as we see it, is 
functioning very, very well. It is not complete, but there are 
opportunities, going forward, and we would avail ourselves of 
that.
    Mr. Baird. So, thank you. I can't see the clock on how much 
time I might have left, but if there are any other witnesses 
that would like to testify, feel free to do so, if I am not 
over my time, Mr. Chairman.
    The Chairman. Yes, you are, but, you have really hit on a 
very good point, and it is the sort of thing that we are after 
in this hearing. And we can follow up on it, but if there are 
any other panelists that might want to elaborate on this----
    Mr. Baird. I yield back. I yield back.
    The Chairman. Did you hear me?
    Mr. Baird. Yes, yes.
    The Chairman. Oh, you yielded back, but let me just take it 
just a little bit further, because there may be, Mr. McBrayer, 
in response to his inquiry about setting up a distribution 
network. You see, people have to understand, convenience stores 
are the lifeline for rural areas. Many of them don't have 
Krogers or all the varieties that are in our urban centers. And 
so, I am very interested in us following up on that, and your 
question was a good one. And staff, you all write that down to 
see how we might--and Mr. McBrayer, your answer was right on 
target. And there may be a need that we in Congress can get 
some added resources to fill in the gaps here. But I would like 
to work with Mr. Baird.
    All right. I like that one, and we will follow up with it. 
Thank you for that.
    And now, I will recognize Mr. Bishop of Georgia for 5 
minutes.
    Mr. Bishop. Thank you very much, Mr. Chairman, and our 
Ranking Member. Let me go back and be sure to welcome my good 
friends from Georgia who are witnesses, Mr. Waide, Mr. Hodel, 
Mr. Edenfield, and Mr. McBrayer, and of course, my friend of 
long standing, Mr. Zippy Duvall. I want to also send a special 
note of condolence to Mr. Edenfield on the passing of Mr. Moses 
White and his wife from COVID, who for years were strong 
advocate for grocery stores. We still grieve with you on the 
loss of Mr. Moses White.
    Let me get right to it. I can't see the clock, despite the 
increasing food insecurity among our active-duty military 
families during the pandemic, the service members basic 
allowance for housing, the BAH, is treated as income for 
determining SNAP eligibility, which results in military 
families experiencing food insecurity, and being determined 
ineligible for SNAP benefits. And Congress so far has been 
unsuccessful in addressing this gap, either in the farm bill or 
in the National Defense Authorization Act so, it has fallen to 
the food bank networks and other charitable organizations to 
perform the government's role in ensuring that America's 
military families don't go hungry.
    Today, the food pantries operate on or near every military 
base in the U.S., including Fort Benning in my district, and a 
Marine Corps Logistics Base in Albany.
    So, Mr. Waide and Mr. Hodel, can you talk about the work 
that your food banks and the other food banks in your area do 
to serve the military families, and can you characterize the 
need that you are seeing among this subpopulation?
    Let me just go ahead and ask my second question, which will 
be directed to Mr. Edenfield on rural grocery stores. Of 
course, the latest estimates suggest that 1.1 million rural 
households lack access to a vehicle, and they have low access 
to supermarkets or grocery stores. They live over a mile away, 
and some of the residents in my district like those in Crawford 
County and Talbot County, the nearest grocery store is over 15 
miles away. Mr. Edenfield, you can think about what can we do 
to make it easier for small, rural counties to attract 
investment and support for bringing grocery stores to the area?
    Other residents that live in my district like in Columbus 
or Albany, which are considered urban areas, they still are 
almost \1/2\ hour from the nearest full-service grocery store. 
Some of them are hosting pop-up grocery stores in trucks, but 
this isn't a really sustainable solution for rural or urban 
food deserts. What can we do to increase the number of 
supermarkets in our rural and in our minority communities in 
the urban food districts?
    If Mr. Hodel and Mr. Waide will go first and save some time 
for Mr. Edenfield, I would appreciate it.
    Mr. Hodel. Go ahead, Mr. Waide, and then I will follow.
    Mr. Waide. Great. I appreciate the question, Congressman, 
and I think at our food bank, we certainly see a 
disproportionate number of veterans accessing services 
throughout our pantry network. We work with a variety of 
community-based partners that in particular serve veteran 
populations. We know that other food banks around the state, as 
you mentioned, operate food pantries and food distributions 
actually on site at bases located across the state. And we know 
that this population faces unique challenges that we have to be 
prepared to face.
    For us at food banks, we are serving veterans in the way we 
serve everybody, which is let's get them access to food. We 
think we need to be creative as a country, as a network of food 
banks to develop solutions to meet veterans where they are and 
get them the access that they deserve.
    Mr. Hodel. Yes, I will add in for Midwest Food Bank, a 
couple points of interest. Our human resource director is a 
Purple Heart veteran, and so we have a heart and an eye towards 
our veterans and we appreciate their service for our country. 
We also provide kind of a holistic opportunity where veteran 
families will come in and utilize our facility and they will 
have meetings around kind of reentering the workforce, and talk 
about emotional topics like post traumatic stress disorder. We 
allow that group to come in and operate their meetings out of 
our facility, and then also provide that physical food service 
to the veterans as well.
    Those are a couple of things that we are doing and focused 
on at Midwest Food Bank.
    Mr. Bishop. I am particularly interested in the active-duty 
military people who are usually low-grade, non-commissioned 
officers who have families, and of course, since the SNAP 
eligibility includes their BAH, they end up not being ruled 
eligible so they end up having to come to food banks.
    Mr. Hodel. Yes, no comment on that policy, but definitely a 
comment on our desire to serve them as they come to the food 
bank to make sure that they have the food that they need.
    Mr. Bishop. Thank you both.
    Mr. Edenfield, if I have any time--I can't see the clock.
    Mr. Edenfield. Yes. First, Congressman Bishop, I want to 
thank you for the condolences of Moses and Joyce. We miss them 
dearly.
    Now, on the rural grocery stores, that is a challenge and 
it is hard to answer, because in the last 40, 50 years so much 
of that is strictly farming, where at one time, as I mentioned 
earlier, there was some small manufacturing works, garment 
factories and something like that to help support those 
communities. And now, there pretty well is farmers and farming 
and the farm laborers. It is a numbers thing and it just takes 
so much to be able to--even the small grocery store. It is 
still going to be, unless something else can move into these 
areas, or if there could be just a little more population, it 
is going to be hard sometimes to get. And 15 to 20 miles is a 
long ways to go.
    I can understand that, but unfortunately, I don't know that 
there is a quick and easy answer to it.
    Mr. Bishop. You also have the issue in urban areas.
    The Chairman. Time.
    Mr. Bishop. Has my time expired?
    The Chairman. Yes, it is a little over 2 minutes, my friend 
from Albany. I didn't want to interrupt that line of questions 
because, combined with what you are bringing up and what Mr. 
Baird was talking about gets to the whole meat of why we have 
held this hearing. We have to find creative ways to end this 
hunger. And that starts with where people go to get the food. 
Our food banks, our convenience stores, our grocery stores. And 
we have to develop the mechanism and infrastructure where they 
are.
    Let me get to some other Members, and we will come back to 
that point. Let's see. Mr. LaMalfa from California, you are 
recognized for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. I appreciate the 
time, and the kind way you conduct the Committee here.
    Well, at the risk of maybe some redundancy since we have 
been running back and forth between votes and who knows who has 
asked what, I just have a couple thoughts here on how we are 
doing things and how we can be more successful.
    I was particularly interested, again, in furthering the 
thought on the Farmers to Families Food Box Program, which 
seemed to have pretty good success and very much so delivering 
quality, fresh food that hadn't quite been as available in the 
past, and it is, of course, domestically grown food. Can we 
touch on that a little bit more, Mr. Hodel, on how that has 
benefitted the food bank's ability to deliver a good quantity 
and good quality of food to those in need?
    Mr. Hodel. Thank you for the question.
    We typically run with 4 to 5 weeks of supply, as we try to 
look out and be prepared for our agencies, and we were running 
at that level last January, February. And then the pandemic 
hit, so we continued to be strong in our procurement. We 
continued to lean into purchase of items to make sure that we 
had our shelves stocked. But we saw our weeks of supplies dip 
to 3.2 weeks of supply in April, and 2.6 weeks of supply in 
May. And a conversation that I had with some other CEOs of food 
banks, they were seeing the exact same scenario unfold.
    For us, the Farmers to Families Food Box was a huge boost. 
In June we returned--as that program became aligned, we 
returned back to 4 weeks of supply. We could see very much in 
our metrics what that value influx of food did in terms of 
being able to supply to our agencies, and then let alone the 
nutritional benefits. It has been talked about and commended 
very well, the milk, the fresh produce, the meat and the 
protein, the cheese, the dairy products, just tremendously well 
received. Which again helps with that nutritional cycle 
improvement for those that are in need.
    Again, very appreciative and the feedback we got all the 
way through our agencies and our clients was extremely positive 
and thankful and grateful for the Farmers to Families Food Box.
    Mr. LaMalfa. Mr. Hodel, I am not trying to put words in 
your mouth, but how would you compare the quality of what was 
coming in the food boxes versus the delivery of the freshest or 
the highest quality food in past practice? Did this improve 
that quality, as well as the quantity? You were talking about 
getting back up to that timeline of a longer period of supply 
on hand.
    Mr. Hodel. Correct. I mean, when we look at our metrics in 
terms of the percent of nutritional value of food that we 
distributed, we saw almost a double digit increase with the 
addition of that. The quality of the food--we are blessed with 
some good relationships with some retailers and some producers 
that we have a pipeline to fresh yogurt, to fresh strawberries, 
so we do feel like we get good quality food that comes into our 
coolers and goes out to our agencies. Quality to quality, it is 
very equivalent, but just in terms of the overall net benefit 
of the nutritional volume of food that went out of our 
facilities was almost a ten percent increase, which we were 
very thankful for.
    Mr. LaMalfa. Let me talk about food waste here a little 
bit. That is really--sticks in my craw--as well. One of my 
colleagues talked a while ago about the number being about 30 
percent of food that just flat goes to waste, and do you find 
with the food banks that maybe some jurisdictions have health 
department regulations that aren't really realistic as far as 
how food quality might still be, even though there might be an 
expiration date or a use-by date? Talk about that a little bit, 
please. I mean, more food that can actually be reaching people 
that is arbitrarily--maybe in my view--deemed as not quite 
good.
    Mr. Hodel. Yes, great question. The Good Samaritans Act 
allows us to be able to take those post-dated items and to give 
those out, which again, we are thankful for the foresight of 
our forefathers to putting that in place. But we do have a--
kind of a food distribution challenge to be able to identity 
and rescue and connect where that extra or excess food is, and 
so that is a logistical challenge that our procurement team 
works through to try to make sure that we are connecting where 
there is opportunity and where that waste is occurring, to make 
sure that we are salvaging that and bringing it into the food 
bank network.
    And so, at times on the business side I would say there is 
some hesitancy at times to maybe form that partnership with a 
food bank for fear of the risk that it maybe imposes on them as 
a business. Policies around kind of reducing that risk for a 
business would be helpful and would be an additional pipeline 
of opportunity for food that the food bank network could 
leverage.
    Mr. LaMalfa. Thank you.
    Mr. Chairman, would you mind yielding me another 30 seconds 
so I could ask Mr. Duvall something?
    The Chairman. I yield the gentleman an additional 30 
seconds.
    Mr. LaMalfa. Thank you, sir.
    Mr. Duvall, I wanted to touch on with the issues we are 
facing with food supply and such, how important is it as a 
representative of farmers in America that we have a 
domestically grown food supply versus reliant upon imported 
food, and the challenges that farmers are facing in America in 
20 seconds?
    Mr. Duvall. Yes, my 20 seconds is food security is national 
security, and it is absolutely essential that we as a country 
be able to feed ourselves. For example, when we had energy 
insecurity and we would depend on other countries for energy, 
we surely don't want to go there with our food. It is vitally 
important we continue to do that.
    Mr. LaMalfa. Thank you, sir. Thank you, Mr. Chairman. I 
yield back.
    The Chairman. All I can say to that, my good friend, Zippy 
Duvall, is amen. That is why we are having this hearing, 
because if we don't do something about these food shortages, 
then you truly have a national security issue when we have to 
depend upon other nations to feed the most powerful nation in 
the world. I assure you, we will no longer be the most powerful 
nation.
    And I can't thank the Committee enough. I mean, you all are 
asking some great questions. Our panelists are giving some 
great help here as our experts.
    And now, let me continue with Mrs. Axne from Iowa. Is she 
on?
    Mrs. Axne. Thank you, Mr. Chairman. It is so good to be 
here, and thanks to all the witnesses for sharing the work that 
your organizations have done during this time of need.
    We have 42 million Americans, including 13 million 
children, who are estimated to experience food insecurity this 
year. We all know on this Committee that this needs to be 
discussed, and I really appreciate everyone for being here, and 
for our Chairman in making this a priority.
    As you just mentioned, Zippy, it is a shame that we have 
food insecurity in this country at all, but the effects of the 
pandemic have only worsened the situation. In Iowa, we saw an 
increase of 50 percent in food insecurity, with over 450,000 of 
our friends and neighbors struggling to get the food they need. 
But we know this is an issue in every community, rural and 
urban. But as Mr. Waide noted in his testimony, rural 
communities have experienced higher levels of hunger before the 
pandemic, and the pandemic has only exacerbated those issues. 
In fact, Feeding America's latest reports estimates that over 
14.4 percent of rural Americans were food-insecure last year, 
and that is six million individuals in rural communities who 
lack the food they need.
    I am also very concerned about the availability of fresh 
and healthy food options for these communities. For example, 
when I am traveling across my district, 16 counties, it is 
majority rural, and I stop at a convenience store, often the 
only fresh item is truly a yellowing and bruised banana that is 
sitting on the counter. In fact, these convenience stores are 
often the easiest place and the most accessible place for folks 
to shop in between trips to the grocery store, which could be 
quite a distance away. We have to make sure that all of our 
communities have access to fresh, healthy foods in a convenient 
and affordable manner. And I am sure that is something we all 
support here on the Committee. I am so glad, Mr. McBrayer, to 
hear about the priority your business has placed on expanding 
those offerings to your customers.
    My first question, Mr. Waide, you noted in your testimony 
that smaller and more rural parts of the country have not had 
equitable access to CFAP products. Can you expand on that, and 
what would be your suggestions to fix this?
    Mr. Waide. Well, thank you for the question.
    The issue is that the way in which we are distributing the 
CFAP products is relying upon the relationships that the 
distributors that are awarded the contracts have in 
communities, and the incentives for those distributors is to 
move the product, generally as quickly as they can so they can 
complete the contract. They don't always have relationships in 
every part of the country, especially in those parts that have 
fewer resources and higher rates of food insecurity and lower 
access to the kind of products that you are talking about.
    The solution is that we are utilizing networks similar to 
the Feeding America network, where we have real relationships 
on the ground in every county in the United States. And so, 
listening to local stakeholders, utilizing those organizations 
that already have expertise in handling this product that 
already know how to get product to even the more difficult to 
reach areas, needs to be a part of the accountability that we 
put around the program. Right now, there is not as much 
accountability around the CFAP Program around how product is 
distributed equitably as there is around the TEFAP program, and 
so, we would use that as a model for how you put some of those 
accountability measures in place and leverage the expertise of 
organizations that know what they are doing in this space.
    Mrs. Axne. Well, thank you for that answer, and that is 
going to give us another opportunity to look at fixing that 
problem. I really appreciate that. That is a common-sense 
solution that we should be able to get behind. So, thank you 
for that.
    I have heard from food banks in my state that the demand 
for mobile food bank setups have doubled this last year, mostly 
in rural communities. Can you inform us on the Committee about 
the successes and challenges that those rural food banks are 
having in meeting their community's needs?
    Mr. Waide. Sure. The mobile distributions have been 
extremely important to our ability to reach all aspects of our 
community, particularly given the social distancing that is 
required to operate safely. And it allows us to move a lot of 
food very quickly. The challenge around those operations, just 
going forward, you have to be there when the people are there, 
and so, it is not as well developed an infrastructure as you 
have maybe in some more densely populated areas where people 
can go to standing pantries at hours that are more convenient 
to them.
    Part of the solution that we are trying to develop is how 
do we make those mobile distributions more accessible at more 
times, more frequently in communities that are more remote, and 
food banks around the country are developing solutions around 
that.
    Mrs. Axne. Thank you so much. I know we are out of time, 
but that is why I am so proud to support the American Rescue 
Plan, because SNAP also plays a big part of this, and I know 
the food banks are a great part, but we need the support from 
SNAP, and this is going to help us get to those needs.
    Thank you so much. I yield back.
    The Chairman. Thank you, Mrs. Axne, and now I will 
recognize my good friend, Bobby Rush, from Illinois. You are 
now recognized for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman, and I want to 
welcome all the witnesses today, and as I have indicated once 
before on this Committee, I am the grandson and son of two 
Georgia farmers. I was raised, born on a farm in Sylvester, 
Georgia, southwest Georgia, and spent my early years on a farm. 
Mr. Chairman, I would also like to say in the late 1960s, early 
1970s, I was part of an organization that created in this 
nation the first network of free feeding programs named 
Breakfast for Children Program. And I am so delighted to be a 
part of this very important hearing today.
    My question goes to Mr. Edenfield. Mr. Edenfield, in your 
testimony, you encourage, and I quote, ``this Committee to 
consider a P-EBT model for summer feeding programs as well.'' 
Can you please discuss how this particular modeling of the P-
EBT benefits for summer programs could ensure that kids do not 
go hungry?
    Mr. Edenfield. Yes, sir, thank you.
    This is something I see as very important because each 
summer, as a matter of fact, I tell my team we try to structure 
a lot of our ads, a lot of what we are doing, when we realize 
the kids are out of school, they are not going to be getting 
that lunch program. We take bread, we take some lunchmeat, some 
fruits, how to have a healthy lunch that is there, and try to 
have as equal amount of food as possible [inaudible]. And I 
thought for many years now that this is--now sometimes there 
are other programs, but there is not really a family program 
where you stay at your house and you have those extra benefits 
that comes here in the summertime. I think that is something 
that is very important to look at.
    Mr. Rush. Yes, but let me ask you another question, Mr. 
Edenfield, or any of the other witnesses. As a part of the 
distribution system for food and to address the food 
insecurities that far too many Americans are facing, is there a 
role for cooperative food stores and cooperative--at one time 
in American history, a cooperative helped play a key role. Is 
there any place, any space in the landscape for--our nation 
today for cooperatively owned food distribution sources?
    Mr. Edenfield. That is a good question too, and if there 
is--and this would be--of course, this is an opinion--would be 
more so in the rural areas there right now. And they could 
not--I am not saying it wouldn't work in other areas, but there 
is such a shortage in some of the rural areas that that would--
when you talk about a cooperative there, so many people buying 
in and having ownership in that there that would help make that 
work. And so, it would seem like to just think about it, that 
would be the most logical place to start a plan like that.
    Mr. Rush. Thank you.
    Mr. Chairman, thank you so much, and I yield back.
    The Chairman. Thank you, Bobby.
    And now, I recognize Mr. Al Lawson from the great State of 
Florida, 5 minutes.
    Mr. Lawson. I thank you, Mr. Chairman, and I welcome 
everyone to the Committee. I know that there have been a lot of 
questions asked over the last 3 hours or so, but I have this 
question. I will give it to Mr. Waide. Florida 5th 
Congressional District is no stranger to food insecurity, and 
sadly, the COVID-19 pandemic has only made the situation for 
our families even worse. From Farm Share of north Florida, 
northeast Florida, to Second Harvest of Big Bend, food banks 
and their services have been essential in feeding Floridians. 
Can we talk about the unique way food banks like yours have 
been able to respond to the COVID-19 pandemic and how you think 
the Federal Government can better help you all on the other 
side of the pandemic?
    Mr. Waide. Well, thank you, Representative, and as we have 
been talking about this morning, the way that the food banks 
have been able to respond to this crisis is we have really 
dramatically grown our sourcing of food by buying more food, by 
working closely with our food donor partners, leveraging 
Federal commodities that have been provided through the various 
stimulus packages, and then really growing the number of mobile 
distributions that we provide, continuing to support the needs 
of our existing partners, and just working to expand our 
transportation capacity so that we have more food going more 
places more often to make it more accessible.
    The support we need, going forward, to continue to respond 
to elevated levels of need, which we think will be with us for 
some time, is certainly we need ongoing investment in TEFAP, in 
the Food Box Program, so that we continue to have the inventory 
we need to respond. If those programs are not sustained for the 
current levels, there is no way that we are going to be able to 
replace that volume of food using private sources. We need 
those programs to continue to be funded aggressively.
    We also think it is important to continue to sustain 
expanded SNAP benefits to reduce the burden on food banks, and 
we think, as some folks have been talking about, pandemic EBT 
is a program that is really important, particularly as we think 
about the impact on kids--families with children.
    Mr. Lawson. Okay, thank you very much.
    My second question, from veterans to college students, my 
district is the home of many of the most vulnerable population 
when it comes down to food insecurity. And as the COVID-19 
crisis highlighted how these special populations have often 
been forgotten in our social safety network. What 
recommendation would you all make to ensure our students--even 
though I know several universities in my district have food 
banks--veterans, and I have a lot of veterans in my district, 
especially in Duval, probably more veterans there than in any 
other place in the State of Florida. And all of them can be 
served by programs such as SNAP and The Emergency Food 
Assistance Program.
    Mr. Waide. It is critically important--our food bank 
believes it is critically important that as we think about the 
populations you described, we just make food as accessible as 
possible. And the easiest way, the most efficient way to do 
that is through expanded benefits in the SNAP Program. That is 
a program that is widely accessible, it is really efficient, it 
works. And it is the easiest way to get food to people who need 
it, using our existing world-class infrastructure of grocery 
retailers that are available all across the country.
    Mr. Lawson. Okay, thank you very much. That is a great 
answer, and I look forward to working with you.
    Mr. Chairman, with that, I yield back.
    The Chairman. All right. Now, may I ask, is Mr. Panetta 
back?
    Mr. Panetta. Yes, Mr. Chairman, I am here.
    The Chairman. Very good, very good. We will now go to you, 
Mr. Panetta, and you are now recognized for 5 minutes.
    Mr. Panetta. Outstanding. Thank you, Mr. Chairman, and 
thanks to all the witnesses for your preparation for being here 
for now going on 4 hours. I appreciate your patience with this. 
I am the last questioner, but I will make it quick even if I am 
not.
    Look, I just wanted to obviously thank the Chairman for 
holding this type of hearing that really, with the diversity of 
all of the witness' experiences, shines an excellent light on 
the issues with hunger, not only during COVID, but when we are 
not in COVID as well. As many of you know, I come from the 
Central Coast of California, and as Zippy Duvall knows well, 
they call it the Salad Bowl of the World. We are surrounded by 
fresh fruits and vegetables, but sometimes the people that 
harvest those fresh fruits and vegetables don't have access to 
the food that they are working around all day, unfortunately. 
And that is why these types of programs that we are talking 
about are very, very important, especially during COVID-19. 
Every week that I am in the district, I get out to a food bank, 
and as you can imagine, I have seen those lines only get 
longer, unfortunately, over this past year.
    But, as it was said in a hearing we had last term, food 
banks, as important as they are, we cannot food bank our way 
out of this. And so, clearly, that is why SNAP is so important 
in this crisis, and it is also a situation which is being 
remedied or addressed at least with the American Rescue Plan, 
considering the 15 percent increase in SNAP funding. Which I 
believe, and I am sure some of you believe, will be very 
beneficial and instrumental in dealing with our hunger issues.
    Mr. Waide, I know you have been answering a lot of 
questions today, but I have one final one for you. You 
mentioned that increasing the SNAP benefits by ten percent is 
equivalent to doubling access to all of the food provided 
through our nation's food banks. What would the cost to 
charities and nonprofits be to fill in the gaps if SNAP 
benefits were reduced?
    Mr. Waide. Well, if SNAP benefits were reduced, again if we 
reduce the SNAP benefits by ten percent, we would have to 
double our network. And so, we are already distributing 65 
percent more food today than we were prior to the pandemic at 
my food bank. We are spending more than 50 percent more than we 
were in our expenses to do that. And so, we would have to go 
and find the resources to double that again just to make up the 
difference of a ten percent cut to SNAP.
    Obviously, that would not be achievable for any length of 
time, and that means that American families, kids, seniors 
would go hungry.
    Mr. Panetta. Understood, understood.
    Mr. Edenfield, if I may, can you talk about how the 
important role of SNAP--I want to hit on kind of in normal 
times--and as an income support for low-income workers in 
better times, what have you observed? Is it efficient? Are 
people using SNAP to buy the right kinds of food for their 
families?
    Mr. Edenfield. We find it to be very efficient. We find 
that if you take--and we have some stores that have a heavier 
concentration of SNAP customers than other stores. And where it 
is a heavy concentration, there is definitely more of the home-
cooked type meals, from scratch type meals, whether it is your 
rice or your flour or your milk, so many different things, and 
then so there is much more cooking going on, and this also 
stretches the dollar a little bit more. And so, I find it to be 
very efficient and very effective.
    Mr. Panetta. Great, great.
    President Duvall, let me just kind of pivot over to you. 
Obviously, farmers in my district did a pretty good job in 
donating food throughout the COVID-19 pandemic; but, can you go 
into some of the obstacles that farmers faced in trying to 
donate food during the pandemic?
    Mr. Duvall. Well, it is just the awareness or where they go 
with it. That is the biggest obstacle, and when they get there, 
are they going to accept it? I think the coordination is the 
biggest obstacle.
    Mr. Panetta. Fair enough. I appreciate that.
    Once again, thank you, everybody, and thank you for your 
service to those who need it the most. I appreciate that.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much.
    Ladies and gentlemen, this has been an historic and very 
impactful hearing on a very historic issue. We have not had 
this amount of hunger and food insecurity certainly in our 
lifetime here. And it is our responsibility as the House 
Agriculture Committee to be bold and to understand this is our 
challenge here. And I want everyone to know that I have had 
some discussions with both the Speaker as well as President 
Biden in the Oval Office when I was there, particularly dealing 
with how we are able to make sure we have adequate food supply 
in two of the most pressing areas: in our rural communities, 
which don't have the grocery store. And I am so pleased when I 
heard Congressman's--Mr. Baird's comments and the reply from 
our convenience store CEO, Mr. McBrayer, on how we can come 
together.
    And so, I want everyone to know how this entire Federal 
Government is aware of this issue, and they are looking to us 
in the House Agriculture Committee, as well as the Senate 
Agriculture Committee, to come up with solutions.
    So, I can't thank our Committee Members enough for all that 
you all have done, and I do want to say a word to Mr. Edenfield 
about my good friend, Moses White. Please make sure you give 
our warmest regards to Moses White's family. Moses White and I 
went to FAMU, Florida A&M together, and he passed recently, but 
he was a champion for getting out there and making sure that 
folks did not go hungry. Mr. Edenfield, your stores have been 
certainly leaders in that.
    At this time, before I give my closing remarks, I would 
like to recognize our distinguished Ranking Member for his 
closing remarks and any other information you would like to 
share.
    Mr. Thompson. Sure, and my 5 minutes of questioning. I 
deferred to the end here----
    The Chairman. Yes, please.
    Mr. Thompson.--because I knew that--I mean, it kind of 
creates some hardship when we have these hearings on going home 
day, because folks are depending on airlines, and there are 
fewer and fewer choices. I wanted to make sure all of our 
Members on both sides of the aisle had the best opportunity to 
speak.
    And so, let me do my questioning first. Mr. Chairman, first 
let me say I am grateful that President Biden and Speaker 
Pelosi have finally caught up to where the Agriculture 
Committee has been in a bipartisan way for years. I welcome 
them to this. We have been the leader on this, and it is great 
that they maybe have had an awakening on just how important our 
work is here that we have always done, the 2014 Farm Bill, the 
2018 Farm Bill.
    My question, first of all, thank you to all of the 
witnesses. Nutrition assistance requires collaboration between 
governments, nonprofits, communities, individuals, churches, my 
home community Alliance Club, other service organizations, 
volunteers. It just--it is amazing how many people come to the 
table, and it is those partnerships, public-private 
partnerships and efficient interactions between Federal, state, 
and local agencies, and quite frankly, the nonprofits, the 
churches, everyone that is involved.
    So, let me start with Mr. Hodel. How do your collaborative 
efforts improve service delivery, and are there areas for 
improvement to ensure that recipients' needs are met?
    Mr. Hodel. Yes, thank you for the question.
    At the Midwest Food Bank, we believe we do have the 
capacity and efficiency model to serve our communities quickly 
and fairly. And, this last year has taught us doing more of the 
same is maybe not prudent, but also stopping and fixing is 
certainly not an option. Experimenting, disrupting, and trying 
new efficient channels to market that are innovative I think 
are our solution. It has been talked about today that there is 
a multi-prong approach to help fight and solve this food 
insecurity, and so the initiative and continued refinement of 
the Farmers to Families Food Boxes is a great example of an 
additional pipeline. How do you provide that pipeline to the 
farmers? How do you make it incentivized for the farmers to be 
able to sell and receive fair value for their products? And 
even what type of reward is there for food rescue? And, those 
are the kinds of questions that can be tackled, and I am 
willing to be a part of that conversation, but also there has 
been some great progress in this last year, and we are 
appreciative of that.
    Mr. Thompson. Thank you. Thank you for that.
    Mr. Waide, your thoughts on how--with your operation, how 
do collaborative efforts improve your service delivery, and are 
there areas for improvement that we should be looking at?
    Mr. Waide. Well, our entire model is based on 
collaboration. My food bank has 170 employees. We are trying to 
feed close to a million people, and we can't do that without an 
extraordinary number of partners and volunteers and donors, who 
all get engaged in the effort to fight hunger.
    In terms of improving the way that we operate, certainly 
our food bank is looking at ways that we can operate better, 
and the lessons learned from the pandemic are that we have to 
move faster, we have to be bigger, we got to get closer to 
where people are. We are going to need help from government to 
do some of that work. We certainly need help with food 
inventory. We need help in terms of sustaining access to SNAP. 
But we also need great investment and collaboration in the 
private-sector, and we are leveraging expertise from world-
class logistics companies here in Atlanta to help us think 
about how we improve. We are leveraging expertise at community-
based churches to understand how we can serve people with 
greater compassion, and we are going to put all that together 
to do even more to serve our food-insecure neighbors who need 
our help now more than they ever have.
    Mr. Thompson. Mr. Waide, thank you for that.
    President Duvall, Zippy, the first thing is just an 
observation that perhaps you think about. I know I am thinking 
about it with, from ag, with resources for ag economists. Just 
as kind of a follow-up to Mr. Allen's questioning, with the 
amount of spending that we are seeing, and obviously when there 
is a crisis, I appreciate, quite frankly, the roughly nine 
percent of the bill that is going to the President's desk here 
tomorrow of $1.9 trillion. I think that is really important and 
helpful. I have concerns over the 91 percent, but what I would 
like us to look at, it would be helpful for all of our ag 
economists to take a look at the impact, we can go back in 
history to see this--the question will be, what was the impact 
on food affordability? Because affordability and access speaks 
to having proper nutrition, and with higher inflation--our 
inflation has eked up. I hope it doesn't go any further, but I 
am afraid with the amount of--the massive spending it might. 
That is not really looking for a response, Zippy, but something 
I know I want to work with ag economists to look at--and you 
have some great ones at the American Farm Bureau Federation.
    My question for you actually has to do with the--it was 
suggested by one of our witnesses today that the Farmers to 
Families Food Box Program funds were not efficiently used. Now, 
your testimony suggests there may be a place for a program like 
it moving forward. I wanted to give you an opportunity to talk 
more about that, and what that balance might look like moving 
forward.
    Mr. Duvall. Well, what we got to look at is our farmers 
always answer the call. If there is a new program out there 
that is put forward to help feed people that need it so badly, 
our farmers will adjust their marketing schemes, they will 
adjust their production, they will adjust their processing in a 
way to do that. And we just have to remove all the barriers 
that they have to go through to get there, and be creative in 
what those programs look like.
    Mr. Thompson. Very good. Well, let me just pivot into my 
closing remarks. Mr. Chairman, I promise it will be brief. They 
are all thank yous.
    Thank you for this hearing, first of all. Zippy, thank you 
to you and our American Farm Bureau, all of our state and 
county Farm Bureaus. Quite frankly, nutrition starts with our 
producers. Two simple truths: farmers feed and nutrition 
matters. And so, thank you for that. Thank you to Mr. Edenfield 
and Mr. McBrayer, I want to thank you and your team members 
that work for you. They have been working as life essential 
employees when other folks have been sheltering at home or 
telecommuting. They have been working in settings that probably 
have had more interactions with the public in a pandemic than 
any setting that I can think of. The stories that we hear, the 
large gatherings and these grocery stores, convenience stores, 
on behalf of everyone on the Agriculture Committee, our 
appreciation to you and your teams. And thank you for carrying 
those fresh foods. Those are incredibly important. That is what 
makes the Farmers to Families Food Box so important. It really 
is concentrated with fresh foods, it is good for families, good 
for health, and good for agriculture.
    And finally, thank you to Mr. Hodel and Mr. Waide for the 
work of your food banks, and all those that work so hard to 
make them successful.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Thank you very much, and I concur with you. 
You and I were exchanging glances as we were hearing the 
expertise from our participants, and from the excellent 
questions and exchanges from our Members. And I hope that those 
who have been across the country who have been watching this 
hearing, you will go away with it knowing that we are very 
serious about making sure we solve this hunger crisis that we 
are in.
    I want to just have a few closing comments so people will 
know where we are going to go from this point so that everyone 
should know, this doesn't end. This is the beginning of our 
approach to deal with hunger in our nation.
    And so, I want to start with Mr. Kyle Waide. Mr. Waide, if 
you recall, you and I had a conversation a few months ago as we 
were doing one of our COVID-19 testing drive-thrus and food 
distribution. And at that point, I mentioned to you that we 
were going to have a hearing, but I also recall that you 
brought to my attention that there might be a need for some 
language change within something that we could do here in 
Congress, and I am wondering, I certainly put you in touch with 
the staff, and I wanted to make sure we had responded to that. 
I think you may remember. Do you remember that conversation we 
had, Mr. Waide?
    Mr. Waide. Well, we are in touch with your staff, Mr. 
Chairman, and are in good dialogue around that.
    The Chairman. Okay. You know what I am talking about? Do 
you remember that? It had to do with some aspect of making sure 
that you were getting the kind of smooth transition with some 
phase of your activities with us here in Federal Government. If 
not, we can proceed and pursue that, and I just can't remember 
exactly what it was on, but my mind was back there.
    But I want to thank you, Kyle, for that, and I am asking 
that you continue to work with our staff, because I want to try 
to find some ways that we can help here in Congress the food 
banks. You are a very important part. All you have to do is 
watch the TV news and see the lines of cars and trucks and 
vehicles, some miles long, some in the car since 4 o'clock in 
the morning, coming to our food banks. You are their lifeline.
    And so, it is very important for us to know how much more 
we can help you, and help our food banks.
    And Mr. Edenfield, with Wayfield, I know the history there. 
You and I have been partners for a long time in Georgia, and 
especially working with my good friend, Moses White, and our 
relationship there. And I just wanted to also let you know that 
we want you to work with our staff and our Committee. The 
reason we have these hearings, folks, is to bring in the 
expertise, get the information, and then we in the Committee 
parcel out much of this to our Subcommittees, and it may be 
certain pieces of legislation that we need to introduce, and it 
may be appropriations of funds that come from these hearings. 
We look forward to continuing that relationship.
    And Mr. McBrayer, obviously you know I am coming to you 
because of the great interplay you had with Congressman Baird, 
and that is something that really has perked the interest of 
our Committee because Mr. Bishop even came in to that. You can 
see the enthusiasm within our Committee to reach out to you. 
You are the ones out there that are in the point of the battle. 
They come to you. They come to the grocery stores. They come to 
Wayfield. They come to Kroger. They come to your convenience 
stores to get the food. But we have a problem of the rural-
urban divide, and those fault lines are getting larger and 
larger, and none larger than our food. And so, I am very 
interested, Mr. McBrayer, and you see the Members of the 
Committee are, about seeing how we can enhance that and utilize 
and develop it. It would be wonderful, like Mr. Edenfield said, 
if we could get grocery stores popping up in the rural areas. 
But it is all business, and they are going to go where they 
have the largest market. But those convenience stores are 
there. I know. I grew up in Aynor, South Carolina, and if it 
weren't for the convenience store, the furthest grocery store 
was down the road in Conway. And if you wanted to go to a big 
one, it is up in Florence or down to Myrtle Beach. But there 
was a convenience store in Aynor that provided our food. So, 
that is the case throughout.
    I am overwhelmed with this hearing, with the amount of 
information that you all have given.
    Zippy, what can I say about you, my friend? You are always 
there and you bring in such valuable information. And Mr. Eric 
Hodel with the Midwest Food Bank, your comments and your 
participation were great.
    And so, I come to the end of this hearing, but believe you 
me, this is the beginning of our work to make sure that we will 
not have this hunger crisis much longer. I commit this 
Committee to doing that. Our staff is committed. I just want 
you all to stay in touch with us, and we will come out with 
that.
    And I might mention also, what we want to do, we wanted to 
get a series of these hearings in and bring in--and so we would 
know what to do. The next hearing, as you know, will be on the 
status of the Black farmers, and we will have that on the 25th. 
That is 2 weeks away, and then the rural development, as I 
said, Ranking Member, you and I said we would work together on 
rural development, and that hearing is scheduled for right 
after the Black farmers hearing, so we can get that. And then, 
for those of you who might know, our staff then goes to work, 
pulls the subcommittee hearings together with all our 
subcommittees so we can parcel out the work ahead, and each 
Member and each subcommittee will have their responsibilities.
    So, with that, I turn to my wonderful staff. Is there 
anything else we need to mention before I close out? We are 
good, except one thing, to say thank you to our wonderful staff 
who has done a good job, and you are part of the staff as well. 
We have two staffs. Congressman Thompson has a staff, I have a 
staff, and don't they work together well?
    Mr. Thompson. They did a great job.
    The Chairman. So, let's give them a hand. We see the 
Chairman and Ranking Member giving them a hand.
    Thank you all. It has been wonderful. God bless all of you. 
Thank you. This meeting is adjourned.
    [Whereupon, at 1:10 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Letters by Hon. David Scott, a Representative in Congress 
                              from Georgia
                                Letter 1
 on behalf of deniz besik, p h.d., assistant professor of management, 
           robins school of business, university of richmond
    Chairman Scott and Ranking Member Thompson:

    I would like to thank you for holding this hearing on food 
security. I appreciate the opportunity to provide my thoughts on this 
important issue and potential solutions for the Committee to consider, 
including through operations research.
    My name is Deniz Besik. I am Assistant Professor of Management in 
the Robins School of Business at the University of Richmond. My 
research focuses on supply chains in the food industry, and I study 
perishable food supply chains, focusing on food quality and safety. I 
am also a proud member of the Institute for Operations Research and the 
Management Sciences, which is the world's largest international 
association for professionals in operations research, management 
science, data science, and analytics. These important tools are helping 
many sectors save lives, save money, and solve problems.
    Food is essential for sustaining life, and maintaining a healthy 
diet requires physical and economic access to nutritious, sufficient, 
and safe food. A food-insecure household cannot provide enough food for 
every person to maintain a healthy and active lifestyle. In contrast, 
the word ``hunger'' is defined as a consequence of food insecurity, 
referring to feelings of discomfort, sick, and uneasiness due to 
prolonged and involuntary lack of food, according to the United States 
Department of Agriculture (USDA).
    A year before the declaration of the global COVID-19 pandemic by 
the World Health Organization in March 2020, the USDA states that 10.5 
percent of U.S. households, this is about 13.7 million (one in nine 
people), experienced food insecurity in 2019. Beyond the short-term 
impacts of [COVID]-19, in the form of sickness and death, or its 
possible long-term impact on the wealth of nations, one of the very 
crucial issues still pending to be addressed is food insecurity in the 
United States.
    According to the Allianz Financial report, in 2020, a year defined 
by a global pandemic, the United States could rank the wealthiest in 
terms of its net financial assets in the world. Simultaneously, more 
than 42 million people (one in eight), including 13 million children 
(one in six), suffer from food insecurity and hunger in the same year, 
according to Feeding America. To be able to address the issue of hunger 
in the United States, the first step is to identify: who is food-
insecure, where do they live, and then we can suggest possible 
solutions.
    This past year has helped us to identify weaknesses within our food 
system or food supply chains. COVID-19 crisis elevated the already 
existing inequalities regarding healthcare and food insecurity status 
of vulnerable communities, including low-income people, children, older 
adults, and immigrants living in the United States. One category of 
high-risk groups who might suffer from complications of COVID-19 is 
those who have chronic illnesses such as hypertension, coronary heart 
disease (CHD), hepatitis, stroke, cancer, and asthma. According to a 
USDA report, chronic health conditions are associated with a low level 
of food security status among people living at or below 200 percent of 
the Federal poverty line (FPL). Additionally, according to a report by 
the Food Research and Action Center, in 2020, the food insecurity 
status among Black and Latinx Americans is shown to be 
disproportionately high, where one in five Black and Latinx adults with 
children reported that they experience food insecurity.
    Another contributing variable towards food insecurity is the issue 
of ``food deserts'' in the United States. The USDA defines ``food 
deserts'' as the situation where low-income communities lack stores 
that sell healthy and affordable food. Americans who live in food 
deserts, or ``nutritional wastelands'' in urban or rural settings, 
can't obtain healthy food to maintain a well-nourished diet, resulting 
in obesity and other diet-related illnesses. According to a USDA 
statement in 2017, which also includes a location finder for food 
deserts, about 13.5 million people have low access to healthful food 
sources. Another report by the USDA in 2015 also shows that 2.1 million 
households who lived in a food desert also needed a vehicle to access 
the nearest supermarket.
    At present, the food and agricultural industry is one of the 
largest sectors in the United States, accounting for approximately 20% 
of its economy, comprised of an estimated 2.1 million farms, 935,000 
restaurants, and with more than 200,000 registered food manufacturing, 
processing, and storage facilities, according to the United States 
Department of Homeland Security (2019). The Alliance of Food Chain 
Workers (2016) report states that there are over 21 million workers 
employed in the food industry, making up 14% of the United States' 
workforce. Moreover, the United States' agricultural sector shows 
steady growth, with consumer spending on food reaching over $1.6 
trillion annually (Plunkett Research (2011)). The food industry 
dynamics are very complex; the connection between various stakeholders 
is intertwined, and all the players work towards providing food to the 
consumer, starting from the farm and ending at the dinner tables of the 
consumers, while maximizing profits under tight competition. Creating 
and sustaining the connection between the farm and the consumer is 
called a food supply chain network.
    Food supply chains are very intricate local, regional or global 
networks, creating pathways from farms to consumers, encompassing 
production, processing, storage, and distribution. Food or agricultural 
supply chains are divided into two main types: perishable food supply 
chains and non-perishable food supply chains. (Besik and Nagurney, 
(2017), Nagurney, Besik, and Dong (2019)). Perishable foods include 
fresh produce in fruits and vegetables, dairy, meat, and fish. Fresh 
produce is seen as one of the most dynamic branches in the food sector, 
with an annual consumption value of 100 billion products. In the United 
States, the growth in demand, and the increased expectations of the 
consumers for year-round availability of fresh produce, has spurred 
food supply chains to evolve into more sophisticated systems involving 
overseas production in different countries, including Mexico, 
Argentina, Chile, and even Canada. Due to seasonality, most of the 
fresh produce sold in the grocery stores in the northeast of the United 
States is imported from other countries or grown domestically in a 
state such as California or Florida (Cook (2002)). It is reported that 
\2/3\ of the United States' vegetable imports come from Mexico, and 
most of the remainder arrives from Canada (Cook (2002)). Hence, the 
interactions between the demand and supply of food are no longer 
limited to a nation or a region but have grown into a more extensive 
cross-border operation, including complex relationships and long 
distances.
    There are many challenges related to food supply chain management, 
such as food quality and safety, or the impacts of trade policies 
(Nagurney, Besik, and Li (2019)). It is not very straight-forward to 
conceive a general rule of thumb for managing food supply chains. When 
a supply chain disruption such as the COVID-19 pandemic hit the United 
States, every stage and player in the food supply chains, including 
farms, processors, packers, distributors, retailers, and consumers, had 
been affected tremendously. When the nation went under partial lock-
down in most states, many people suffered from unemployment and started 
experiencing food insecurity for the first time in their lives. 
According to Feeding America, nearly 33.5 million people in America 
filed unemployment. At the same time, the demand at U.S. food banks 
increased by an average of 70 percent in 2020 from their values in the 
previous year. More shockingly, 40 percent of food bank demand 
originates from consumers that have never used food banks before.
    While American citizens were filing unemployment and the demand for 
food banks skyrocketing, grocery stores, representing the endpoints in 
food supply chains, experienced rises in food prices, especially those 
in the category under perishable. Demand shocks coupled with 
disruptions in supply chains affected meat, fish, dairy, and egg 
prices. COVID-19 outbreaks in certain U.S. meat processing facilities 
created a meat shortage in many supermarkets and caused the meat import 
prices to rise 16 percent in May 2020, according to World Economic 
Forum. Additionally, U.S. consumers experienced a 4.3 percent price 
increase for meats, poultry, fish, and eggs; whereas they paid 1.5 
percent more for fruits and vegetables, with an additional 2.9 percent 
for cereal and bakery products, contributing to a 2.6 percent overall 
price increase for groceries at the supermarkets in April 2020 
(Washington Post (2020)). Furthermore, as restaurants and schools were 
closed, consumers started to visit grocery stores more, forcing some 
producers to change their supply chain operations such as processing, 
packaging, and distribution to adapt to the supermarkets' requirements. 
As a result of this change in demand markets for producers, some 
farmers had to either accept lower prices for their produce or destroy 
their products. The contrast of seeing people forming long lines in 
front of food banks while farmers were destroying their produce 
demonstrates how fragile the food systems or food supply chains are.
    To gain resiliency in food supply chains and find some solutions to 
food insecurity and hunger in America, we need to start thinking about 
all the players in the food system, including the government, through 
providing food assistance programs such as SNAP. Federal food 
assistance programs such as the Supplemental Nutrition Assistance 
Program (SNAP), previously called Food Stamps, provide various benefits 
in alleviating the food insecurity or hunger levels of households, 
including the vulnerable communities. People who are registered for 
SNAP can buy food in all food stores. According to several studies, the 
SNAP program helped to reduce the level of food insecurity and hunger 
in the United States (Gundersen, Kreider, and Pepper (2017), Ratcliffe 
and McKernan (2010)). SNAP Program is a crucial defense mechanism for 
fighting against food insecurity and hunger in the United States. 
However, the research community could explore more on this subject by 
using operations research tools such as big data analysis combined with 
statistical tools to highlight the significance of the SNAP program in 
the United States. Combining information by the Federal and local 
governments with geographical data for food deserts provided in the 
USDA website could help operations researchers identify the communities 
in need and how much the SNAP can help eliminate food insecurity.
    Food banks are also another player in our food system, which can 
contribute to eliminating food insecurity and hunger in the United 
States. According to Feeding America, food banks across America 
distribute 4.3 billion meals each year. During the COVID-19 pandemic, 
many food-insecure households looked for a solution at food banks. 
While donations to local food banks were skyrocketing, the Farmers to 
Families Food Box Program was initiated by the government in 2020. As a 
part of the Farmers to Families Food Box program, USDA purchased $6 
billion worth of fresh produce, dairy, and meat products from producers 
in the U.S., which were sent to food banks through local and regional 
distributors, creating a new food supply chain from distributors to 
food banks. However, given the complexity of food supply chain 
management, especially in perishable food chains, food banks' 
operational characteristics could be limited. Few main issues related 
to food banks originate from a limited number of volunteers, lack of 
storage space, and possible logistical and quality problems due to the 
perishability of most fresh produce, dairy, and meat products. 
Providing efficient food supply chain management by considering the 
role of food banks as a new player in the game is still waiting to be 
explored by the research community. Using operations management tools 
such as mathematical programming and big data, the supply chain 
management between farms and food banks can be improved to reduce food 
insecurity and hunger in the U.S.
    Although some food assistance programs such as SNAP have a stricter 
eligibility criterion, including a citizenship requirement, they might 
have a better chance of delivering food more efficiently to those in 
need as they rely on supermarkets or retail food stores. Food supply 
chain operations can be maintained a lot more efficiently when the 
demand markets are retail stores since supermarkets have trained 
workers, better logistical operations in terms of distribution, better 
quality or safety standards, and more experience in conducting 
operations related to food supply chains.
    The importance of small farms and locally grown food will also 
continue to be important in our food system. The recent supply chain 
disruption caused by the [COVID]-19 pandemic showed us that relying 
solely on a centralized food supply chain could have dire consequences 
in terms of food shortages and price increases, resulting in an 
additional increase in the food insecurity levels of many households. 
More incentives for additional support for operational challenges could 
help small farms sell their products at various demand markets. Small 
farms usually experience logistical issues caused by the bottlenecks in 
their distribution and processing operations, which hinder their 
presence at supermarkets, retail outlets, and also farmers' markets. 
Operations research and operations management tools such as bottleneck 
analysis, capacity planning, or other devices, including optimization 
methods for minimizing a costly distribution, can help farmers to 
overcome the bottlenecks and logistical difficulties in their supply 
chains. Enhancing the availability of locally grown food with 
reasonable prices can create a more decentralized food supply chain, 
which could help the economy hedge against future food supply chain 
disruptions. Additionally, e-commerce is an excellent platform for 
farms selling their products; hence more opportunities can be provided 
for them to switch to e-commerce.
    Another crucial problem in our food system is the amount of food 
that is going to waste, while many households suffer from hunger and 
insecurity. USDA estimates the food waste in the United States as 
somewhere between 30-40 percent at the retail and consumer levels, 
approximately 133 billion pounds in volume and $161 billion worth of 
dollars. Some of the tools that could help reduce food waste could be 
Big Data, the Internet of Things (IoT), artificial intelligence, or 
smartphone Apps to help connect supply and demand points in food supply 
chains. By using networks of retail stores, large farms, packers, 
processors, or food banks can be used to match those who are food-
insecure. Such technological advancements could help to utilize 
resources along food supply chains in an optimal amount, which could 
help alleviate food waste and food insecurity in America.
    Apart from the points above, outreach programs should be conducted 
to make food-insecure households informed about the benefits of food 
assistance programs such as SNAP.
    Again, I appreciate the Committee's attention to identifying 
policies that can help reduce food insecurity in this country. I am 
always available to further discuss these issues, especially as they 
relate to securing our supply chains and leveraging operations research 
tools.

                              References 
 
 
 
    Allianz Global Wealth Report, September 2020. https://
 www.allianz.com/content/dam/onemarketing/azcom/Allianz_com/economic-
 research/publications/specials/en/2020/september/
 2020_09_23_AllianzWealthReport2020.pdf.
 Editor's note: items annotated with () are retained in Committee
 file.
    Besik, D., Nagurney, A., 2017. Quality in fresh produce supply
 chains with application to farmers' markets. Socio-Economic Planning
 Sciences, 60, 62-76.
    Cook, R. L., 2002. The U.S. fresh produce industry: An industry in
 transition. In: Postharvest Technology of Horticultural Crops, third
 edition, Kader, A.A. (Editor). University of California Agriculture &
 Natural Resources, Publication 3311, Oakland, CA, USA, 5-30.
    Feeding America, March 2021. https://www.feedingamerica.org/hunger-
 in-america.
    Feeding America, The Impact of the Coronavirus on Food Insecurity in
 2020. https://www.feedingamerica.org/sites/default/files/2020-10/
 Brief_Local%20Impact_10.2020_0.pdf.
    Food Research and Action Center, September 2020. COVID-19
 Dramatically Deepening America's Hunger Crisis, Report Finds.
 Available at: https://frac.org/news/frac-covid-report.
    Gundersen, C., Kreider B., Pepper, J. , 2018. Reconstructing the
 Supplemental Nutrition Assistance Program to More Effectively Alleviate
 Food Insecurity in the United States, RSF: The Russell Sage Foundation
 Journal of the Social Sciences, 4(2): 113-30.
    Nagurney, A., Besik, D., Dong, J., 2019. Tariffs and quotas in world
 trade: A unified variational inequality framework. European Journal of
 Operational Research, 275(1), 347-360.
    Nagurney, A., Besik, D., Li, D., 2019. Strict quotas or tariffs?
 Implications for product quality and consumer welfare in differentiated
 product supply chains. Transportation Research Part E: Logistics and
 Transportation Review, 129, 136-161.
    Plunkett Research, 2011. U.S. food industry overview. https://
 www.plunkettresearch.com/industries/food-beverage-grocery-market-
 research/.
    Ratcliffe, C.E., McKernan, M., 2011. How much does SNAP reduce food
 insecurity? American Journal of Agricultural Economics, Vol. 93 No. 4.
    United States Department of Agriculture (USDA), September 09, 2020.
 https://www.ers.usda.gov/topics/food-nutrition-assistance/food-security-
 in-the-us/definitions-of-food-security.aspx.
    United States Department of Agriculture (USDA), September 09, 2020.
 https://www.ers.usda.gov/topics/food-nutrition-assistance/food-security-
 in-the-us/key-statistics-graphics.aspx#foodsecure.
    United States Department of Homeland Security, 2019. A report on
 Food and Agriculture Sector. Available at: https://www.dhs.gov/cisa/
 food-and-agriculture-sector.
    The Washington Post, May 2020. April saw the sharpest increase in
 grocery store prices in nearly 50 years. Available at: https://
 www.washingtonpost.com/business/2020/05/12/april-saw-sharpest-increase-
 grocery-store-prices-nearly-50-years/.
 

                                Letter 2
           on behalf of biotechnology innovation organization
March 11, 2021

 
 
 
Hon. David Scott,                    Hon. Glenn Thompson,
Chairman,                            Ranking Minority Member,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chairman Scott, Ranking Member Thompson, and Members of the 
Committee:

    The Biotechnology Innovation Organization (BIO) is pleased to 
submit a statement for the record to the United States House of 
Representatives Committee on Agriculture hearing entitled, ``A Look at 
Food Insecurity in America.''
Introduction
    BIO \1\ represents 1,000 members in a biotech ecosystem with a 
central mission--to advance public policy that supports a wide range of 
companies and academic research centers that are working to apply 
biology and technology in the energy, agriculture, manufacturing, and 
health sectors to improve the lives of people and the health of the 
planet. BIO is committed to speaking up for the millions of families 
around the globe who depend upon our success. We will drive a 
revolution that aims to cure patients, protect our climate, and nourish 
humanity.
---------------------------------------------------------------------------
    \1\ https://www.bio.org/.
---------------------------------------------------------------------------
Existing Challenges of Food Insecurity
    The Committee's hearing examining food insecurity comes at a 
critical time. As we are all too aware, 1 year into dealing with the 
pandemic, COVID-19 has also exposed the vulnerabilities and 
inequalities in how communities are disproportionately impacted, our 
capacity to respond to crisis, our ability to maintain our supply 
chains, and to withstand an economic downturn.
    Unfortunately, the challenges of hunger and food insecurity predate 
COVID-19. According to Feeding America,\2\ before the coronavirus 
pandemic, more than 35 million people struggled with hunger in the 
United States, including more than ten million children. The 
coronavirus pandemic has left millions of families without stable 
employment. As result, more than 42 million people, including 13 
million children, may experience food insecurity.
---------------------------------------------------------------------------
    \2\ https://www.feedingamerica.org/hunger-in-america/facts.
---------------------------------------------------------------------------
    According to the United Nation's (UN) nearly 690 million people are 
hungry, or 8.9 percent of the world population--up by ten million 
people in 1 year and by nearly 60 million in 5 years.\3\ As a result, 
the world is not on track to achieve the UN's goal of Zero Hunger by 
2030 and profound changes are needed to nourish not just the 690 
million hungry people today, but the two billion additional people the 
world will have by 2050.\4\
---------------------------------------------------------------------------
    \3\ https://www.un.org/sustainabledevelopment/hunger/.
    \4\ Ibid.
---------------------------------------------------------------------------
Using Innovation to Tackle Hunger
    As part of BIO's BIOEquality Agenda,\5\ fostering enhanced 
nutritional opportunities is critical to promoting health equity. By 
broadening access to biotech advances that improve nutritional 
wellness, we can enhance overall community health.
---------------------------------------------------------------------------
    \5\ https://www.bio.org/bioequality-agenda.
---------------------------------------------------------------------------
    Developing and deploying new innovations in crop and animal 
production will be critical to feeding a growing world. As highlighted 
by the United Nations, biotechnology can contribute to combating global 
hunger and malnutrition. Approximately 140 million children in low-
income groups are deficient in Vitamin A. This situation has compounded 
into a public health challenge. The World Health Organization reports 
that an estimated 250,000 to 500,000 Vitamin A-deficient children 
become blind every year, half of them dying within 12 months of losing 
their sight. Golden Rice, a crop produced using the tools of 
biotechnology, contains three new genes that helps it to produce 
provitamin A.\6\ * Because of these benefits, 150 Nobel Laureates and 
13,270 scientists and citizens wrote in support of crops and foods 
improved through biotechnology.\7\
---------------------------------------------------------------------------
    \6\ https://unchronicle.un.org/article/biotechnology-solution-
hunger.

    * Editor's note: items annotated with () are retained in Committee 
file.
    \7\ https://www.supportprecisionagriculture.org/nobel-laureate-gmo-
letter_rjr.html.
---------------------------------------------------------------------------
    Gene editing can fast track genetic improvements in plants and 
animals to keep pace with a growing population \8\ and enable growers 
to produce higher yields with lower fertilizer, water, and nitrogen 
inputs.\9\ This technology can help us create more resilient crops able 
to withstand more variable weather events due to climate change by 
increasing plant tolerance to heat, floods, salinity, droughts and 
extreme cold.
---------------------------------------------------------------------------
    \8\ https://www.nytimes.com/2019/06/17/science/food-agriculture-
genetics.html.
    \9\ https://innovature.com/article/dr-kasia-glowacka-plants-may-
thrive-less-water..
---------------------------------------------------------------------------
    Gene editing can also boost the nutrient levels of fruits and 
vegetables. Increasing the vitamin and mineral contents of plants, 
particularly staple crops, such as, potatoes, corn, soybeans, and wheat 
can address hunger issues globally and, in the U.S., where large 
portions of the population do not meet their nutrient requirements.\10\
---------------------------------------------------------------------------
    \10\  https://innovature.com/article/dr-taylor-wallace-gene-
editing-could-mean-healthier-foods-and-healthier-planet.
---------------------------------------------------------------------------
    Incentivizing the utilization of biotech in specialty crops can 
also help address the lack of fresh fruits and vegetables in food 
deserts in urban and rural communities. Consumers are already enjoying 
non-browning features in apples and potatoes. Extending the shelf life 
of produce can increase the availability of fruits and vegetables.
    Additionally, it will cut down on food waste. According to USDA, in 
2018 Americans threw away roughly 150,000 tons of food each day with 
fruits and vegetable accounting for 40 percent of that total.\11\ 
Globally, the U.N. Food and Agriculture Organization (FAO) \12\ 
estimates that worldwide, the amount of food wasted is enough to feed 
two billion people--more than double the number of people struggling 
with hunger.
---------------------------------------------------------------------------
    \11\ https://journals.plos.org/plosone/article?id=10.1371/
journal.pone.0195405.
    \12\ https://www.wfpusa.org/articles/8-facts-to-know-about-food-
waste-and-hunger/.
---------------------------------------------------------------------------
    Demand for protein, particularly in developing countries, will 
dramatically rise with a growing population and middle class. The OCED 
and FAO predicts meat consumption will grow 12 percent in the coming 
decade.\13\ While traditional breeding has led to increased production, 
precision breeding of animals to produce more meat or milk will be 
critical to sustainably meet this demand by making similar improvements 
in a fraction of the time.
---------------------------------------------------------------------------
    \13\ https://www.meatpoultry.com/articles/4395-global-meat-
consumption-to-rise-73-percent-by-2050-fao.
---------------------------------------------------------------------------
    As an example, the first bioengineered food animal approved to 
date, the AquAdvantage salmon, is a fish that can grow large and 
healthy with fewer resources, near population centers. Faster growth to 
harvest weight will increases access to affordable and nutritious 
protein.
    Using microbials and synthetic biology, we can boost nature's 
ability to grow more food on less land and create food ingredients. 
Through synthetic biology we can make vanillin that is molecularly 
identical to the bean.\14\ Separately, using synthetic biology to edit 
brewer's yeast to produce hemoglobin is key to the development of new 
alternative proteins.\15\
---------------------------------------------------------------------------
    \14\ https://wholefoodsmagazine.com/columns/debates/synthetic-
biology-key-to-a-healthier-planet-or-threat-to-organic/.
    \15\ https://www.bio.org/blogs/synthetic-biology-sustain-
agriculture-and-transform-food-system.
---------------------------------------------------------------------------
Conclusion
    Innovation can be a solution to food insecurity. However, we must 
incentivize and invest in the research and development of these 
technologies and practices and streamline and expedite regulatory 
pathways for breakthrough technology solutions.
    BIO is committed to working with the Committee and Congress to 
address food insecurity. We urge you to support policy that advances 
pioneering technology breakthroughs. With science we can ensure 
everyone has access to affordable healthy fare and achieve universal 
nutrition[.]
                                 ______
                                 
 Submitted Statement by Hon. David Scott, a Representative in Congress 
  from Georgia; on Behalf of Barbara P. Glenn, Ph.D. Chief Executive 
   Officer, National Association of State Departments of Agriculture
    On Behalf of the National Association of State Departments of 
Agriculture (NASDA), we appreciate the opportunity to submit this 
statement outlining the priorities of state departments of agriculture 
on policies related to food insecurity in America. We request that this 
statement be included in the record of the upcoming, March 11th hearing 
of the Committee on Agriculture focusing on ``A Look at Food Insecurity 
in America''.
    NASDA represents the commissioners, secretaries, and directors of 
the state departments of agriculture in all 50 states and four U.S. 
territories. State departments of agriculture are responsible for a 
wide range of programs including food safety, combating the spread of 
disease, and fostering the economic vitality of our rural communities.
    On March 8th, NASDA sent a letter to USDA supporting the 
continuation of the Farmers to Family Food Box Program as well as 
recommending ways to improve its effectiveness. NASDA proposed the 
following enhancements to USDA:

  <bullet> Increase the variety of meat products by removing the 
        current restriction that limits products to only pre-cooked 
        meats.

  <bullet> Provide vendors an additional 2 to 3 weeks between the 
        awarding of the contract and the start of the performance 
        period.

  <bullet> Consider the adverse impact on smaller farms and 
        distributors when contracts are awarded to vendors solely on 
        having a lower price.

  <bullet> Remove county restrictions within awarded states which 
        create significant difficulty for both vendors and 
        distributors.

  <bullet> Give preference to vendors who previously participated in 
        the program in the bidding review process based on contract 
        performance.

  <bullet> Provide vendors greater flexibility in curating food boxes 
        to allow for the selection of items based on local preference 
        and local availability.

  <bullet> Increase the participation of socially disadvantaged and 
        BIPOC farmers and vendors.

    These recommendations will encourage and increase participation of 
local farmers and vendors as well as ensure USDA can make a greater 
difference in the local communities who need it most.
    Additionally, NASDA recently published a Food Security Toolkit (see 
attached) to increase awareness and improve coordination around hunger 
solutions. The Food Security Toolkit concludes that when state 
departments of agriculture partner with other entities, state residents 
become more food-secure and farmers, ranchers and food producers within 
the state benefit from wider market-access. NASDA surveyed state 
departments of agriculture and found that successful state food 
security programs involve partnerships. The partnerships that reported 
the most success include engaging in Public-Private Partnerships, Food 
Policy Councils and Federal grant programs.
    Examples of programs and partnerships include:

  <bullet> The Kentucky Department of Agriculture's Kentucky Hunger 
        Initiative, for example, brings together farmers, charitable 
        organizations, faith groups, community leaders, and government 
        entities to begin a dialogue to help reduce hunger. The effort, 
        which started as a task force in 2016, has since reformed the 
        state's food donor immunity law and raised hundreds of 
        thousands of dollars for hunger relief.

  <bullet> Tennessee Department of Agriculture's partnership with 
        Cul2vate, a faith-based farm worker training and hunger relief 
        program, produces and donates thousands of pounds of produce 
        each year for food-insecure people.

  <bullet> New Mexico Department of Agriculture's SNAP-Ed Double Up 
        Food Bucks program provides families and seniors with 
        additional funds to purchase food from local farmers. This 
        program benefits local economies while bringing fresh foods 
        into homes.

  <bullet> Oregon's Department of Agriculture partnered with the Oregon 
        Farmers Market Association to create an online portal where 
        people could place an order online and do curb side pick-up at 
        farmers['] markets across Oregon. This online portal resulted 
        in an additional $390,000 sales at 30 farmers markets across 
        the state.

    Another area that has been a point of focus for NASDA members is 
food waste. NASDA members unanimously passed an action item recently at 
our annual Winter Policy Conference requesting the inter-agency 
agreement between USDA/EPA/FDA regarding food waste be extended to 
2030, consistent with the national goal commitment results. Even 
further, NASDA supports additional efforts to improve coordination and 
communication amongst Federal, state and municipals stakeholders to use 
resources more efficiently and effectively to address food waste.
    Last, the [COVID]-19 pandemic has underscored the essential work 
performed by meat and poultry processing plants of all sizes. Many 
smaller processing plants saw an increase in demand for services due to 
pandemic-related supply chain disruptions. These processing plants 
stepped up to reduce processing back logs and help support their local 
food supply. Limit in terms of facility size and processing capacity, 
these small plants need equipment upgrades and workforce enhancements 
in order to keep pace with increased demand. NASDA urges Congress to 
expand meat establishment modernization grants to any small meat 
establishment operating under state or Federal inspection. Regardless 
of the destination of the meat and poultry products made by an 
establishment, i.e., intra- or interstate, modernization of an 
establishment will add resiliency to the food supply chain, thereby 
protecting consumers from price shocks, avoiding distress to producers 
caused by unexpected herd culling, reduce local food insecurity, and 
bolster local economies.
    NASDA stands ready to assist this Committee in any way possible as 
it carves a path forward on this important policy issue.
    Please contact Zachary Gihorski ([Redacted]) if you have any 
questions or would like any additional information.
                               attachment
NASDA Food Security Toolkit
A Resource for State Commissioners, Secretaries and Directors of 
        Agriculture
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Forew[o]rd
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    ``As the leaders of the state agriculture departments, NASDA 
members are constantly searching for innovative ways to advance 
agriculture in our states and reduce hunger across the nation. NASDA is 
well positioned to take on food insecurity due to NASDA members' 
position to influence policy, their closeness to America's farmers and 
ranchers, their ability to connect all facets of the food supply chain 
and duty to serve their states.
    ``For more than 100 years, NASDA members have understood that 
partnerships are an important tool for improving food security, but 
this project aims to take a closer look at exactly what partnerships 
are the most effective and identify resources and ideas to share 
amongst fellow commissioners, secretaries and directors of agriculture.
    ``The NASDA Food Security Toolkit highlights what our members are 
already doing to reduce hunger and offers examples for how we can learn 
from each other to ensure every American has access to fresh and 
nutritious food. It is unacceptable that one in nine Americans are 
considered to be food-insecure. Sharing best practices will help us 
achieve a more food secure nation.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Dr. Ryan Quarles,
NASDA President & Kentucky Commissioner of Agriculture.
Introduction
    U.S. farmers, ranchers and producers have reached production 
heights only dreamed of by earlier generations; however, today one in 
nine people struggle with hunger \1\ in the United States. While 
American farmers produce an abundance of nutritious food, the fact that 
people remain food-insecure demonstrates that more partnerships and 
connections must be built into our food systems to ensure everyone is 
well fed.
---------------------------------------------------------------------------
    \1\ https://www.feedingamerica.org/hunger-in-america/food-
insecurity.
---------------------------------------------------------------------------
    This toolkit illustrates successful state department of 
agriculture-led food security partnerships that can be replicated or 
modified to work in other states looking to build on current programs 
or initiate new ones.
Defining the Terms
    Through NASDA's data collection process and the final toolkit, the 
terms ``food security,'' ``food insecurity,'' and ``food desert'' are 
used. NASDA uses the U.S. Department of Agriculture Economic Research 
Service's definition of these terms:
    Food Security: \2\ Food security means access by all people at all 
times to enough food for an active, healthy life.
---------------------------------------------------------------------------
    \2\ https://www.ers.usda.gov/topics/food-nutrition-assistance/food-
security-in-the-us/.
---------------------------------------------------------------------------
    Food Insecurity: \3\ Food insecurity is the limited or uncertain 
availability of nutritionally adequate and safe foods or limited or 
uncertain ability to acquire acceptable foods in socially acceptable 
ways.
---------------------------------------------------------------------------
    \3\ https://www.ers.usda.gov/topics/food-nutrition-assistance/food-
security-in-the-us/measurement.aspx#insecurity.
---------------------------------------------------------------------------
    Food Desert: \4\ Areas with limited access to supermarkets, 
supercenters, grocery stores, or other sources of healthy and 
affordable food.
---------------------------------------------------------------------------
    \4\ https://www.ers.usda.gov/data-products/food-access-research-
atlas/documentation/#definitions.
---------------------------------------------------------------------------
    This toolkit illustrates that when state departments of agriculture 
partner with other entities, state residents become more food-secure 
and farmers, ranchers and food producers benefit from wider market 
access. The toolkit analyzes state agriculture departments' existing 
food security programs and partnerships and offers states resources 
needed to create programs that eliminate food insecurity in the United 
States. It also highlights food security initiatives prior to COVID-19 
and initiatives that emerged because of the pandemic. Survey data was 
collected through 2020, and therefore, some programs described 
represent food security initiatives created in response to the 
pandemic. NASDA intends for this toolkit to increase dialogue amongst 
state agriculture department leaders on the most effective methods to 
form partnerships and create programs to eliminate food insecurity 
across the United States.
Acknowledgements
    Inspired by NASDA members' unique ability to form partnerships 
across the food supply chain and influence food and agriculture policy, 
this project was led by NASDA President Dr. Ryan Quarles. NASDA would 
like to thank the NASDA Foundation for their contributions to the NASDA 
Food Insecurity Survey and the NASDA members and state department of 
agriculture staff who took time to participate in building this 
toolkit.
Partnerships--Who State Departments of Agriculture Are Working With
    NASDA's survey of state departments of agriculture found that 
successful state food security programs involve partnerships. Of the 
forms that partnerships can take, state departments of agriculture 
reported success from engaging in Public-Private Partnerships, Food 
Policy Councils and Federal Grant Programs.
Public-Private Partnerships
    Public-Private Partnerships allow state and private groups to 
multiply efforts and resources to reach people experiencing food 
insecurity. As defined by World Bank,\5\ Public-Private Partnerships 
are a contract between a private party and a government entity for 
providing a public asset or service. In this toolkit, state departments 
of agriculture serve as the government entity in the public-private 
partnerships, community food and other businesses serve as the private 
party, and the public asset provided as the result of the partnership 
is greater food security.
---------------------------------------------------------------------------
    \5\ https://www.worldbank.org/en/topic/publicprivatepartnerships/
overview#::text=
Public%2Dprivate%20partnerships%20(PPPs)%20can%20be%20a%20tool%20to,infr
a
structure%20services%20to%20more%20people.&text=The%20World%20Bank%20
Group%20is,PPPs%20as%20one%20delivery%20option..
---------------------------------------------------------------------------
Food Policy Councils
    Food Policy Councils \6\ are committees of community leaders who 
evaluate and address food system issues through policy-based solutions. 
Stakeholders vary in their background and knowledge of the food system, 
but most groups include leaders from agriculture, health, environment 
and economic development sectors. Food Policy Councils can provide an 
organized approach to assessing, developing and implementing a path to 
eliminate food insecurity in states and localities.
---------------------------------------------------------------------------
    \6\ https://www.ruralhealthinfo.org/toolkits/food-access/2/food-
systems-models/food-policy-councils#::text="Food policy council" is 
one,established by non-governmental agencies.
---------------------------------------------------------------------------
Federal Grant Programs
    Federal grant programs make funding available for states to 
implement programs that accomplish shared goals between Federal 
agencies and state agencies. Throughout this toolkit, state departments 
of agriculture partner with Federal agencies such as the U.S. 
Department of Agriculture.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Successful State-Led Programs Designed To Increase Food Security
    Every state faces its own unique circumstances around food 
insecurity. Below are programs that state departments of agriculture 
have enacted, that have proven to be successful and can be replicated 
or modified to work in other states.
Public-Private Partnerships
          NASDA Finding: State departments of agriculture can benefit 
        from public and private partnerships around food security and 
        make a larger impact than they would operating alone. Tapping 
        into supply chains, retailers, wholesalers and producers allows 
        a larger reach for states to provide nutritious food to people 
        who experience food insecurity. Through feedback from state 
        departments of agriculture, NASDA found that developing 
        policies within public-private partnerships is a vital 
        component of their success.
Virginia Department of Agriculture and Consumer Services
    The Virginia Food Access Investment Fund Program \7\ uses the 
Equitable Food Oriented \8\ Distribution model to support food access 
and equity projects by investing in new or expanding food retailers 
that address food access issues in the Commonwealth. The program uses a 
rubric to determine project eligibility that could easily be used in 
other states.
---------------------------------------------------------------------------
    \7\ http://www.vdacs.virginia.gov/marketing-food-access-investment-
fund.shtml.
    \8\ https://www.mandelapartners.org/efod.
---------------------------------------------------------------------------
Hawaii Department of Agriculture
    Hawaii's Aloha + Challenge \9\ has a goal of doubling local food 
production in their state by the year 2030 to help combat hunger.
---------------------------------------------------------------------------
    \9\ https://alohachallenge.hawaii.gov/pages/local-food-production-
and-consumption.
---------------------------------------------------------------------------
Idaho State Department of Agriculture
    Idaho's Community Donation Gardening Program \10\ donates produce 
to local food banks and assists with food aid programs to help find 
locally sourced food.
---------------------------------------------------------------------------
    \10\ https://www.extension.iastate.edu/ffed/community-donation-
gardening-toolkit/.
---------------------------------------------------------------------------
Arkansas Department of Agriculture
    The Arkansas Hunger Relief Alliance \11\ started a gleaning program 
more than 10 years ago that has been used as a model for other states. 
The alliance uses volunteers for gleaning events across the state and 
works closely with the Arkansas Department of Corrections for the use 
of inmate labor at some sites.
---------------------------------------------------------------------------
    \11\ https://www.arhungeralliance.org/programs/arkansas-gleaning-
project/.
---------------------------------------------------------------------------
Florida Department of Agriculture and Consumer Services
    Florida's Food Recovery Program \12\ works with farmers to collect 
surplus produce through gleaning and provides schools with guidance on 
food waste audits, share tables, food donations and composting.
---------------------------------------------------------------------------
    \12\ https://www.fdacs.gov/Food-Nutrition/Nutrition-Programs/Food-
Recovery-Program.
---------------------------------------------------------------------------
Kentucky Department of Agriculture
    Kentucky's Farms to Food Banks \13\ partnership has been successful 
since 2011 providing over 18.5 million \14\ pounds of produce to needy 
families. The program encourages farmers to glean produce that is still 
good to eat but cannot be sold. Kentucky farmers who participate in 
Farms to Food Banks receive a state tax credit.
---------------------------------------------------------------------------
    \13\ https://feedingky.org/farms-to-food-banks/.
    \14\ https://www.nkytribune.com/2019/08/ryan-quarles-farms-to-food-
banks-reduces-hunger-in-kentucky-and-helps-farmers-too/.

          NASDA Finding: Thirty percent of state departments of 
        agriculture hold public-private partnerships with food banks 
        and other private community groups.
Tennessee Department of Agriculture
    Tennessee has found success by partnering with Cul2vate,\15\ a 
faith-based farm worker training and hunger relief program. Located in 
Nashville, Tennessee, the nonprofit produces and donates thousands of 
pounds of produce each year to local hunger relief programs and serves 
as a demonstration farm.
---------------------------------------------------------------------------
    \15\ https://www.cul2vate.org/.
---------------------------------------------------------------------------
California Department of Food and Agriculture
    California partners with the California Association of Food Banks 
\16\ that delivers 160 million pounds of fresh fruits and vegetables to 
food banks around the state. Farmers who donate surplus to the food 
banks are eligible for a 15 percent state tax credit. The program 
provides a small fee for the ``pick and packers.''
---------------------------------------------------------------------------
    \16\ https://www.cafoodbanks.org/farm-to-family-donor/.
---------------------------------------------------------------------------
Connecticut Department of Agriculture
    Connecticut works with The Salvation Army to provide nonperishable 
food boxes at COVID-19 testing sites. Partners include the National 
Guard, Emergency Management Regional Coordinators, colleagues and 
universities and private businesses.
Delaware Department of Agriculture
    Delaware's First Chance Delaware \17\ encourages public, private, 
nonprofit, philanthropic, business entities and community partnerships 
that work to end childhood hunger and expand access to nutritious food 
for low-income children.
---------------------------------------------------------------------------
    \17\ https://governor.delaware.gov/first-chance-delaware/.
---------------------------------------------------------------------------
New York Department of Agriculture and Markets
    Nourish New York \18\ is a response to the needs created by the 
pandemic and connects farms with the emergency food system. $35 million 
has been allocated to ten major food banks in New York to purchase 
directly from New York farms.
---------------------------------------------------------------------------
    \18\ https://agriculture.ny.gov/NourishNY.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
          Tennessee Commissioner of Agriculture Charlie Hatcher D.V.M. 
        and Tennessee First Lady Maria Lee harvest produce for the 
---------------------------------------------------------------------------
        Cul2vate program (June 2020).

          NASDA Finding: Livestock and wild game programs are a 
        successful option for providing families with nutritious 
        protein. Partnerships with youth organizations such as The 
        National FFA Organization and 4-H can contribute significantly 
        to these types of programs.
West Virginia Department of Agriculture
    West Virginia established Hunters Helping the Hungry \19\ over 30 
years ago with the assistance of two area food banks that have provided 
1,026,593 pounds of venison to families in need.
---------------------------------------------------------------------------
    \19\ https://www.wvdnr.gov/Hunting/HHH.shtm.
---------------------------------------------------------------------------
Iowa Department of Agriculture and Land Stewardship
    Iowa has launched four programs that connect the food supply chain 
with food-insecure Iowans:

  <bullet> Pass the Pork \20\ farmers donate pigs for processing and 
        the meat is given to families in need.
---------------------------------------------------------------------------
    \20\ https://donorbox.org/passthepork.

  <bullet> Beef Up Iowa \21\ beef is donated to Iowa State University 
        meat processing lab mostly by 4-H and FFA members. The CARES 
        Act funds cover the costs associated with these donations from 
        youth organizations.
---------------------------------------------------------------------------
    \21\ https://donorbox.org/beefupiowa.

  <bullet> Turkey to Table \22\ Iowa producers, markets, food pantries 
        and other private organizations partner together to provide 
        turkey to needy families. CARES funds are available to help 
        cover these costs.
---------------------------------------------------------------------------
    \22\ https://iowaagriculture.gov/news/cares-act-turkey-purchases-
delivered-to-ne-iowa-food-bank#::text="The Turkey to Table program,the 
Iowa Food Bank Association..

  <bullet> Pack the Pantry \23\ is a grant program supported by CARES 
        funding that allows food pantries to apply for funds to 
        purchase cooling units to be able to refrigerate more fresh 
        foods for hungry families.
---------------------------------------------------------------------------
    \23\ https://iowaagriculture.gov/news/pack-the-pantry.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	    
          Iowa Secretary of Agriculture Mike Naig and Pass the Pork 
        partner organization staff fill a truck destined for local food 
        banks with pork donated and processed by Iowa farmers and 
        producers.
Food Policy Councils
          NASDA Findings:

      <bullet> Two-thirds of NASDA members have developed policy 
            through Food Policy 
              Councils to reduce food waste and increase food security 
            in their states.

      <bullet> 30% of states have adopted programs that encourage 
            producers to donate 
              surplus or blemished items to local food banks.

      <bullet> 7% of states have programs that give grocery stores and 
            wholesale retailers' 
              certain liability protections from lawsuits when donating 
            food.
West Virginia Department of Agriculture
    West Virginia worked with partners to raise awareness about 
legislative opportunities to fight food insecurity. The success of 
these partnerships led to additional state funding.
Oklahoma Department of Agriculture, Food and Forestry
    Oklahoma has created grants for grocery stores \24\ in food 
deserts.
---------------------------------------------------------------------------
    \24\ https://stateimpact.npr.org/oklahoma/2017/04/20/legislature-
approves-measure-to-lure-healthier-grocery-options-to-fill-oklahoma-
food-deserts/.
---------------------------------------------------------------------------
Florida Department of Agriculture and Consumer Services
    Florida passed the Ms. Willie Ann Glenn Act \25\ that requires each 
school district to develop a plan to sponsor or operate a summer 
nutrition program.
---------------------------------------------------------------------------
    \25\ http://www.leg.state.fl.us/statutes/
index.cfm?App_mode=Display_Statute&Search_String=
&URL=0500-0599/0595/Sections/0595.407.html.
---------------------------------------------------------------------------
Nationwide Percentage of State Departments of Revenue that Provide Tax 
        Incentives for Farmers Who Donate to Charitable Organizations

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	        
Oregon Department of Agriculture
    The Oregon Hunger Response Fund,\26\ covers approximately five 
percent of regional food banks' expenses for capacity and 
infrastructure, such as warehousing, cold storage, transportation, and 
some programmatic costs. Some funds are distributed evenly, and some 
are distributed based on a formula that includes unemployment rate and 
those in poverty level. Some funds are set aside for Oregon Farm Bureau 
to procure food--such as ``pick and pack out'' and funds to repackage 
those foods for distribution.
---------------------------------------------------------------------------
    \26\ https://oregon.public.law/rules/oar_461-192-0000.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	    
Federal Grant Programs
          NASDA Finding: As co-regulators with the Federal Government, 
        NASDA members work in close state-Federal partnerships on a 
        range of programs. For food security programs, flexibility to 
        use Federal resources to meet the needs food-insecure people 
        has been a key to success.
Pennsylvania Department of Agriculture
    Pennsylvania Agricultural Surplus System \27\ program makes 
connections between production agriculture and the nonprofit sector 
responsible for distributing nutritious food to Pennsylvanians at risk 
of hunger. PASS allows Pennsylvania's agricultural industry to donate 
safe food products while being reimbursed for the costs involved in 
harvesting, processing, packaging and transporting these foods. Since 
the program's start in 2016, more than 18 million pounds of 
Pennsylvania-produced product have been distributed to those in need of 
food assistance.
---------------------------------------------------------------------------
    \27\ https://www.agriculture.pa.gov/Food/food_assistance/Pages/
Pennsylvania-Agricultural-Surplus-Program.aspx.
---------------------------------------------------------------------------
New Mexico Department of Agriculture
    New Mexico and Maryland participate in SNAP-Ed programs \28\ which 
provide additional funds to families and senior food assistance 
benefits so food from local farmers' markets can be purchased. This 
program benefits local economies while bringing fresh foods into homes.
---------------------------------------------------------------------------
    \28\ https://snaped.fns.usda.gov/nutrition-education/nutrition-
education-materials/farmers-markets.
---------------------------------------------------------------------------
Missouri Department of Agriculture
    Missouri participates in the Senior Farmers' Market Nutrition 
Program \29\ funded by USDA. The program creates an additional resource 
for seniors, and the benefit doesn't affect any SNAP or medical 
assistance they may receive.
---------------------------------------------------------------------------
    \29\ https://www.fns.usda.gov/sfmnp/senior-farmers-market-
nutrition-program.
---------------------------------------------------------------------------
Nevada Department of Agriculture
    Nevada's Breakfast After the Bell \30\ requires all Nevada schools 
with 70 percent or greater free/reduced lunch eligibility to implement 
an option for students to have access to breakfast after the start of 
the school day. After the funding was completed for program 
implementation, Nevada saw a greater increase in USDA School Breakfast 
enrollment.
---------------------------------------------------------------------------
    \30\ https://agri.nv.gov/uploadedFiles/agri.nv.gov/Content/
Resources/Data_and_Reports/Food_and_Nutrition/School_Nutrition/
Remediated%20SB503_2020report_r1.pdf.
---------------------------------------------------------------------------
Wisconsin Department of Agriculture, Trade and Consumer Protection
    Wisconsin's Food Security Initiative \31\ (funded by the Federal 
Coronavirus Relief Fund) was incredibly successful. It provided $5 
million in funds to help the food insecurity network adapt to the 
increased demand during COVID-19 through infrastructure investments and 
$20 million for the purchase of food with an emphasis on Wisconsin 
products.
---------------------------------------------------------------------------
    \31\ https://datcp.wi.gov/Pages/News_Media/
Covid19FoodSecurityInitiative.aspx.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
          Photos from local farmers['] markets participating in New 
        Mexico's SNAP-Ed Double Up Food Bucks program.\32\
---------------------------------------------------------------------------
    \32\ https://www.doubleupnm.org/.
---------------------------------------------------------------------------
Resources
    NASDA recommends utilizing the following organizations and tools 
based on responses in the food security survey from NASDA members.

          Hunger Relief Organizations \33\
---------------------------------------------------------------------------
    \33\ https://www.nal.usda.gov/fnic/hunger-relief-organizations.
---------------------------------------------------------------------------
          The Food and Nutrition Service Programs \34\
---------------------------------------------------------------------------
    \34\ https://www.fns.usda.gov/programs.
---------------------------------------------------------------------------
          Food First & Community Food Security Coalition Report, ``Food 
        Policy Councils: Lessons Learned'' \35\
---------------------------------------------------------------------------
    \35\ https://foodfirst.org/wp-content/uploads/2014/01/DR21-Food-
Policy-Councils-Lessons-Learned-.pdf.
---------------------------------------------------------------------------
          USDA National Institute of Food and Agriculture Hunger Food & 
        Security Programs \36\
---------------------------------------------------------------------------
    \36\ https://nifa.usda.gov/program/hunger-food-security-programs.
---------------------------------------------------------------------------
          The Food Industry Association: Tips From Grocery Store, 
        Manufactures & Other Partners \37\
---------------------------------------------------------------------------
    \37\ https://www.fmi.org/family-meals-movement/make-meals-happen/
view/nfmm-news-page/2020/04/17/grocery-store-manufacturer-other-
partners-our-friends-joined-in-with-their-best-resources-to-make-
staying-at-home-a-little-easier.
---------------------------------------------------------------------------
Conclusion
    NASDA survey data concludes that when state departments of 
agriculture partner with other entities, state residents become more 
food-secure and farmers, ranchers and food producers within the state 
benefit from wider market-access.

    ``NASDA members understand that no one group, state or organization 
can take on the issue of food insecurity alone and succeed. Pursuing 
partnerships extends our reach, reveals new perspectives, multiplies 
our impact and inspires others to engage and take action.''

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
Dr. Barb Glenn,
NASDA CEO.

          NASDA is a nonpartisan, nonprofit association which 
        represents the elected and appointed commissioners, secretaries 
        and directors of the departments of agriculture in all fifty 
        states and four U.S. territories. NASDA grows and enhances 
        American agriculture through policy, partnerships and public 
        engagement. Learn more about NASDA at www.nasda.org.
                                 ______
                                 
Submitted Statement by Hon. Jimmy Panetta, a Representative in Congress 
 from California; on Behalf of Robert Guenther, Senior Vice President, 
            Public Policy, United Fresh Produce Association
March 16, 2021

 
 
 
Hon. David Scott,                    Hon. Glenn Thompson,
Chairman,                            Ranking Minority Member,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chairman Scott and Ranking Member Thompson:

    United Fresh members fully support the House Agriculture 
Committee's efforts to bring attention to the millions of Americans who 
are still struggling to make ends meet and who are relying on America's 
important safety net programs to put nutritious food on the table. That 
is why we would like to respond and submit this letter for the 
Congressional hearing record from your March 11, 2021 hearing titled 
``A Look at Food Insecurity in America.'' In particular, United Fresh 
would like to share our views on an important program discussed during 
the hearing the Farm to Families Food Box Program.
    Over the last year, United Fresh members from across the country 
have participated in the Farmers to Families Food Box Program over the 
last year. Because of the success and strong support of this program we 
convened a 100-member working group of growers, distributors, and 
recipient nonprofit agencies during the past 3 months. The group will 
be issuing a report with recommendations shortly, but we would like to 
take this opportunity to highlight several key points:

  (1)  A family food box program is an effective way to absorb 
            perishable, ``surplus'' fruits and vegetables and provide 
            healthy food to high-need families.

  (2)  Pivoting from delivering to institutions and restaurants to 
            packing boxes for distribution to households maintained and 
            created jobs in the fresh food supply chain and protected 
            these workers from joining the millions of unemployed and 
            perhaps needing food boxes themselves.

  (3)  When AMS provided more contracts in each geographic area 
            distributors were able to quickly make direct connections 
            with nonprofit partners, reducing the amount of time it 
            took to get healthy, fresh food to families.

  (4)  We know that diet-related health conditions are a prime risk 
            factor for complications from [COVID]-19. This makes it 
            more incumbent on policymakers to ensure that the emergency 
            food we provide will build health. Boxes that only contain 
            produce and that offer a variety of colors and some ready-
            to-eat fruits and vegetables concentrate the nutritional 
            benefit to households.

    We look forward to the end of this health emergency but in the 
meantime, United Fresh's members are doing all they can to continue to 
provide markets to U.S. fresh produce growers and nutritious food to 
our neighbors.
            Sincerely,

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	            
Robert Guenther,
Senior Vice President, Public Policy.

CC: House Agriculture Committee Members.
                                 ______
                                 
    Statement Submitted by Hon. Glenn Thompson, a Representative in 
 Congress from Pennsylvania; on Behalf of Dave Donaldson, Co-Founder, 
     Chairman, Chief Executive Officer, CityServe, International; 
            Facilitator, Faith-Based Collaboration for F2F *
---------------------------------------------------------------------------
    * Editor's note: F2F stands for Farmers to Families Food Box 
Program.
---------------------------------------------------------------------------
    Chairman Scott, Ranking Member Thompson, and Members of the full 
Committee, CityServe offers the following comments on U.S. nutrition 
programs and the role that faith-based organizations provide in the 
execution of Federal social programs.
Background
    CityServe International is a [501(c)(3)] tax-exempt faith-based 
organization that provides logistical and structural guidance to 
churches that feel ill equipped to fully reach and meet the needs of 
their local communities. Local needs and community initiatives include 
addressing hunger as well as meeting the needs of the poor and 
disaffected, the addicted, and the exploited. Through capacity and 
partnership building, CityServe assists in empowering churches to make 
greater community engagement and impact across the world. CityServe's 
collaborative network includes faith-based nonprofits, corporations, 
retail stores, farmers and ranchers among other food supply 
partnerships.
    Since 2016, CityServe has built relationships with interconnections 
to service the multiple needs of communities across the globe. Through 
these relationships CityServe has mobilized churches and leveraged 
their influence and resources. From this a supply chain network of 
``HUB's'' were established that channel these resources. These HUBs 
include warehouses for household goods, furniture, toys, and food to 
local churches serving their communities. Local churches are the 
primary Point of Distribution (POD). Each POD has committed to be 
actively involved with their neighborhoods and community through 
compassion and evangelism. In 2020, CityServe and its regional 
affiliates distributed over $400 million of in-kind gifts through PODs 
to needy families across America.
Hunger Relief Programs
    Specific to nutrition assistance, CityServe recognizes that 41 
million Americans face hunger every day and that food insecurity 
affects all genders, ethnicities, ages and backgrounds. Through-out our 
network we have established over 2,000 distribution sites that have 
been trained in proper food management, distribution, and means testing 
while following CDC's [COVID]-19 social distancing guidelines.
    In addition, the food box program has been catalytic in discovering 
other needs of families that CityServe is able to tangibly meet by 
providing beds, diapers, school supplies, and home furnishings among 
other items. By cultivating the trust of under-resourced families, 
CityServe has successfully linked them to both public and private 
programs geared towards helping them move from dependency to 
sustainability.
    Aggressive incorporation of our nonprofit model within the current 
body of food assistance programs would allow us to reach an additional 
20 million people annually and help pull Americans out of poverty and 
deal with the conditions that contribute to food insecurity.
Pandemic Response
    For more than 9 months CityServe and its 2,000+ affiliated 
organizations have worked to ensure the neediest among us have the 
opportunity to receive food due to no fault of their own. As we are 
well aware, [SARS]-CoV-2, also known as the novel coronavirus (COVID-
19), continues to have significant and persistent economic disruptive 
effects on urban and rural communities across America. In response, 
USDA implemented the Farmers to Families Food Box Program (F2F) to 
purchase and distribute agricultural products to those in need. The 
program, while not perfect in its first iteration, would come to be 
transformative in not just reaching those acutely affected by recent 
joblessness, but also the long-term unemployed who have given up on 
both employment opportunities and traditional government social support 
systems.
    In an effort to bolster the program, CityServe shifted its focus 
towards incremental improvements for F2F and even coined ``Last Mile'' 
to describe its mission to assist the hardest to reach regions in the 
nation. USDA's subsequent changes to the program in Rounds Two and 
Three enabled CityServe, among many other nonprofit and faith-based 
organizations, to efficiently maximize the reach of the box program. 
USDA incorporated this last mile delivery concept, and now defines Last 
Mile organizations within the structure of the program. To date, 
CityServe and its affiliates have assisted in the delivery of 14 
million boxes to urban, rural, Tribal Nations and to the Rio Grande 
Valley. In addition, CityServe has formed enduring relationships with 
over 30,000 families and individuals who were given a food box but now 
have also found new purpose and commitments within their communities.
    The majority of last mile food box distribution work has been 
funded through direct donations and targeted fundraising. With the 
successful execution of last mile deliveries, however, some USDA 
contractors voluntarily contributed to CityServe in the early rounds of 
F2F. These monies offset the costs of the last mile deliveries such as 
personal protective equipment, refrigeration, storage and 
transportation costs. In later rounds, F2F last mile groups were merged 
into the USDA solicitation process. Once solicitations were awarded by 
USDA, CityServe and other last mile organizations could commit 
resources in advance of distributions, reaching even farther into 
America's food-insecure populations.
    Despite the good which the F2F program has performed, Round Five 
has presented new challenges for which CityServe requests the Committee 
assist USDA in addressing. In the design of Rounds Four and Five, many 
vendors structured their business to rely on last mile organizations 
and food banks to ensure the delivery of boxes across the nation to 
those truly in need. Based on this reliance, CityServe and its last 
mile partners have made significant investments for last mile 
deliveries based on financial assurances from USDA vendors who were 
awarded a contract. Unfortunately, many of these agreements have not 
been honored or they have been canceled because the contractors claim 
their margins are too thin. The goodwill and community expectation has 
pressured faith-based organizations to continue deliveries to locations 
serviced in previous rounds forcing nonprofits to assume the complete 
costs of last mile deliveries. The parameters of the programs for the 
latter rounds forced contractors to cut the delivery cost from their 
calculation in order to provide the government with a low-price bid. 
This activity was observed in Round Four but has dramatically increased 
in Round Five.
    The solution to this problem for future iterations of the program 
is to remove the low-price program mandate and restore the value 
proposition that was included in previous rounds. This coupled with a 
separate and verifiable administrative funding payment for last mile 
nonprofit organizations would cure the current programmatic 
malfunctions. For the program's current operation (F2F--Round Five), 
Congress should direct USDA to operationalize the authority given to it 
under Section 751 of the COVID Stimulus Package, included in the 
Consolidated Appropriations Act of 2021. Specifically, Congress 
provided:

          ``Provided further, that from the amounts provided in this 
        section, the Secretary of Agriculture shall use not less than 
        $1,500,000,000 to purchase food and agricultural products, 
        including seafood, to purchase and distribute agricultural 
        products (including fresh produce, dairy, and meat products) to 
        individuals in need, including through delivery to nonprofit 
        organizations that can receive, store, and distribute food 
        items . . .''

    CityServe recommends USDA provide $2 per box through this existing 
authority for all deliveries. This would continue to bolster the 
distribution of boxes to vulnerable seniors, shut-ins and at-risk 
children not receiving proper nutrition. This action could be performed 
at the conclusion of Round Five of F2F and would assist in covering PPE 
costs, the cost of trucks, coolers, forklifts, lift gates, etc., all of 
which is already being performed. The cost of the policy starting from 
January 19 through April 30 would be a maximum of approximately $60 
million or roughly four percent of Congress's designated minimum 
expenditure of $1.5 billion. We would note that the $60 million assumes 
every box in Round Five of F2F would receive $2 for safety, 
administration, and transportation costs to the last mile. We expect, 
however, that his number would be roughly half the maximum possible 
expenditure. In addition, in many USDA food distribution programs 
Federal dollars for this type of administration is provided.
Post-Pandemic
    With the deployment of COVID-19 vaccines, we fervently believe the 
pandemic will soon end. That said, while we are hopeful for a quick 
return of jobs to all sectors of our economy, we believe a lag 
economically could continue making the F2F program necessary for the 
next several months. When the pandemic concludes, a lesson learned from 
it is that the distribution of food and nutrition assistance generally 
can be performed in ways that were not previously contemplated and 
tested. F2F has proven that the Federal Government can utilize the 
efficiencies and seasonality of food in the free market to purchase and 
deliver high quality, fresh and highly nutritious food at reasonable 
prices and place that food directly in the hands of the food-insecure 
population. Such a program, if maintained, could cure food deserts, 
assist in curbing health issues that are prevalent among low income and 
food-insecure populations, and further the goal of ending hunger in 
America. CityServe highly encourages Congress to fund and specifically 
direct USDA to maintain the program.
Conclusion
    As stated above, CityServe has assisted in the delivery of 14 
million USDA food boxes to the ``hardest-to-reach'' communities. 
Generally, however, CityServe's work represents a community of 
nonprofit organizations that have proven that their assistance is 
needed and that we will continue to be a critical member of the 
nutrition assistance community to respond to that need. The reach of 
our organization has found food-insecure populations in both urban and 
rural areas and among some in Tribal Nations. In addition, we submit 
that in recent comments Secretary Vilsack has stated that he likes the 
program and aspects of what it has been able to do. That said, it is 
clear that he will need the support of Congress to maintain the program 
and ensure last mile organizations continue to be involved. We further 
submit that Congress should encourage USDA to include the last mile 
concept in other programs where opportunities exist to address 
America's hunger issues.
    CityServe takes seriously the work of feeding the needy, but in 
addition it also works to investigate and solve the underlining 
conditions associated with Americans who are food-insecure. For this 
reason, we have developed a network and skill set to reach and maintain 
the connection with families and individuals who are often lost within 
Federal and state social programs. We will continue to perform this 
mission and request that the recommendations above be considered and 
incorporated in the Committee's ongoing work.
                                 ______
                                 
  Submitted Report by Hon. Rodney Davis, a Representative in Congress 
                             from Illinois

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

Farmers To Families Food Box Research Findings
January 2021

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
Executive Summary
    In April 2020, when the USDA Agricultural Marketing Service (AMS) 
rolled out the Farmers to Families Food Box program (FFFB) in response 
to supply chain disruptions and spikes in food insecurity caused by 
COVID-19, the Wallace Center at Winrock International sprang into 
action to ensure participation by the local and regional food 
businesses and organizations we serve. Over the course of 5 months, we 
provided direct technical assistance to farmers, food hubs, and 
distributors whose locally focused markets had disappeared due to the 
pandemic. These farmers and local food businesses looked to the program 
to replace lost markets for the healthy foods they had growing in their 
fields and sitting in their coolers, to maintain their staff and 
operations, and to provide hunger relief in their communities.
    AMS estimates that approximately 55 of the organizations selected 
as contractors in the first two rounds of the FFFB program were working 
with and sourcing from local and regional farms. Collectively these 
contracts were an investment of over $84M in local farms, regional 
businesses, and communities. For context, that is over three times the 
total amount invested in local and regional food systems by USDA-AMS 
through the FMLFPP program in 2020. The Wallace Center conducted 
research with about half of these locally-sourcing contractors to 
understand the program's impact on their work, gather information that 
could inform the implementation of emergency nutrition and farmer-
support efforts, and help shape future programs that leverage USDA 
direct procurements.
    The Wallace Center received responses to surveys from 21 of the 55 
local-sourcing contractors from rounds one and two and conducted 
formal, follow-up interviews with seven of these respondents. The 
research and data in this report reflects the program implementation 
and input from those 21 contractors, whose responses we chose to 
anonymize to ensure that they would be comfortable openly sharing their 
feedback with the Wallace Center, our research partners, and the USDA.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    The research indicates that the local and regional contractors were 
overwhelmingly successful in implementing the program, which provided a 
critically important outlet for small to midsize producers whose 
markets disappeared in the spring of 2020. It shored up regional supply 
chains, and it provided fresh, healthy, culturally appropriate foods to 
emergency nutrition operations and the people they serve in urban and 
rural communities across the country.
    The program's early flexibility enabled organizations and 
businesses that had never been able to participate in USDA commodity 
programs demonstrate the strength and responsiveness of their 
enterprises and networks. For example, flexibility in the kinds of 
boxes contractors could provide and the contents of these boxes allowed 
contractors to concentrate on the products they know best, adapt to 
seasonality during the year, and provide culturally appropriate foods 
to different communities at a fair and competitive price. The 
willingness of AMS to provide small contracts enabled small companies 
to stay solvent and to source from small farms, serve a diverse set of 
small emergency food relief organizations, and reach rural and remote 
communities that large companies can't or won't serve. Assessing 
applicants on their ability to provide high quality, appropriate foods 
in household sizes rather than on low cost boxes meant AMS' support 
went to small and mid-sized specialty crop producers who could serve 
their communities effectively with no food waste.
    The FFFB contractor selection criteria shifted to a primary focus 
on low-price in rounds three and four of the program. These contractors 
could not compete while still providing farmers and workers a fair 
price and wages. The result: the producers these contractors purchased 
from lost a market channel that had provided prices commensurate with 
their pre-COVID customers. Further, the small emergency nutrition 
organizations they served in urban and rural communities--many of which 
operate outside of food bank networks--lost access to healthy, 
appropriate fresh food. Jobs that had been created to meet increasing 
community food needs were lost and some contractors had to lay off 
permanent staff when they did not receive contracts in rounds three and 
four.
    We recognize that AMS had to create the FFFB quickly and it is 
remarkable how well the process worked considering the immense 
pressures the agency was under. We understand the complexity of the 
task they were given and appreciate how responsive staff leadership has 
been and their willingness to engage with us directly about the 
feedback and questions we gathered from local contractors. While the 
program has been criticized and there have been missteps, it is evident 
that many aspects of this program worked very well and that the impact 
of the FFFB program had on the local contractors we worked with, the 
farmers that they source from, and the communities that they serve has 
been profound. Furthermore, this program provided a model not only for 
another round of COVID relief in 2021, but also for the local and 
regional food sector to participate in USDA commodity purchasing in the 
future. This program proved the concept that the dual goals of hunger 
relief and supporting small farmers don't have to be at odds and can in 
fact be systematically achieved in concert.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

The Contractors
    After the original contracts were awarded, AMS identified 55 
contractors that were sourcing from local and regional farms and helped 
Wallace Center connect with them. Contracts awarded to these 
organizations ranged from $3,600 to over $27M. The Wallace Center 
surveyed 21 of these FFFB contractors and conducted in-depth interviews 
with seven of those surveyed. The organizations surveyed are based in 
15 states and received a total of $41 million in contracts in the first 
two rounds of this program, $28 million of which was paid to producers. 
Collectively, they delivered 1,760,596 boxes of fresh, healthy food to 
families in need. These contractors received contracts for rounds one 
and two. Some received Basic Ordering Agreements (BOAs) and applied for 
rounds three and four, but none received contracts in those final 
rounds.
    The contractors we surveyed are diverse but share a common focus: 
working with small and mid-sized producers using sustainable production 
methods, serving local and regional markets, supporting a diverse 
farming sector, and advancing healthy and resilient food systems. About 
half the contractors are businesses including farms and food hubs, half 
are nonprofit organizations, one is a school district, and one a 
consumer grocery coop. The business and nonprofit organizations vary in 
size, but all qualify as small businesses/operations.
  Fresh Approach
  Concord, CA
  Total Contract Value: $1.8m
          Fresh Approach, which is a nonprofit organization operating 
        multiple food security and nutrition education programs in the 
        Bay Area, took a value chain coordination approach to their 
        contract, and created a web of food hubs, BIPOC farmers, and 
        community-based organizations working together to build and 
        distribute boxes. A decentralized program allowed the 
        nonprofits that Fresh Approach partnered with to tailor their 
        offerings to the communities they work in. Fresh Approach took 
        a coordination role, aligning supply and demand and 
        distributing funding to multiple small organizations, including 
        farmers' market associations, farms, nonprofit farms, and urban 
        farms, who could best navigate the assets and needs of their 
        communities. Andy Ollove of Fresh Approach noted: ``We used the 
        model of recruiting small organizations. We could get into 
        invisible communities with really high touch. In some cases, we 
        were getting food to people 1 mile from where it was grown. To 
        do that most effectively, you think of it as a network rather 
        than an individual nonprofit.''
  Growfood Carolina
  Charleston, SC
  Total Contract Value: $51,000
          GrowFood Carolina is a nonprofit food hub that primarily 
        served restaurants in coastal South Carolina. Many of the small 
        farmers that GrowFood served had very few market opportunities 
        when COVID hit, as restaurants and farmers markets closed. 
        GrowFood's FFFB contract allowed them to supply food banks, 
        food pantries, and community-based nonprofits who they had 
        previously been in touch with but had never had the impetus to 
        engage in a meaningful partnership. They also worked with a 
        local nutritionist to was create recipes and demonstrate them 
        at pickup locations to show families how to use the food they 
        were receiving. The need for this type of support was so great 
        GrowFood worked to raise over $200,000 to continue their 
        program when they weren't awarded a contract in round 3. They 
        hope to continue serving their neighbors in this capacity in 
        the long term.

    Existing relationships with local producers and farm groups helped 
the contractors quickly source products to meet their contractual 
commitments to USDA AMS, including when it meant scaling up operations 
substantially. Contractors were able to reconfigure existing local and 
regional distribution networks to deliver boxes efficiently. Experience 
with Community Supported Agriculture (CSA) aggregation and distribution 
equipped the contractors with the knowledge necessary to right-size 
products for household use. Most contractors are deeply embedded in the 
communities in which they operate so they were able to fill boxes with 
culturally appropriate foods, deliver them to those most in need, and 
minimize waste.
    USDA AMS stood up the FFFB program quickly in order to address the 
urgent needs of farmers and communities in the early stages of the 
pandemic. The application process was new to all the contractors. 
Preparing a bid and complying with Federal contract reporting required 
a significant amount of time, expertise, and training. New logistics 
systems had to be designed that met the needs of the producers and 
worked with the contractors' capacity. Contractors also had to identify 
and organize a distribution system adapted to local needs and the 
resources of the agencies providing emergency feeding. In a matter of a 
few weeks, boxes and other materials had to be sourced, and staff had 
to be hired and trained to pack and deliver boxes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Eastern Market Corporation
  Detroit, MI
  Total Contract Value: $1.25m
          Eastern Market is a farmers' market and regional food hub 
        based in Downtown Detroit. They used funding from USDA to 
        provide food to 12 community-based nonprofits on the front line 
        of food insecurity, housing insecurity, and serving seniors, 
        sourcing from 15 farms in the region. They also directly 
        delivered boxes to some community members and created pickup 
        options at their market as well. Eastern Market also rolled out 
        a non-subsidized direct to consumer box program which allowed 
        them to increase their financial viability while maximizing the 
        impact of their logistical expertise. The market demand from 
        the Farmers to Families Food Box also allowed Eastern Market to 
        achieve GAP certification and to support GAP certification for 
        two small farmers.

    Even within these constraints, these contractors focused their 
sourcing locally (USDA's criteria of within 400 miles or the same 
state) from producers using sustainable, regenerative, and organic 
production practices and from Black, Indigenous and People of Color-
owned farms. They bought from a total of 420 producers who were paid 
fair market prices. Many contractors reported working closely with 
farmers to identify a mutually agreed upon price, which was usually 
above wholesale rates. The contractors played a critical and complex 
role in making the FFFB program work for the communities they served 
and passed about 69% of what they received from USDA to the producers 
they bought from. They used the remainder of the funds to retain staff, 
keep the regional supply chain intact, and create 203 new jobs.
    Most contractors were paid between $25 and $38 per box. Materials 
and transportation were most commonly listed as the primary non-food 
costs. The range of prices can be attributed to the contractors' focus 
on setting a price with growers that met their needs, different labor 
costs across regions, the range of product included in the boxes 
(seasonality), and the true cost of last mile distribution, 
particularly in hard-to-reach areas.
    The locally-focused contractors were able to quickly and 
successfully implement this program due to their operational focus on 
local and regional supply chains and longstanding, trusting 
relationships across the value chain that are built on the shared 
values of local and regional cooperation. The contractors' models are 
inherently adaptable and built to be flexible to respond to changing 
market and supply demands. It is worth noting that many of the food 
hubs and nonprofits surveyed had been able to build the capacity of 
their operations and programs through investments of previous AMS-
administered grant programs, such as the Local Foods Promotion Program.
  A&H Farm
  Manhattan, KS
  Total Contract Value: $1.3m
          A&H Farm is a fourth-generation diversified farm that also 
        runs a CSA and multiple agritourism programs in rural Kansas. 
        The FFFB contract was a lifeline for them when the local 
        farmers market closed in March. They worked with other, small 
        neighboring farms to provide produce to regional food banks, 
        some as far as Denver and St Louis, and smaller food pantries 
        that were too small to receive support from larger 
        distributors. They also delivered directly to many individuals 
        in their communities. Andrea DeJesus, who runs the farm with 
        her husband, noted ``I am my farm. This program was life-
        changing, not just for us, but for our partners as well.''
  Zone 7
  Ringoes, NJ
  Total Contract Value: $146,000
          Zone 7 connected with their network of local produce growers 
        in New Jersey, Pennsylvania, and New York to source and pack 
        boxes of delicious, nutritious produce items for distribution 
        as a part of the USDA Farmers to Families program. By working 
        closely with Rolling Harvest, their nonprofit partner which 
        focuses on gleaning and linking local producers with food-
        insecure communities, Zone 7 was able to reach over 7,000 
        individuals and families experiencing food insecurity in 
        central New Jersey with the food boxes.

    Though the federally funded food box programs have ended for these 
contractors, the problems the FFFB program sought to alleviate have 
not. Though some restaurants have reopened, their demand is 
considerably lower. Similarly, some school systems and universities are 
feeding their students through prepared meals or other limited in-
person options, though at a much lower capacity than prior to the 
pandemic. Many of the contractors the Wallace Center spoke with 
continue to provide food boxes and emergency food relief through 
programs funded by local governments, foundations, and nonprofit 
groups. Many contractors expressed their desire to keep feeding their 
communities and providing a fair market for their local producers.

    These 21 Contractors Represent:


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
     1,760,596 boxes delivered


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

     420 farms


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

     203 jobs created


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

     $28M paid to producers


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

     443 partner organizations

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

In Their Own Words
    Nearly all the contractors noted that this program was a critical 
lifeline for the farmers they purchased from, with many saying that 
this program saved farmers, and contractors, from going under.

          ``Small and mid-size family producers told us that the 
        existence of this program helped ensure the survival of their 
        business in 2020. For many, their only sales were coming from 
        the food box.''
          ``Every single farmer we worked with mentioned how we `saved 
        them.' For example, a berry farmer we purchased from was able 
        to buy back a piece of equipment he had been forced to sell, 
        and we prevented 45,000 cases of summer squash from being 
        thrown away.''
          ``It was life-changing. Not just for us, but our partners as 
        well. Our farm went from not knowing if we would survive to 
        making payments and getting some money in the bank.''
          ``First thing I looked at: They're closing the schools. We're 
        dead. 35-40% of our yogurts at this time were 5 lb. tubs of 
        yogurt going into schools [at the onset of the pandemic]. The 
        USDA contract is an amazing investment--it's helped us 
        establish a local dairy.''
          ``This program allowed us to meet the needs of thousands in 
        our small, rural county when very little assistance was 
        available.''
          ``The network that was built up has helped keep many 
        producers viable. By sharing resources, we built strong 
        partnerships that allowed us to scale to 3,500 boxes per week. 
        Individually that would not have happened.''
          ``It is an absolute shame that I have producers dumping 
        produce now because there is not enough demand for their 
        products, while at the same time our partnering agencies are 
        seeing record numbers of clients. The number of boxes we were 
        providing daily dropped from an average of 700,000 in round two 
        to 80,000 in our foundation-funded program.''

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	        
Food Distribution Partners
    The 21 Contractors we surveyed delivered boxes to a total of 443 
organizations as well as to individual homes. Many worked with their 
local food bank, either providing boxes to them for subsequent 
redistribution or by relieving the food bank's load by delivering 
directly to pantries, shelters, and other nonprofits they served. The 
contractors connected with a diverse network of public and private 
organizations in their communities beyond food banks and pantries, some 
of which were distributing food for the first time. For example, 
Riverside Unified School District served as the aggregator, 
distributor, and last-mile partner and fed its student community with 
healthy food boxes prepared by school food service staff from products 
sourced in its region.
    Much of the success of locally focused contractors was the result 
of a system of mission-aligned businesses coming together to solve 
supply chain and distribution challenges. Pre-existing relationships 
allowed these contractors to identify emergency relief partners quickly 
and serve both large and small food distributors in urban and rural 
communities. Even when they had not previously worked together, 
distribution and nonprofit partners already knew and respected each 
other and came to the partnership with aligned values and goals. 
GrowFood Carolina noted that, prior to the pandemic, they had been 
aware of the nonprofit who ended up being their last-mile distribution 
partner through the FFFB program but had not been able to find the 
right occasion to work together. This funding created that opportunity. 
Furthermore, the contractors' agility allowed some to provide home 
delivery in hard to reach rural communities and directly to vulnerable 
households. For example, Fresh Approach in California partnered with a 
neighborhood-level mutual aid effort that packed boxes at an urban farm 
and delivered them to families within a mile of the farm.
    Contractors were able to turn relationships they held across the 
value chain into avenues for food box delivery. For example, Common 
Market sold to regional hospitals and then started delivering boxes 
that hospital staff provided to patients who screened for food 
insecurity and to uninsured diabetic patients. Another contractor 
pivoted from selling to a university's cafeterias to supplying boxes 
for the school's student food pantry. Community networks connected the 
contractors to churches, neighborhood associations, public and private 
schools, community health clinics, urban gardens, and farms that were 
very well situated to handle last mile distribution. One contractor 
estimated that at least 26 of the organizations they provided healthy 
food boxes to are not connected to the larger emergency food 
distribution network and are no longer receiving FFFB boxes.
    In 2020 the established food bank system was stretched almost 
beyond the breaking point. The contractors Wallace Center spoke with 
emphasized that their efforts were a necessary supplement to the work 
being done by regional food banks. They also pointed out that their 
ability to provide pre-packed, household-sized boxes permitted small 
organizations without staff or volunteers or a secure cold chain to 
safely provide healthy, fresh food to their communities.
In Their Own Words
          ``Most of our nonprofit partners were known to me by virtue 
        of (an) existing network of farm markets in our rural area. The 
        nonprofits we worked with were too small to receive a drop from 
        any of the larger distributors.''
          ``Food hubs like ourselves were able to take pressure off the 
        food bank and food pantries because we were able to work with 
        other community-led nonprofit partners on the front lines of 
        food insecurity in our city. Many of our recipients do not have 
        reliable transportation or access to food banks and pantries, 
        making our neighborhood partnerships critical for 2,000 
        individuals and families every week. I am worried about the 
        folks we served.''
          ``[We were] consistently asked to increase production and in 
        many cases were able to do so. We ended up running 24/7 with 
        three shifts to try and meet demand.''
          ``People requested more on a regular basis.''
          ``Almost all of the food pantries that we were delivering to 
        were small. Our average delivery was 125 boxes and under Round 
        3, they are not getting deliveries because they are being told 
        that they will need a dock and pallet jack to unload and need 
        to take an entire semi-load. Some are being told there isn't 
        enough money in the contract to send small trucks and 
        deliveries out to them.''
          ``We were able to customize boxes to be culturally 
        appropriate for different communities in Chicago. For example, 
        we worked with rabbis to source kosher foods and then 
        distribute them to the right people.''
          ``Thank you so much for the fresh and beautiful food. 
        Everyone is so appreciative because you guys gave us the best, 
        and not spoil scrap. I feel so much better eating such quality 
        foods.''
                                                         Box Recipient.
The Farms
    The food box program in rounds 1 and 2 provided a crucial outlet 
for small and mid-sized producers whose markets dried up overnight with 
the outbreak of COVID-19. Many of the contractors' customers were 
public and private institutions (colleges, hospitals, schools) and 
restaurants, all of which scaled back drastically or ended purchases 
completely in the spring of 2020. The farmers they served faced plowing 
food under and both they and their distributors faced layoffs and 
bankruptcy.
    Surveyed contractors purchased from a diverse range of farms. Data 
from one contractor showed that 30% were less than 100 acres and 70% 
were less than 1,000 acres. Many of the farms were also small, local 
(within 400 miles), and owned by people of color. Most but not all of 
the contractors we surveyed concentrated on fresh produce boxes but 
some also provided dairy products.
    The FFFB program required GAP certified produce, which was a 
barrier for some farms that traditionally work with food hubs. Though 
this requirement, in some cases, limited the farms that locally-focused 
contractors could source from, it helped motivate GAP-ready farms who 
hadn't previously had an economic incentive to attain certification 
become GAP certified this year. Contractors reported that multiple 
farmers received certification as a result of the market opportunity 
that the contract afforded them. It similarly created an incentive for 
the hubs themselves to seek additional food safety certifications. Some 
growers were ready to continue their certification process but were 
unable to access the appropriate technical assistance quickly enough 
within the short timeline of the contract. It is clear that a 
guaranteed economic opportunity is a critical motivator for farms 
seeking food safety certification.
In Their Own Words
          ``We grew quite a bit on our farm and supplemented that with 
        product sourced primarily from other smaller, diversified farms 
        within 20 to 30 miles of our farm.''
          ``We touched around 50 farms and several were able to obtain 
        GAP Certification. Three were urban farms and most partners 
        emphasized smaller farms, those owned by people of color, and 
        reflected our values in doing so. All of the farms were 
        relatively small.''
          ``Our vendor base consisted of small-scale family farms, 
        including minority owned, organic, and beginning farmers. Most 
        of our market was restaurants and there were limited 
        alternatives because the farmers['] markets were closed in many 
        cases.''
          ``[Under S]ecretary Ibach visited our farm and saw our 
        produce boxes. He said we had some of the best he had seen, yet 
        we were denied for the 3rd round. I felt the 3rd round was all 
        about cheap food versus high quality local food.''
Lessons Learned
    Congress, USDA AMS, and the contractors we worked with performed 
above and beyond what could have been expected in an unprecedented, 
chaotic situation with multiple needs and sometimes conflicting 
demands. AMS's initial FFFB contracts represented a massive investment 
in local food systems that had positive impacts on small to midsize 
farms, local economies, and food security in communities across the 
country. Food hubs, farm-based businesses, community nonprofits and 
others were able to provide high quality fresh food distribution at a 
fair price and meet the USDA AMS contractor criteria, without any 
reported instances of food waste. The format in the first two rounds 
worked well for the contractors we spoke with and they would like the 
program to continue and to be included in future rounds.

          The twin goals of hunger relief and farm and supply-chain 
        support should not be in conflict. Investment in programs that 
        develop and enhance resilient local supply chains can also 
        effectively address community food insecurity and have the 
        added benefit of contributing to stronger regional economies.
          Locally focused contractors are uniquely positioned to 
        successfully implement a box program. The flexibility of 
        shorter supply chains, the connection to their communities, 
        expertise in last mile logistics, and ability to scale up 
        quickly made these contractors particularly effective at 
        meeting the requirements of the program. These contractors 
        believe that their successful experience with the food box 
        program demonstrates their potential to sell fresh, healthy, 
        regionally-produced foods through AMS's established commodity 
        procurement systems in the future.
          Values-alignment and relationships between contractors and 
        nonprofit partners allowed for efficient service delivery. Many 
        of the locally-focused contractors had existing relationships 
        with the nonprofits they partnered with to deliver food to 
        families in need. They also tended to have similar values which 
        allowed them to work together quickly to meet the needs of the 
        farmers and community members simultaneously.
          Market-based programs drive development of supply chains. 
        Opening AMS's commodity procurement markets and directing money 
        to these farms and supply chain organizations allowed them to 
        achieve a scale that has not been available to them before. A 
        clear market incentive also motivated farmers to seek GAP 
        certification. Grant programs from USDA AMS have been critical 
        to this sector for years but these contracts represent a 
        significantly larger, direct investment in local food supply 
        chains which allowed for much faster innovation, job creation, 
        and supply chain development.
          AMS's various grant programs provided crucial seed funding to 
        many of the locally-focused contractors. Those prior 
        investments from USDA helped them launch and grow so they were 
        able to meet the extraordinary needs the country faced this 
        year. Prior investments in the individual distributors, and 
        also the networks of businesses and organizations that 
        participated in this program, was critical to their success.
Recommendations
    Based on our research and consultation with contractors, we have a 
series of recommendations that will ideally support USDA in designing 
and implementing future programs like the Farmers to Families Food Box 
Program. Contractors that were sourcing from local and regional 
producers, such as food hubs and local distributors, were uniquely 
positioned to excel in this program due to their strong relationships 
on both ends of the value chain, and their ability to nimbly pivot 
their sourcing, operations, and distribution models to accommodate this 
program. Recognizing that there were many things that were outside of 
AMS's control, we encourage consideration of the following 
recommendations in future rounds and for AMS fresh commodity 
contracting in general:

          Keep what works: Many contractors are fighting for the 
        continuation of this program because of its overall 
        effectiveness. One of the key factors that made this program so 
        innovative was that the contracts went to intermediaries. This 
        allowed food hubs and other supply chain entities to align the 
        needs of farmers and their distribution partners and think 
        creatively about building supply chains that worked for 
        producers and consumers. Furthermore, the flexibility and focus 
        on applicants' ability to meet the goals of the program in the 
        first two rounds, rather than strictly the lowest price, was 
        critical in creating opportunity for locally-focused 
        contractors. This allowed for contractors to increase sourcing 
        from small and BIPOC owned farms, and to pay them fairly. 
        Contractors also applauded the ease of the invoicing system, 
        the speed of payments, and USDA's communication with them in 
        the early rounds. The BOA system also has potential to be a 
        useful tool in future versions of this program given its 
        longer-term contracts and its adaptability.
          Eliminate price as the determining factor in awarding bids: 
        The success of local contractors in the first two rounds of 
        this program demonstrated that the twin goals of hunger relief 
        and small- and mid-sized farm and local supply-chain support 
        should not be in conflict. However, focusing exclusively on low 
        price in subsequent rounds undercuts support for key segments 
        of the U.S. farm and food system during this emergency. 
        Further, focusing on scale has completely deprived access to 
        food for many of the organizations providing emergency food to 
        the highest need communities through small, last-mile 
        distributors that are not connected to larger scale food banks 
        or food pantries.
          Contract decisions should support producers and supply chain 
        organizations of all sizes, including support for small and 
        very small businesses. We suggest a scoring criteria matrix 
        that reflects the following priorities:

                  Contractors that identify as or source from:

                        <bullet> Black, Indigenous and People of Color 
                        owned businesses,

                        <bullet> Veteran owned businesses,

                        <bullet> Women owned businesses, [and]

                        <bullet> Small and very small businesses.

                  Demonstrated relationships with producers in the 
                region.
                  Past track record of performance with the program.
                  Demonstrated relationships with community 
                organizations.
                  Commitment to fair prices for producers documented 
                through pricing criteria.
                  Commitment to high quality food products.
                  Ability to tailor boxes to food needs of community 
                (i.e., cultural appropriateness).
                  Ability to include appropriate, household size/
                quantity of products.
                  Ability to serve rural and other hard-to-reach 
                communities.
                  Ability to distribute to small organizations.
                  Ability to distribute food in the region in which it 
                was produced.
                  Technical capacity based on connections to last mile 
                distribution partners.
                  Demonstrated commitment to minimizing food waste.

          Allow for category-only boxes: Many local contractors 
        excelled in providing category-specific boxes, such as produce-
        only boxes, in the first two rounds. The preference for 
        combination boxes in the third round made re-application 
        unfeasible for many of these contractors, who were unable to 
        reorient their operations to accommodate sourcing and separate 
        cold chains for dairy, meat, and produce.
          Permit multiple contracts in the same jurisdiction and 
        multiple contract sizes: Sourcing from multiple contractors of 
        different sizes that are partnering with different distribution 
        partners within a region will help the program reach more 
        beneficiaries.
          Extend the contract period of performance: Two month 
        contracts with contractors do not provide an adequate time 
        horizon for producers to plan production and harvest. Providing 
        longer contracts will provide stability for producers, 
        workforce, and uninterrupted food delivery. We recommend 
        contracts cover at least a 6 month period and ideally up to a 
        year.
          Eliminate pre-cooked requirement for meat: The ``pre-cooked'' 
        requirement for meat products included in the box limits 
        sourcing options from local ranchers and meat-producers that do 
        not provide pre-cooked SKUs. Allowing for different meat 
        product options, including healthy and safe dried meats like 
        jerky, will give contractors and producers the amount of 
        flexibility that will lead to innovation in providing high-
        quality, locally-produced meat to box recipients.
          Provide clear and consistent communications and right-sized 
        technical assistance to applicants and contractors: Many 
        potential contractors who are well positioned to excel in this 
        program may have no familiarity with USDA contracting systems 
        or processes. Providing clear guidance to contractors 
        throughout the bid process and implementation is critical for 
        their success. It is evident that a lot of effort went into 
        FAQs, webinars, and the WBSCM developed in the first rounds of 
        this program. We encourage AMS to make use of and build upon 
        those systems for providing information and technical 
        assistance. USDA webinars and all written guidance should be 
        aware of language barriers that may exclude certain eligible 
        contractors. New potential contractors could also benefit from 
        support through a system like NRCS's Technical Service 
        Providers (TSP) to supplement AMS' staff capacity. USDA may 
        also consider how to engage technical assistance providers 
        beyond AMS such as Extension and State Departments of 
        Agriculture to maximize access to this program.
          Continue using the BOA: AMS's willingness to use the BOA 
        system is a positive innovation that could be applied in future 
        instances to increase consistency and access to a broad range 
        of commodity procurement programs. The BOA solicitation process 
        should have resulted in contracts in rounds three and four for 
        locally-sourcing contractors who were awarded in earlier 
        rounds. However, this was not the case because the BOA was 
        rolled out in concert with a shift toward prioritizing lower 
        price contracts. In future iterations, the BOA process can 
        provide additional stability for approved contractors because 
        of its flexibility, longer timeline, and adaptability. BOAs 
        allow Commodity Procurement to tailor the product specification 
        to the needs of the recipients. The BOA approval process allows 
        approved suppliers to access more opportunities seamlessly, 
        which could increase the amount of locally-produced food 
        purchased by USDA Commodity Procurement.
          Coordinate with technical service providers and state 
        agencies to provide food safety and GAP certification technical 
        assistance and auditing services to contractors working to 
        bring GAP-ready small- and mid-sized producers into their 
        supply chains. The program's food safety requirement that all 
        contracted suppliers demonstrate GAP certification creates a 
        strong incentive for farmers who have been considering 
        certification to accelerate their process and receive a USDA 
        GAP audit. GAP certification not only allows farmers to 
        participate in this program but has the potential to unlock 
        other wholesale markets that require GAP Certification.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	        
Conclusion
    Based on our research, it is clear that USDA has a unique 
opportunity to simultaneously support small- and mid-sized farms, 
invest in local food supply chains, and address hunger. The FFFB 
program, conceived as a way to both support farm income and meet 
emergency food needs, was successful in those aims in the first two 
rounds for the businesses and organizations the Wallace Center 
interviewed. The program provided a `proof of concept' that AMS 
Commodity Procurement can successfully transact with businesses in the 
local and regional food sector. The Farmers to Families Food Box 
Program demonstrated many tools and characteristics that can make 
similar programs resoundingly successful.
    There is significant untapped potential for positive impact within 
the local food sector, and with support and partnership from USDA, 
programs like the Farmers to Families Food Box can help activate it. We 
are extremely grateful for the partnership and guidance that the Agency 
has provided the Wallace Center as we've supported and analyzed this 
program and look forward to continuing to explore the possibilities.
About the Wallace Center
    The Wallace Center at Winrock International is a national nonprofit 
that brings together diverse people and ideas to co-create solutions 
that build healthy farms, equitable economies, and resilient food 
systems. Wallace has been a leader in the development of healthy 
regional food and farming systems for over 35 years, working to scale 
up the supply and positive environmental, social, and economic benefits 
of regional, sustainably produced food. We seek to affect systems 
change to bring benefits to the environment, to communities, and to the 
farmers and food businesses that are the building blocks of a healthy 
and equitable food system. For more information, reach out to Co-
Director Susan Lightfoot Schempf, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb989e988a85c59888838e869b8dab9c828599848880c584998cc5">[email&#160;protected]</a>
Acknowledgements
    We'd like to offer our gratitude to USDA staff, in the Commodity 
Procurement and Transportation and Marketing divisions of AMS in 
particular, for both their extraordinary effort in creating and 
implementing this program, and their continual support of Wallace 
Center as we worked with the contractors and compiled this report. We 
are so grateful for your partnership. Secondly, this research and 
technical assistance would have been impossible without the commitment 
and brilliance of our external partners, Evan Smith of Alden Services 
and Kate Fitzgerald of Fitzgerald Canepa. Finally, and most 
importantly, we are eternally grateful for and so deeply inspired by 
the contractors who shared their stories, ideas, time, and dedication 
to making the food system work better for all of us. You all are heroes 
and we hope we did you justice!
Surveyed Contractors

 
 
 
Willing Hands Norwich, VT            Fresh Approach Oakland, CA
Zone 7, LLC Ringoes, NJ              Malama Kaua`i Lihue, HI
Aggrigator, Inc. Watsonville, CA     Lake County Community Development
                                      Corp Ronan, MT
North Alabama Agriplex Cullman, AL   Cecarellis Harrison Hill Farm, LLC.
                                      Northford, CT
GrowFood Carolina Charleston SC      Mycoterra Farm South Deerfield, MA
A & H Farm Manhattan, KS             Willimantic Food Coop Willimantic,
                                      CT
Eastern Market Partnership Detroit,  The Berry Man, Inc. Santa Barbara,
 MI                                   CA
Juniper Hill Farms LLC Lawrence, KS  Inland Northwest Farmers Market
                                      Association Spokane, WA
North Coast Opportunities/MendoLake  Fossil Creek Farms, LLC. Fort
 Food Hub Ukiah, CA                   Collins, CO
ALL Holding Company, LLC.            The Common Market Philadelphia, PA
 Souderton, PA
Riverside Unified School District    Gourmet Gorilla Chicago, IL
 Food Hub Riverside, CA
 


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	                                     
                                 ______
                                 
Letter Submitted by Hon. Tracey Mann, a Representative in Congress from 
 Kansas; on Behalf of Barry Feaker, Executive Director, Topeka Rescue 
                           Mission Ministries
March 11, 2020

    Hon. David Scott,
    Chairman,
    House Committee on Agriculture,
    Washington, D.C.;

    Hon. Glenn Thompson,
    Ranking Minority Member,
    House Committee on Agriculture,
    Washington, D.C.

    Dear Chairman Scott and Ranking Member Thompson:

    Thank you for holding a hearing on food insecurity in America. The 
times we are living in are far from normal, leaving millions of 
Americans struggling, with the demand for food assistance outpacing 
existing systems that address hunger. As a nonprofit organization on 
the frontlines of this tremendous challenge, we are encouraged to see 
Congressional leaders prioritizing this pressing issue.
    In response to the coronavirus pandemic, the Topeka Rescue Mission 
rapidly developed Operation Food Secure--a powerful network of 90+ 
civic and faith-based groups distributing Farmers to Families Food 
Boxes ``the last mile'' into neighborhoods and rural communities across 
eight Kansas counties. This week, our program reaches an important 
milestone: delivering our 100,000th food box to a family in need.
    There are countless stories of ways that these food boxes have been 
leveraged to strengthen neighborhoods and communities. Placing these 
resources in the hands of capable and empowered nonprofits has the 
potential to address root causes of food insecurity.
    For instance, one of our sites is a church in a small town of 
1,300. The volunteer leaders received a call from an elementary school 
guidance counselor about a single mom who was new in town and needed 
food for her children. Members from the church delivered a food box to 
the mom and through the interaction learned that her car was having 
mechanical issues and not running properly. The church members teamed 
up together to take her car into the shop and get it fixed for her.
    Another site is a Neighborhood Improvement Association in a low-
income neighborhood. The volunteers noticed that a man who regularly 
comes to get a food box was missing. They asked around and found out he 
had a stroke. Their team checked in with him and began delivering the 
food boxes to his home and meeting other physical needs as he recovers. 
He said, ``I'm so thankful, this food has been so helpful to offset the 
incurring medical bills from my stoke.''
    Another site in a Topeka food desert delivers to a senior citizen 
in their neighborhood. The gentleman thanked our volunteers for the 
food and said they could take him off their list. His finances have 
stabilized and over the last couple of deliveries he has been sharing 
the food with coworkers in need. This is a great story of a senior who 
needed the food for a time, shared what he didn't need, and then asked 
to be taken off the list so someone else could receive the food.
    We are grateful that Farmers to Families fits perfectly at the 
nexus of so many vital issues: supporting American farmers and the food 
supply chain, preventing food waste and loss, reducing barriers to 
nutritious foods for vulnerable populations, and leveraging the 
potential of local communities to step up and meet the needs of their 
neighbors. Our team urges you to continue the Farmers to Families Food 
Box Program as a nimble and innovative way to address food insecurity 
in concert with existing Federal nutrition programs.
            Sincerely,

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	            
Barry Feaker,
Executive Director, Topeka Rescue Mission Ministries.

 
 
 
                   Operation Food Secure Site Partners
 
    The following list represents the social service organizations,
 churches, Tribes, and other community groups who have hosted Farmers to
 Families Food Box distributions under Operation Food Secure.
Douglas County                       Ebenezer Baptist Church
                                     El Encuentro Iglesia
Anchor Church                        El Shaddai Templo De Alabanza
Boys and Girls Club Lawrence         First Baptist Church of Silver Lake
                                     First Presbyterian Church
Jackson County                       Gametime Living Facility
Mayetta United Methodist Church      Grace Episcopal Cathedral
Nueva Vida/Evangel United Methodist  Grace Point Church
 Church
                                     Habitat for Humanity
Jefferson County                     Hospitality Incubator Program
                                     JayHawk Area Agency on Aging
Jefferson Assembly of God            Kansas Avenue United Methodist
                                      Church
Valley Falls Fire Department         Kansas Children's Service League
                                     Let's Help
Morris County                        Light of the World Church
                                     Likins Foster Neighborhood
                                      Improvement Association
Morris County Care & Share           LULAC Senior Center
Alta Vista Christian Church          Mount Carmel Missionary Baptist
                                      Church
Community Christian Church           New Beginnings Baptist Church
Council Grove Christian Church       New Life Baptist Church
Council Grove Senior Citizen Center  New Mount Zion Baptist Church
Dunlap Council Grove United          Northland Christian Church
 Methodist Church
Flint Hills Apostle Church           Oakland United Methodist Church
Wilsey Christian Church              Old Town Neighborhood Improvement
                                      Association
                                     Omni Circle Group
Osage County                         Pioneer Motive Power Place
                                      Apartments
                                     Prince of Peace
Cross Road Community Church          Remember to Remember
ECAT (Ecumenical Christian Action    Rossville Christian Church
 Team) Osage City
Grace Community Church Overbrook     Salvation Army
Heritage Country Church              Seaman Community Church
Lyndon United Methodist Church       Second Baptist Church
Valley View Apartments               Shiloh Baptist Church
                                     Silver Lake United Methodist Church
Riley County                         St. John's African Methodist
                                      Episcopal Church
                                     St. John's Lutheran Church
Remnant Church                       Sunshine Connection
Rock Hills Church                    Tables of Blessing Community Food
                                      Drive
                                     The Woods Church
Shawnee County                       Topeka Black Lives Matter
                                     Topeka City Union Mission
Asbury Mount Olive United Methodist  Topeka Family Friends Juneteenth
 Church
Boys and Girls Club of Topeka        Topeka First Assembly Oakland
Bread of Life                        Topeka Housing Authority
Burgess Court Mobile Home            Topeka North Outreach
 Communities
Central Park Christian Church        Trinity Lutheran Church
Christian Neighbor Center            Trinity Presbyterian Church
Church of God Fellowship             True Vine Missionary Baptist Church
Citizen Potawatomi Nation            Valeo Behavioral Health
College Hill Neighborhood            Valley Park Neighborhood
 Improvement Association              Improvement Association
Communities in Schools: Ross
 Elementary School, State Street     Wabaunsee County
 Elementary School
Community Action
Cowboy Church                        Cheryl Christiansen--St. Mary's,
                                      Kansas
East Topeka Senior Center            Maple Hill Church
 

                                 ______
                                 
                          Submitted Questions
Response from Kyle Waide, President and Chief Executive Officer, 
        Atlanta Community Food Bank
Question Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question. Mr. Waide, many active duty military families were 
already experiencing food insecurity before the COVID-19 pandemic, and 
we know that the number of these families has only increased since 
March of 2020. Food banks operate on or near every military 
installation, and one out of every three children attending a 
Department of Defense-run school is eligible for free or reduced price 
meals. Given the high rate of food insecurity among our military 
families, do you believe that the Federal Government should develop and 
support targeted solutions to help end food insecurity among those 
currently serving and alleviate the burden this inaction places on food 
banks?
    Answer. Feeding America is advocating for the inclusion of a 
Military Family Basic Needs Allowance in the FY 22 National Defense 
Authorization Act to provide a monthly allowance for service members 
whose income is less than 130% of poverty level. The Military Family 
Basic Needs Allowance would need to be reauthorized yearly, as the NDAA 
establishes annual policy and spending policies. Based on data about 
service member's pay and family sizes, the Congressional Budget Office 
has estimated that approximately 10,200 service members would receive 
an average allowance of $400 per month.
Questions Submitted by Hon. Gregorio Kilili Camacho Sablan, a Delegate 
        in Congress from Northern Mariana Islands
    Question 1. We know that food access can be more difficult in rural 
and remote areas like the Northern Mariana Islands. What can you tell 
us about how rural and remote food banks like Karidat, Empty Vessel, 
Grace Christian, or the Salvation Army on Saipan are meeting the needs 
of their communities?
    Answer. Food access to rural communities continues to be a struggle 
throughout the country and territories. We've seen innovation through 
mobile markets that travel throughout rural communities or partnering 
with local schools to distribute food to children. Another innovation 
is food banks will partner with food retail partners, such as grocery 
stores or restaurants, to get excess food to those in need across a 
community.

    Question 2. Mr. Waide, your testimony touches on your efforts to 
ensure that you are serving people equitably. Can you expand on what 
you are doing to reach racial and ethnic minority groups and veterans 
who face food insecurity at much higher rates?
    Answer. We know that there are certain characteristics that make a 
household more likely to experience food insecurity. Households that 
include members of a minority ethnicity, children, a veteran of a 
recent war or a household member with a disability are all more likely 
to experience food insecurity. Latino households are two times more 
likely to be food-insecure than white households. Black households are 
2.2 times more likely to be food-insecure. As we try to respond to 
these realities in our service area we take two primary strategies. We 
utilize data on the demographics and characteristics of the communities 
we serve to help us determine if we are doing a good enough job in 
distributing our resources--food, dollars and attention--equitably 
across those communities. If we see gaps in areas where there is 
elevated need driven by these social characteristics we take steps to 
bring more resources to bear in those communities. Second we work very 
hard to develop strong collaborative partner relationships with 
organizations that are trusted and known in communities of elevated 
need. Intentionally establishing these organizations as partners with 
the food bank allows us to bring the core resource of food to an 
organization that is already working directly with individuals and 
communities that are experiencing higher rates of food insecurity. One 
example of this in our pandemic response has been the partnerships we 
have established to respond to the elevated need within the Latino 
community. Early in our response we began a partnership with Telemundo 
Atlanta and Plaza Fiesta, a Latino owned central shopping center, to 
establish regular food distributions that were promoted, staffed and 
supported by trusted Latino led organizations. This has allowed us to 
fill a key gap in our ability to meet need in that community.

    Question 3. Mr. Waide, your testimony talks about how vitally 
important SNAP is as the nation's first line of defense against hunger. 
The Northern Mariana Islands does not participate in SNAP and receives 
a block grant instead. What would the cost to charities and nonprofits 
be to fill in the gaps if SNAP benefits were reduced or capped?
    Answer. For every meal one of the 200 Feeding America food bank 
provides, SNAP provides nine. Block granting of the program would mean 
that they would have a fixed annual funding that would render the 
programs unable to automatically respond to increased need, as they do 
today. As need increases, states would have to cut eligibility or 
benefits or establish waiting lists to stay within capped funding. The 
charitable sector simply would not be able to fill in the gap that 
capping SNAP benefits would create.
Response from Zippy Duvall, President, American Farm Bureau Federation
Questions Submitted by Hon. Troy Balderson, a Representative in 
        Congress from Ohio
    Question 1. An issue I've been paying especially close attention 
to, as I believe we all have, is the ability of producers to deliver 
their goods to consumers throughout this pandemic. In your testimony, 
you mentioned the long food lines many of us saw that were a result of 
the supply chain disruption. Was there a measurable change between the 
ability to provide for the food-insecure before the establishment of 
the Farmers to Families Food Box Program, and after?
    Answer. There was absolutely positive measurable change in farmers' 
ability to deliver goods to food banks due to the Farmers to Families 
Food Box Program. Giving back and supporting local communities has long 
been a priority for farmers and ranchers, and the pandemic only 
strengthened that desire to help our neighbors. However, due to 
donation requirements for stability and shelf life, it was difficult 
for farmers to find outlets to get their products straight from the 
farm to the local food bank. But once COVID-19 hit, and the overall 
food supply chain broke down, the need to move farm-fresh food through 
local food banks to match supply with demand became imperative, and it 
was the Farmers to Families Food Box Program that helped connect those 
dots

    Question 2. As we approach the 1 year anniversary of the first 
COVID relief package passing, what are the most significant obstacles 
American farmers, processors, and distributors continue to face when 
trying to provide the most for those in need?
    Answer. Access to labor was an issue prior to the pandemic and has 
continued to be a top issue for farmers and ranchers. We continue to 
advocate for reforms to the guest worker program to ensure it is 
economical, user-friendly, and available to all agricultural 
industries, not just seasonal and temporary work. We also advocate for 
our existing workforce to have an opportunity to achieve legal status.
    The pandemic emphasized the areas in which the H-2A program is in 
dire need of reform. Early on, consulates throughout the globe were 
closed or operating at minimal capacity, putting the timely arrival of 
H-2A workers in jeopardy and potentially delaying the planting and 
harvesting of American crops. Thanks to the efforts of Farm Bureau and 
other agriculture groups, these workers were deemed essential and 
granted waivers. Yet, even before the pandemic, it was not unusual for 
farmers to face weeks, even months, of delays in paperwork processing 
to get the workers they need.
    Additionally, at a time when farmers saw their revenues plummet due 
to sudden shifts in the supply chain, farmers using the H-2A program 
saw their labor costs increase on average 6% compared to the previous 
year due to the H-2A program requirement to pay H-2A employees the 
adverse effect wage rate. American agriculture desperately needs H-2A 
wage reform if these farms are going to remain viable and continue to 
play a role in protecting our national food supply.
    Finally, as COVID-19 vaccine availability increases, farmworkers 
who lack proper documentation continue to face challenges accessing 
vaccines in states where IDs are required for inoculation. Situations 
like this further emphasize the need to provide stability for our 
longstanding employees, while continuing their work in agriculture, 
alongside reforms to the H-2A guestworker program.
Response from Eric Hodel, Chief Operating Officer and Chief Financial 
        Officer, Midwest Food Bank
Question Submitted by Hon. Troy Balderson, a Representative in Congress 
        from Ohio
    Question. Your methods for distributing food to those in need is 
less reliant on government control than many others. The Farmers to 
Families Food Box Program does the same thing--unleashing the power and 
innovation of the private-sector. In your experiences, has greater 
government control of food distribution been a positive or has it 
produced more issues than solutions?
    Answer. Our experience at Midwest Food Bank is to leverage 
entrepreneurial spirit with heart to serve those in need and to work 
efficiently and effectively to source food and distribute it to our 
agencies. The Farmers to Families Food Box Program had just enough 
structure to ensure food was going to agencies and pantries but did not 
require significant reporting which would have added administrative 
burden and cost. Yes, we support government support and access to help 
fight food insecurity but recommend not burdening the process with 
heavy regulations or control.
Response from Ron Edenfield, President and Chief Executive Officer, 
        Wayfield Foods, Inc.
Questions Submitted by Hon. Gregorio Kilili Camacho Sablan, a Delegate 
        in Congress from Northern Mariana Islands
    Question 1. Mr. Edenfield, you testified on the importance of SNAP 
as an economic stimulator. How does SNAP stimulate local economies?
    Answer. SNAP is a unique government program. Participants are given 
benefits that they can redeem in their local grocery store for food 
purchases. The grocery store is often a cornerstone in communities, 
serving as both a major employer and economic generator for other 
businesses. By having participants redeem their benefits in a store, 
those funds function like any other tender from in-store, going to pay 
employees wages and benefits. Additionally, with SNAP benefits targeted 
directly toward food, families are not faced with the decision on 
whether to buy groceries or pay rent. Instead, they can use their SNAP 
benefits to help pay for the grocery bills while allocating funds to 
also pay for rent and other necessities that drive a local economy. Our 
partners in the hunger community often share that for every $1 spent on 
SNAP benefits, the local community sees $1.80 in economic impact. A 
2018 study commissioned by the National Grocers Association provides 
data on the economic impact of the independent grocery industry and 
underscores the importance of SNAP. Together with warehouse stores, 
chain supermarkets and department stores, food retailers currently 
provide almost four million jobs specifically dedicated to selling food 
products available via SNAP. These retailers together sell almost $459 
billion worth of food products, including $57 billion to SNAP 
recipients, helping to ensure that families have the food they need. 
These sales alone create over 529,000 jobs in the United States.

    Question 2. The Northern Mariana Islands currently does not 
participate in the SNAP program. Instead, the Marianas receives the 
Nutritional Assistance program which is a capped block grant. Can you 
explain why Block Grants lead to less access to needed food benefits?
    Answer. SNAP enjoys true ubiquity amongst the states and therefore 
significant administrative cost containment due to the economies of 
scale. The same laws, regulations, technology and licensing 
requirements apply across the fifty states and Washington, D.C. Due to 
this, grocers' participation is much more streamlined and our payment 
service providers can implement the program and its requirements into 
our systems rather seamlessly.
    Grocers and their SNAP customers both rely on this ubiquity and 
standardization as do the states and the Federal Government. Because 
the program is so streamlined, over 95% of SNAP funding goes directly 
to benefits. In short, the government cost to administer is incredibly 
low when you consider the size and scope of the program. As we work in 
other Federal feeding programs such as WIC, we often point to the 
ubiquity of SNAP as a gold standard for efficiencies. Because WIC is 
administered uniquely in each state, the licensing and compliance 
process for grocers is much more complicated and costly. Therefore, not 
all grocers participate in WIC, and that lack or participation can 
certainly create access issues for participants. I appreciate how the 
challenges of the capped block grant do not allow the Northern Mariana 
Islands to enjoy the efficiencies of scale and ability for SNAP to 
respond quickly to increased need in the community. The grocery 
industry operates on the slimmest of margins and if compliance costs 
are too high, it can certainly impact its ability to participate in the 
program and provide that service to a local community.
    Thank you for your time and concern about this issue. It was my 
pleasure to answer and provide more explanation about the SNAP program.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
